No. _______

In the

Supreme Court of the United States
KEITH A. TUCKER; LAURA B. TUCKER,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
GEORGE M. CLARKE III
PHILLIP J. TAYLOR
MIREILLE R. OLDAK
BAKER & MCKENZIE LLP
815 Connecticut Ave., NW
Washington, DC 20006
(202) 835-6184

GREGORY G. GARRE
Counsel of Record
BENJAMIN W. SNYDER
ERIC J. KONOPKA
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioners

QUESTION PRESENTED
May the judge-made “economic substance
doctrine” be invoked to supplant any tax results that
a court deems abusive, even when those results stem
from the application of clear, unambiguous, and
mechanical provisions of tax law, as the Fifth Circuit
held below and other courts of appeals have
concluded, or is the doctrine properly invoked only as
a tool for interpreting the meaning of tax laws, as the
D.C. and Sixth Circuits have held?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
TABLE OF AUTHORITIES ..................................... iv
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY AND REGULATORY
PROVISIONS INVOLVED.................................. 1
STATEMENT OF THE CASE ................................... 1
A. Legal Background ......................................... 3
1. The Economic Substance Doctrine ......... 3
2. Background Tax Principles .................... 6
B. Facts And Procedural History ...................... 8
REASONS FOR GRANTING THE WRIT............... 13
A. The Circuits Are Split On The Proper
Role, And Limitations, Of The JudgeMade Economic Substance Doctrine .......... 13
B. The Fifth Circuit Erred In Invoking The
Economic Substance Doctrine To
Override Clear, Unambiguous, And
Mechanical Tax Rules ................................. 23
C. The Question Presented Is Important
And Warrants This Court’s Review ............ 31
CONCLUSION ......................................................... 33

iii
TABLE OF CONTENTS—Continued
Page
APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Fifth Circuit, Keith A. Tucker,
Laura B. Tucker v. Commissioner, 766 F.
App’x 132 (5th Cir. 2019)....................................1a
Memorandum Findings of Fact and Opinion of
the United States Tax Court, Keith A.
Tucker
&
Laura
B.
Tucker
v.
Commissioner, 114 T.C.M. (CCH) 326
(Sept. 18, 2017) .................................................20a
26 U.S.C. § 951(a) (2000) ........................................94a
26 C.F.R. § 301.7701-3(c), (g) (2000) ......................97a
26 C.F.R. § 1.367(b)-3(b) (2000) ............................106a
26 C.F.R. § 1.367(b)-3T(b) (2000)..........................114a

iv
TABLE OF AUTHORITIES
Page(s)
CASES
ACM Partnership v. Commissioner,
157 F.3d 231 (3d Cir. 1998), cert. denied,
526 U.S. 1017 (1999) ......................................18, 27
Baker Botts L.L.P. v. ASARCO LLC,
135 S. Ct. 2158 (2015)..........................................25
Ballard v. Commissioner,
544 U.S. 40 (2005) ................................................24
Bank of New York Mellon Corp. v.
Commissioner,
801 F.3d 104 (2d Cir. 2015), cert. denied,
136 S. Ct. 1377 (2016)..........................................19
Barnhart v. Sigmon Coal Co.,
534 U.S. 438 (2002) ..............................................23
Boulware v. United States,
552 U.S. 421 (2008) ..............................................29
Chrysler Corp. v. Brown,
441 U.S. 281 (1979) ..............................................24
Citizens to Preserve Overton Park, Inc. v.
Volpe,
401 U.S. 402 (1971) ..............................................25
Coltec Industries, Inc. v. United States,
454 F.3d 1340 (Fed. Cir. 2006), cert.
denied, 549 U.S. 1206 (2007) .........................19, 24

v
TABLE OF AUTHORITIES—Continued
Page(s)
Commissioner v. First Security Bank of
Utah, N.A.,
405 U.S. 394 (1972) ..............................................27
Cottage Savings Association v.
Commissioner,
499 U.S. 554 (1991) ..............................................28
CTS Corp. v. Waldburger,
573 U.S. 1 (2014) ..................................................26
Fabreeka Products Co. v. Commissioner,
294 F.2d 876 (1st Cir. 1961) ................................22
Frank Lyon Co. v. United States,
435 U.S. 561 (1978) .................................. 3, 4, 5, 29
Gitlitz v. Commissioner,
531 U.S. 206 (2001) ..............................................25
Gould v. Gould,
245 U.S. 151 (1917) ..............................................27
Gregory v. Helvering,
293 U.S. 465 (1935) ................................ 3, 4, 29, 30
Hardt v. Reliance Standard Life Insurance
Co.,
560 U.S. 242 (2010) ..............................................23
Higgins v. Smith,
308 U.S. 473 (1940) ..............................................29

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Horn v. Commissioner,
968 F.2d 1229 (D.C. Cir. 1992) .................. 1, 14, 15
Internal Revenue Service v. CM Holdings,
Inc. (In re CM Holdings, Inc.),
301 F.3d 96 (3d Cir. 2002) ....................... 18, 25, 33
Kirchman v. Commissioner,
862 F.2d 1486 (11th Cir. 1989)............................19
Kisor v. Wilkie,
No. 18-15, 2019 WL 2605554 (U.S.
June 26, 2019) ......................................................24
Klamath Strategic Investment Fund ex rel.
St. Croix Ventures v. United States,
568 F.3d 537 (5th Cir. 2009)............................5, 31
Knetsch v. United States,
364 U.S. 361 (1960) ..............................................29
Lamie v. United States Trustee,
540 U.S. 526 (2004) ........................................23, 26
Mayo Foundation for Medical Education &
Research v. United States,
562 U.S. 44 (2011) ................................................24
Mazzei v. Commissioner,
150 T.C. 138 (2018) ..............................................30
National Environmental Development
Association’s Clean Air Project v. EPA,
752 F.3d 999 (D.C. Cir. 2014) ..............................24

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Nebraska Department of Revenue v.
Loewenstein,
513 U.S. 123 (1994) ..............................................29
Perez v. Mortgage Bankers Association,
135 S. Ct. 1199 (2015)..........................................31
Summa Holdings, Inc. v. Commissioner,
848 F.3d 779 (6th Cir. 2017)........................ passim
Superior Oil Co. v. Mississippi ex rel. Knox,
280 U.S. 390 (1930) ..............................................27
United States v. Coplan,
703 F.3d 46 (2d Cir. 2012), cert. denied,
571 U.S. 819 (2013) ..............................................31
United States v. Daugerdas,
837 F.3d 212 (2d Cir. 2016), cert. denied,
138 S. Ct. 62 (2017)..............................................31
United States v. Wexler,
31 F.3d 117 (3d Cir. 1994), cert. denied,
513 U.S. 1190 (1995) ............................................31
West Virginia University Hospitals, Inc. v.
Casey,
499 U.S. 83 (1991) .................................... 24, 30, 31
STATUTES AND REGULATIONS
26 U.S.C. § 1 ................................................................6
26 U.S.C. § 2(d) ...........................................................6

viii
TABLE OF AUTHORITIES—Continued
Page(s)
26 U.S.C. § 11 ..............................................................6
26 U.S.C. § 11(d)..........................................................6
26 U.S.C. § 42 ............................................................25
26 U.S.C. § 269(a)......................................................26
26 U.S.C. § 357(b)(1) .................................................19
26 U.S.C. § 701 ............................................................8
26 U.S.C. § 871 ............................................................6
26 U.S.C. § 882 ............................................................6
26 U.S.C. § 951(a)........................................................7
26 U.S.C. § 951(a)(1) (2000), amended by
Pub. L. No. 115-97, 131 Stat. 2054
(2017) .......................................................... 7, 10, 20
26 U.S.C. § 951(b)........................................................7
26 U.S.C. § 957(a)........................................................7
26 U.S.C. § 957(a) (2000) ............................................9
26 U.S.C. § 1092 note (1988).....................................14
26 U.S.C. § 1361(a)(1) .................................................8
26 U.S.C. § 1361(a)(2) .................................................8
26 U.S.C. § 1363(a)......................................................8

ix
TABLE OF AUTHORITIES—Continued
Page(s)
26 U.S.C. § 1366(a)(1) .................................................8
26 U.S.C. § 1366(d)(1) (2000) ....................................11
26 U.S.C. § 7701(a)(30) ...............................................6
26 U.S.C. § 7701(o) ......................................................6
26 U.S.C. § 7701(o)(1) ...............................................32
26 U.S.C. § 7701(o)(5)(C) ................................ 6, 32, 33
28 U.S.C. § 1254(1)......................................................1
Pub. L. No. 87-834, 76 Stat. 960 (1962) ...................21
26 C.F.R. § 1.367(b)-3(b)(3)(i) (2000) ........................10
26 C.F.R. § 1.367(b)-3T(b)(4)(i)(A) (2000) ...........10, 21
26 C.F.R. § 301.7701-2(a) ............................................8
26 C.F.R. § 301.7701-3(a) ............................................8
26 C.F.R. § 301.7701-3(b) ............................................8
26 C.F.R. § 301.7701-3(b)(2)(i)(B) (2000)....................9
26 C.F.R. § 301.7701-3(c) ............................................8
26 C.F.R. § 301.7701-3(c)(1)(i) (2000) .................10, 21
26 C.F.R. § 301.7701-3(d) ............................................8
26 C.F.R. § 301.7701-3(g)(1)(ii) (2000) ...............10, 21

x
TABLE OF AUTHORITIES—Continued
Page(s)
42 Fed. Reg. 65,152 (Dec. 30, 1977) ..........................22
56 Fed. Reg. 41,993 (Aug. 26, 1991) .........................22
61 Fed. Reg. 21,989 (May 13, 1996) .........................21
61 Fed. Reg. 66,584 (Dec. 18, 1996) ..........................17
65 Fed. Reg. 3586 (Jan. 24, 2000).............................21
65 Fed. Reg. 3589 (Jan. 24, 2000).............................22
OTHER AUTHORITIES
Amandeep S. Grewal, Economic Substance
and the Supreme Court, 116 Tax Notes
969 (2007) .............................................................30
H.R. Rep. No. 87-2508 (1962) (Conf. Rep.) ...............20
H.R. Rep. No. 111-443, pt. 1 (2010) ............................6
Joseph Isenbergh, Musings on Form and
Substance in Taxation, 49 U. Chi. L.
Rev. 859 (1982) ....................................................29
Leandra Lederman, W(h)ither Economic
Substance?, 95 Iowa L. Rev. 389 (2010) ..............25
Mertens Law of Federal Income Taxation
(Westlaw June 2019 update) .......................6, 7, 29
S. Rep. No. 87-1881 (1962) ........................................17

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Sup. Ct. R. 10(a) ........................................................13
U.S. Dep’t of the Treasury, The Problem of
Corporate Tax Shelters: Discussion,
Analysis and Legislative Proposals (July
1999),
https://www.treasury.gov/resourcecenter/tax-policy/Documents/ReportCorporate-Tax-Shelters-1999.pdf ........................32
David A. Weisbach, Line Drawing,
Doctrine, and Efficiency in the Tax Law,
84 Cornell L. Rev. 1627 (1999) ............................25

Petitioners Keith A. Tucker and Laura B. Tucker
respectfully petition this Court for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Fifth Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a–19a)
is unreported, but available at 766 F. App’x 132 (5th
Cir. 2019). The Tax Court’s opinion (App. 20a–93a) is
unofficially reported at 114 T.C.M. (CCH) 326.
JURISDICTION
The court of appeals entered its opinion and
judgment on April 3, 2019. App. 1a. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
Pertinent statutory and regulatory provisions are
reproduced at App. 94a–117a.
STATEMENT OF THE CASE
This case presents a square circuit split about an
important, recurring question of federal tax law.
Over the last four decades, the lower courts—acting
without guidance from this Court—have developed
deeply conflicting versions of what is known as the
“economic substance doctrine.” Some courts, like the
D.C. and Sixth Circuits, hold that the doctrine is a
“judicial device[] for divining and effectuating
congressional intent, not for supplanting it.” Horn v.
Commissioner, 968 F.2d 1229, 1234 (D.C. Cir. 1992).
As such, those courts invoke the doctrine to interpret
otherwise ambiguous tax rules, but recognize that the
doctrine has no application when a rule’s text is clear
and its application mechanical.
Other courts,

2
including the Fifth, Third, and Federal Circuits,
invoke the doctrine even where the text clearly and
unambiguously authorizes the challenged tax
treatment—using the doctrine to void the results of
such provisions when a court believes that, even
though there is no ambiguity in the rule, Congress
would not have intended the particular result.
This conflict has great practical importance. Not
only does it implicate the proper role (and limits) of
courts in giving effect to unambiguous provisions of
law, but it impacts the ability of taxpayers to rely on
the law as written. As Judge Sutton observed in a
similar vein, “[i]f the government can undo
transactions that the terms of the Code expressly
authorize, it’s fair to ask what the point of making
these terms accessible to the taxpayer and binding on
the tax collector is.” Summa Holdings, Inc. v.
Commissioner, 848 F.3d 779, 782 (6th Cir. 2017).
Likewise, he continued, “[t]he best way to effectuate
Congress’s nuanced policy judgments is to apply each
provision as its text requires—not to elevate purpose
over text when taxpayers structure their transactions
in unanticipated tax-reducing ways.” Id. at 788–89.
In this case, Petitioner Keith Tucker1 made a bona
fide investment that had a 40 percent chance of
generating a significant profit. Through a mechanical
application of three unambiguous tax rules—a brightline, 30-day rule that excluded certain foreign income
from taxation and two rules that allowed taxpayers to
make elections between available tax treatments—
1

Keith and Laura Tucker filed a joint tax return for the
tax year at issue. As a result, Mrs. Tucker is also a petitioner
here. Since the events at issue primarily concern Mr. Tucker,
this petition generally refers to him throughout.

3
the investment also reduced his taxable income. The
Tax Court and the Fifth Circuit both agreed that the
tax results he claimed followed directly from those
unambiguous tax rules. Yet those courts nevertheless
invoked the economic substance doctrine to override
the clear effect of the applicable statutes and
regulations, and disallow the resulting deduction.
This Court should grant review to resolve the
circuit split over whether the economic substance
doctrine may be invoked to void the results of clear
and unambiguous provisions, or is a more limited tool
for interpreting ambiguous text. And this Court
should reverse, because the text-overriding approach
to the economic substance doctrine is fundamentally
at odds with the proper role of the courts and the basic
principles of statutory interpretation that apply to
every other title of the United States Code.
The petition should be granted.
A. Legal Background
1. The Economic Substance Doctrine
a. The economic substance doctrine is generally
traced to a series of decisions of this Court bookended
by Gregory v. Helvering, 293 U.S. 465 (1935), and
Frank Lyon Co. v. United States, 435 U.S. 561 (1978).
In Gregory, the taxpayer owned all the stock of one
corporation (United Mortgage Corporation), which in
turn held shares of another (Monitor Securities
Corporation). 293 U.S. at 467. The taxpayer wanted
to sell the Monitor shares for personal profit, but she
also wanted to reduce the taxes that would have been
due if United had sold the shares (one taxable event)
and then distributed the proceeds to her as a dividend
(another taxable event). See id. To that end: The
taxpayer formed a new corporation, caused United to

4
contribute the Monitor shares to it, dissolved it, and
distributed the Monitor shares to her in liquidation.
Id. Then she took the position that this transaction
was a “‘reorganization’ under section 112(g) of the
Revenue Act of 1928,” resulting in a tax-free
distribution of the Monitor shares to her and a
personal gain on her sale of the shares. See id.
The Commissioner argued that this transaction
was not a “reorganization” within the meaning of
section 112(g), claiming that the transaction “was
without substance and must be disregarded.” Id.
This Court acknowledged that “if a reorganization in
reality was effected,” the taxpayer should prevail. Id.
at 469.
But, the Court said, a statutory
“reorganization” involves “a transfer of assets . . .
made ‘in pursuance of a plan of reorganization’ . . . of
corporate business; and not a transfer of assets by one
corporation to another in pursuance of a plan having
no relation to the business of either.” Id. (emphasis
added). Since the new corporation was “nothing more
than a contrivance,” and the transaction had “no
business or corporate purpose,” the Court held, there
was no “reorganization” as that term was used in
section 112(g). Id. at 469–70.
Forty years later, in Frank Lyon, this Court
identified circumstances in which this focus on the
“substance” of the transaction would not prevent
invocation of favorable tax provisions. There, a bank
wanted to build a new bank and office building, but
could not own it because of banking restrictions.
Frank Lyon, 435 U.S. at 563–64. Instead, the bank
entered into a “sale-and-leaseback” with the
taxpayer—i.e., the taxpayer purchased the building
from the bank and then leased the building back to
the bank. Id. at 564–68. Consistent with a leasing

5
arrangement, the taxpayer reported the rental
income from the bank, interest expense, and
depreciation deductions on its tax returns. Id. at 568.
The Commissioner took the position that the
“transaction in its entirety should be regarded as a
sham.” Id. at 573. Accordingly, he determined that,
for tax purposes, the taxpayer was “not the owner” of
the building who was entitled to take depreciation
deductions. Id. at 568, 572–73. But this Court
rejected any notion that the transaction was a “sham.”
Id. at 580–81. In doing so, it emphasized that the tax
law allows a taxpayer to take depreciation deductions
“for the consumption of . . . capital.” Id. at 581. The
taxpayer had committed its capital to the building—
and was liable for a third-party loan—so it was the
“owner” entitled to claim depreciation deductions,
even if the terms and structure of the transaction had
been shaped by tax considerations. See id.
b. In the 40 plus years since Frank Lyon, lower
courts have adopted conflicting views on the scope
and limits of the economic substance doctrine. But
when the doctrine applies they primarily assess two
things: Whether the transaction had objective nontax economic substance at the time it was
consummated and whether the taxpayer had a
subjective non-tax purpose for entering into it. See,
e.g., Klamath Strategic Inv. Fund ex rel. St. Croix
Ventures v. United States, 568 F.3d 537, 544 (5th Cir.
2009). As discussed below (at 13–22), some courts
apply the doctrine only as a means of interpreting and
applying tax provisions in circumstances where their
application is otherwise open to debate—e.g., in
deciding whether a particular transaction qualifies as
a “reorganization” that might trigger tax benefits.
Other courts, however, have invoked the doctrine as

6
a means of voiding any tax results they deem
unacceptable, even if the results are the product of
clear and unambiguous tax rules.
c. In 2010, Congress enacted a “clarification” of
the economic substance doctrine. 26 U.S.C. § 7701(o).
Section 7701(o) was designed to make the content of
the doctrine more uniform, see H.R. Rep. No. 111-443,
pt. 1, at 295 (2010), but explicitly provides that the
doctrine is applicable only when “the economic
substance doctrine is relevant to [the] transaction” as
determined by case law, “as if this subsection had
never been enacted.” 26 U.S.C. § 7701(o)(5)(C). Thus,
in cases involving application of the economic
substance doctrine to tax years both before (as in this
case) and after adoption of Section 7701(o), the
doctrine’s application depends entirely on judicially
developed rules about its relevance.
2. Background Tax Principles
The courts in this case invoked the economic
substance doctrine in its broadest form to override the
results of unambiguous, mechanical provisions of tax
law. We begin by explaining the background tax
principles (none of which is disputed) governing the
transaction that gave rise to this dispute.
a. Taxation of United States and foreign persons.
The Internal Revenue Code generally taxes United
States persons—including U.S. citizens and domestic
corporations—on their worldwide income. Mertens
Law of Federal Income Taxation § 47:3 (Westlaw June
2019 update) (Mertens); see, e.g., 26 U.S.C. §§ 1, 11,
7701(a)(30). By contrast, the Code generally does not
tax nonresident aliens or foreign corporations, except
on income sufficiently connected to the United States.
Mertens § 47:3; see 26 U.S.C. §§ 2(d), 11(d), 871, 882.

7
These principles potentially allow for indefinite
deferral of federal income tax on foreign income. A
domestic corporation could, for example, conduct its
foreign operations through a foreign subsidiary;
foreign income earned by that subsidiary would
normally escape the Code’s reach. That income would
be subject to federal income tax only when it is
distributed to the domestic parent corporation, as
through a dividend. See Mertens § 45E:1.
Special rules thus limit this deferral of income for
“controlled foreign corporations.” A controlled foreign
corporation is a foreign corporation majority owned by
“United States shareholders,” defined as U.S. persons
who each own at least 10 percent of the stock. See 26
U.S.C. §§ 951(b), 957(a).
Controlled foreign
corporations’
income,
unlike
other
foreign
corporations’ income, is effectively subject to federal
income tax regardless of where it is earned: Each
year, the United States shareholders must include in
taxable income their pro rata share of a subset of the
controlled foreign corporation’s income (known as
“subpart F income”), even if the controlled foreign
corporation does not actually distribute any money to
them. Id. § 951(a); see Mertens § 45E:1. Before 2018,
however, that rule applied only if a foreign
corporation was a controlled foreign corporation “for
an uninterrupted period of 30 days or more during
[the] taxable year” (the 30-day rule). 26 U.S.C.
§ 951(a)(1) (2000), amended by Pub. L. No. 115-97,
§ 14215(a), 131 Stat. 2054, 2218 (2017).
b. Pass-through entities and the “check the box”
regulations. Some legal entities are not subject to
federal income tax at the entity level, even if they are
formed under domestic law and earn income in the
U.S. Those entities—most notably, partnerships and

8
S corporations2—instead “pass through” their income
to their owners, who must report that income on their
own tax returns and pay tax on it. Id. §§ 701,
1366(a)(1). Some entities, such as limited liability
companies, have flexibility in how they are taxed
under the Code. The “check the box” regulations
allow those entities to elect entity-level taxation or
pass-through taxation. 26 C.F.R. §§ 301.7701-2(a),
301.7701-3(a). That flexibility extends to many kinds
of foreign entities. See id. § 301.7701-3(a)–(d).
B. Facts And Procedural History
1. Keith Tucker was the chief executive officer of
a national mutual fund and financial services
company, Waddell & Reed Financial, Inc. App. 3a.
Through a Waddell-sponsored program, he received
financial planning and tax services from professionals
at the accounting firm KPMG. Id. In 2000, KPMG
anticipated that Mr. Tucker would exercise Waddell
stock options, realizing about $41 million of taxable
income. Id. at 3a–4a, 8a. Mr. Tucker told KPMG that
he was interested in diversifying his investments into
riskier assets with a greater upside. Id. at 25a. When
KPMG offered potential investment options that
could also mitigate his tax bill for the year, he
indicated interest—but made clear he would not
participate in an abusive tax shelter. Id. at 25a–28a.
At the recommendation of his advisors, Mr. Tucker
ultimately made several investments. Id. at 44a, 83a.
2

By default, a corporation is a C corporation, or a
corporation subject to subchapter C of the Internal Revenue
Code and the entity-level corporate income tax. 26 U.S.C.
§ 1361(a)(2). An S corporation is a corporation that has opted
into subchapter S of the Code and is therefore not subject to
corporate income tax. Id. §§ 1361(a)(1), 1363(a).

9
One, described further below, had a 40 percent
probability of a $1.5 million profit and—through the
interplay of several clear, unambiguous, and
mechanical features of the tax law—was expected to
have favorable tax consequences for him. Id. at 30a,
68a. That transaction involved the following steps:
• In December 2000, Mr. Tucker formed Sligo
(2000) Company, Inc. (Sligo), which elected S
corporation status, and invested $2,024,700 in
it. Sligo in turn purchased 99 percent of the
shares of Epsolon, Ltd. (Epsolon), an Irish
entity, which by default became a controlled
foreign corporation. Id. at 4a–5a; see 26 U.S.C.
§ 957(a) (2000); 26 C.F.R. § 301.77013(b)(2)(i)(B) (2000).
• On December 20, 2000, Epsolon traded options
tied to the value of the U.S. dollar. It bought
four options and sold four options, collecting
options premiums of $157,500,000 and paying
premiums of $156,041,001. The profitability of
this transaction depended on the volatility of
the U.S. dollar. There was a 40 percent
probability that Epsolon would get to keep the
difference of $1,458,999. App. 5a–6a, 33a–35a.
• On December 21, 2000, the value of the U.S.
dollar changed, which caused four of Epsolon’s
options to appreciate in value. Epsolon closed
those options for a total gain of $51,260,455.
Epsolon also reinvested the proceeds in four
new options for a net premium of $50,602,393.
Id. at 6a, 36a–37a.
• On December 27, 2000, Epsolon elected to be
treated as a partnership for federal income tax
purposes, as the check-the-box regulations

10

•

•

permit. See 26 C.F.R. § 301.7701-3(c)(1)(i)
(2000). That election also ended Epsolon’s
controlled foreign corporation status. Since
Epsolon was a controlled foreign corporation
for fewer than 30 days, Sligo (the only United
States shareholder) was not required to include
its share of Epsolon’s income (the gain from the
options sold) in its taxable income. App. 6a–7a,
32a; see 26 U.S.C. § 951(a)(1) (2000).
Due to Epsolon’s partnership election, it was
deemed to have liquidated and distributed its
assets and liabilities to its shareholders
(primarily Sligo), who were then deemed to
have contributed those assets and liabilities to
a new partnership. 26 C.F.R. § 301.77013(g)(1)(ii) (2000). Normally, Sligo (and thereby
Mr. Tucker) would have “include[d] in income
as a deemed dividend the all earnings and
profits amount with respect to its stock in”
Epsolon, that is, the gain from the options sold.
Id. § 1.367(b)-3(b)(3)(i) (2000). At the time,
though, a regulation gave Sligo the option to
“recognize the gain . . . that it realize[d] in the
exchange” instead. Id. § 1.367(b)-3T(b)(4)(i)(A)
(2000). That amount was zero, so Sligo elected
to recognize it instead of the higher “all
earnings and profits amount.” App. 6a & n.6.
On December 28, 2000, Epsolon closed four
options for a total loss of $39,584,511. Under
general partnership tax principles, 99 percent
of that loss was allocated to Sligo, and thus to
Mr. Tucker. Mr. Tucker included a loss of
$39,188,666 on his 2000 tax return. App. 7a,
45a–46a.

11
On January 8, 2001, the remaining four options
expired worthless. Mr. Tucker reported related
losses of $13,742,247 on his 2001 tax return;
those losses are not at issue here. Id. at 46a &
n.6.
A law firm provided an opinion that this
transaction “would more likely than not withstand
IRS scrutiny.” Id. at 42a. Despite that prediction, the
Internal Revenue Service disallowed the 2000 loss,
assessed a tax deficiency of $15,518,704, and imposed
penalties of $6,206,488.3 Id. at 8a. Mr. Tucker
petitioned the Tax Court for redetermination.
2. In the Tax Court, Mr. Tucker conceded that the
2000 loss was limited to $2,024,700, or his basis
(equal to the amount he had invested) in Sligo’s stock.
Id. at 7a, 50a; see 26 U.S.C. § 1366(d)(1) (2000). He
contended, however, that that loss should be allowed:
The transaction was bona fide and had significant
profit potential ($1.5 million), and the tax
consequences resulted from a mechanical application
of clear and unambiguous tax rules. App. 53a–58a.
The Commissioner made several counterarguments,
but the court focused on his argument about the
economic substance doctrine. Id. at 51a–52a.
The Tax Court acknowledged that every step in
the transaction at issue complied with the tax law,
and that applying the tax law as written would result
in recognition of the loss on the options trades without
recognition of the gain. Id. at 53a–58a, 60a–63a. Yet
the court denied that treatment because Mr. Tucker
•

3 The IRS also disallowed the 2001 loss. That loss is the
subject of a separate lawsuit in the Court of Federal Claims,
No. 1:05-cv-00999-MMS, which has been stayed pending the
outcome of this case.

12
had “cite[d] no legislative, regulatory, or other
authority indicating that Congress intended such a
result. Rather, legislative history and congressional
intent contradict [his] argument.” Id. at 61a.
The Tax Court then invoked the economic
substance doctrine, which, it said, “permits a court to
disregard a transaction—even one that formally
complies with the Code—for Federal income tax
purposes.” Id. at 65a. Applying the doctrine, the
court determined that, objectively, the transaction’s
potential profit and actual losses were too small
relative to the tax losses claimed, id. at 70a, 79a; and,
subjectively, Mr. Tucker had “entered into the
Epsolon options for the sole purpose of reducing his
income tax,” id. at 81a. Accordingly, the court refused
to allow the tax loss at issue. Id. at 21a.4
3. Mr. Tucker appealed to the Fifth Circuit, where
he renewed his argument that the economic
substance doctrine is inapplicable altogether in this
case because the transaction complied with a literal
reading of the Code. Id. at 10a. The court rejected
that argument. It did not matter, the court said, that
the transaction “technically complied with [the] tax
laws”; “[i]t was appropriate . . . to apply the economic
substance doctrine to the transaction to determine
whether ‘what was done, apart from the tax motive,
was the thing which the statute intended.’” Id. at 11a,
13a (citation omitted). Then, applying the doctrine,
the Fifth Circuit refused to recognize the results that
stemmed from the application of the tax laws,
4 The Tax Court nevertheless held that Mr. Tucker had
reasonably relied on his advisors and thus rejected the
Commissioner’s request for penalties. Id. at 88a–93a. The
Commissioner did not appeal that determination.

13
“because there was no reasonable possibility of profit
and there was no actual economic effect” in the
underlying transaction. Id. at 19a.
REASONS FOR GRANTING THE WRIT
This case meets all the traditional criteria for
certiorari. See Sup. Ct. R. 10(a). The circuits are split
on the scope of the economic substance doctrine:
Some courts hold that the doctrine is only a tool for
interpreting the meaning of ambiguous text (and is
inapplicable where the text is clear), whereas others
treat the doctrine as a license to disregard clear and
unambiguous rules whenever a court believes the
result of applying such rules is abusive. The Fifth
Circuit’s decision in this case is emblematic of the
text-overriding approach; the court invoked the
doctrine to void the tax result that indisputably
followed from the operation of unambiguous rules.
Whether the economic substance doctrine may be
invoked to override unambiguous tax laws is a
recurring question of exceptional importance,
implicating both the proper role of the courts in
interpreting and giving effect to the law and the
ability of taxpayers to rely on the law as written.
A. The Circuits Are Split On The Proper
Role, And Limitations, Of The JudgeMade Economic Substance Doctrine
This Court’s intervention is needed to resolve a
circuit split over the proper role of the economic
substance doctrine. Some circuits, including the D.C.
and Sixth Circuits, treat the doctrine as a way to
understand particular tax rules when the text itself
requires reference to economic substance (e.g., by
employing a flexible term like “reorganization”)—but

14
hold that it may not be invoked to supplant
unambiguous rules. Other circuits, including the
Third, Fifth, and Federal Circuits, use the doctrine to
override clear text when they decide the consequences
of applying a mechanical tax rule would contravene
Congress’s wishes. They do so, moreover, even in
circumstances where the rule in question explicitly
allows the taxpayer to elect between differing tax
treatments—effectively taking away on the back end
an option that the tax law’s clear terms
unambiguously offered on the front end. The Court’s
intervention is needed to resolve that split.
1. The D.C. Circuit’s decision in Horn v.
Commissioner, 968 F.2d 1229 (D.C. Cir. 1992),
exemplifies the position that the doctrine is properly
limited to a tool for interpreting ambiguous text.
There, the taxpayer was a commodities dealer whose
trading in “straddles”—offsetting financial positions
in the same commodity—had produced tax losses
without economic losses. Id. at 1231–33, 1236. In
identical circumstances, several courts had refused to
allow the tax losses because the trading, they said,
lacked economic substance. Id. at 1233–34.
The D.C. Circuit, by contrast, held that it was
required to give effect to the law. The tax provision
in question, Section 108 of the Tax Reform Act of 1984
(as amended), (1) allowed “any loss” from trading
straddles if “incurred in a trade or business”; and (2)
treated “‘any loss incurred by a commodities dealer in
the trading of commodities . . . as a loss incurred in a
trade or business.’” Id. at 1234–35 (citation omitted);
see 26 U.S.C. § 1092 note (1988). The D.C. Circuit
concluded that Section 108 applied by its plain terms
and allowed the losses the taxpayer had incurred—

15
notwithstanding the Commissioner’s economic
substance objection. Horn, 968 F.2d at 1234–35.
The D.C. Circuit observed that there were
“persuasive arguments that section 108(b) ought not
say what it says—that the statute as we would read
it authorizes a tax benefit for a small class of
taxpayers who may have engaged in the transactions
at issue for no reason other than the tax benefits.” Id.
at 1234. But, the court explained, “Congress has the
power to authorize these transactions, whether or not
they are economic shams.” Id. at 1236. The court
clarified that the economic substance doctrine is, at
most, a “judicial device[] for divining and effectuating
congressional intent, not for supplanting it.” Id. at
1234. Noting that the economic substance-based
reasoning that other courts had employed “read
[§ 108(b)] completely out of existence,” the D.C.
Circuit declined to follow those decisions. Id.
The Sixth Circuit has adopted the same view. See
Summa Holdings, Inc. v. Commissioner, 848 F.3d 779
(6th Cir. 2017). Summa Holdings concerned the tax
benefits achieved by using two tax-favored vehicles,
Roth IRAs5 and “domestic international sales
corporations” (DISCs).6 Id. at 781–82. A family

5

“Roth IRAs” benefit taxpayers because allowable annual
contributions to a Roth IRA grow tax-free, and the taxpayer may,
upon retirement, withdraw the balance without incurring any
tax liability. See Summa Holdings, 848 F.3d at 783.
6

A DISC is a “congressionally innovated corporation”
designed “to incentivize companies to export their goods by
deferring and lowering their taxes on export income.” Summa
Holdings, 848 F.3d at 781–82. An exporter may set up a DISC
and pay it commissions, which are tax-deductible to the exporter
and nontaxable to the DISC. See id. at 782. The DISC’s

16
contributed the maximum amount allowed ($3,500) to
two Roth IRAs, which invested in a DISC the family
also set up. Id. at 783. Over a seven-year period, the
DISC paid $5.1 million in dividends to the Roth IRAs,
where the money could grow—and eventually be
withdrawn—tax-free. Id. at 784. The Commissioner
asked the court to set aside this arrangement,
claiming it was just a scheme “to sidestep the
contribution limits on Roth IRAs.” Id. at 784–85.
The Sixth Circuit refused. To start, all agreed that
the plain text of “[t]he Internal Revenue Code allowed
[the family] to do what [it] did”: Roth IRAs and DISCs
are creatures of statute, the Code lets Roth IRAs
invest in DISCs, and all applicable taxes were paid.
Id. Nevertheless, the Commissioner claimed “a right
to reclassify Code-compliant transactions” to comport
with his view of their economic substance. Id. The
problem, the court said, was that Roth IRAs and
DISCs are “designed for tax-reduction purposes” and
“have no economic substance at all”—so “economicsubstance principles . . . do not give the Commissioner
purchasing power here.”
Id. at 786.
Holding
otherwise, the court concluded, would allow “the
Commissioner to place labels on transactions to avoid
textual consequences he doesn’t like.” Id. at 787.
The Sixth Circuit expressed grave reservations
about
the
separation-of-powers
implications
stemming from the use of economic substance in this
broad form. As Judge Sutton observed in his opinion
for the court:
“If the government can undo
transactions that the terms of the Code expressly
authorize, it’s fair to ask what the point of making
shareholders are liable for taxes on DISC dividends, among
other things. See id.

17
these terms accessible to the taxpayers and binding
on the tax collector is.” Id. at 782. The court added
that “it’s odd to reject a Code-compliant transaction in
the service of general concerns about tax avoidance.”
Id. at 787.
“Before long,” the court observed,
“allegations of tax avoidance begin to look like efforts
at text avoidance.” Id. (emphasis added).7
2. In sharp contrast, other circuits have held that
the clear terms of tax laws are not “binding on the tax
collector.” Id. at 782. These courts apply the
economic substance doctrine before—and, often,
without—considering the statute or regulation at

7

The Fifth Circuit below distinguished Summa Holdings
because it thought that the rules at issue here (unlike those at
issue there) were not “designed for tax-reduction purposes.”
App. 13a. The court further surmised that the history of the 30day rule and the check-the-box regulations suggested that “Mr.
Tucker’s manipulation of the rules was contrary to Congress’
intent.” See id. at 14a. But, as explained below (at 23–31), the
Fifth Circuit’s elevation of history and purpose over text flouts
the usual principles of statutory interpretation, and thus, in fact,
underscores the conflict with Summa Holdings. Even setting
that aside, the court’s analysis of purpose and congressional
intent is unsound. The 30-day rule had obvious “tax-reduction
purposes” for foreign corporations that were controlled foreign
corporations for fewer than 30 days. In fact, the Senate Report
cited by the court accompanied legislation that specifically
added the 30-day rule to narrow the scope of the controlled
foreign corporation rules. See S. Rep. No. 87-1881, at 79 (1962);
infra at 20 n.8. The check-the-box regulations are likewise
“designed for tax-reduction purposes”: They allow taxpayers to
opt out of entity-level taxation entirely. The preamble cited by
the court, far from contradicting that point, simply notes that
the Treasury Department might “take appropriate action when
partnerships are used to achieve results that are inconsistent
with the policies and rules of particular Code provisions.” 61
Fed. Reg. 66,584, 66,585 (Dec. 18, 1996).

18
issue, and invoke the doctrine to override tax rules,
no matter how clear, unambiguous, and mechanical.
The Third Circuit’s decision in Internal Revenue
Service v. CM Holdings, Inc. (In re CM Holdings, Inc.),
301 F.3d 96 (3d Cir. 2002), is emblematic of this
approach. The question there was whether the
taxpayer could deduct interest paid on loans backed
by company-owned life insurance. Id. at 99–101.
Resolving that question involved turning to several
statutes. Id. at 101–02. But, the court said:
We can forgo examining the intersection of
these statutory details, for . . . courts have
looked
beyond
taxpayers’
formal
compliance with the Code and analyzed the
fundamental substance of transactions.
Economic substance is a prerequisite to the
application of any Code provision allowing
deductions. . . . It is the Government’s
trump card; even if a transaction complies
precisely with all requirements for
obtaining a deduction, if it lacks economic
substance it “simply is not recognized for
federal taxation purposes, for better or for
worse.”
Id. at 102 (quoting ACM P’ship v. Commissioner, 157
F.3d 231, 261 (3d Cir. 1998), cert. denied, 526 U.S.
1017 (1999)). The Third Circuit ultimately disallowed
the interest deduction for lack of economic substance.
Id. at 102–07. Moreover, the court upheld penalties
against the taxpayer, reasoning that the taxpayer had
“no substantial authority” for taking the deduction—
without even considering whether the plain terms of
the statute granted such authority. Id. at 108.

19
The Federal Circuit has also invoked this textoverriding version of the economic substance doctrine.
See Coltec Indus., Inc. v. United States, 454 F.3d 1340
(Fed. Cir. 2006), cert. denied, 549 U.S. 1206 (2007). In
Coltec, the taxpayer claimed a high basis in the stock
of a subsidiary that it sold for a nominal sum,
producing a tax loss. Id. at 1343. The Commissioner
contended that the taxpayer should have reduced its
basis by the amount of contingent liabilities the
subsidiary had assumed. Id. at 1345–46. The Federal
Circuit painstakingly reviewed each relevant statute
and concluded that “under the literal terms of the
statute the basis” was correct, and the loss was
proper. Id. at 1351. Indeed, the court even found that
a specific antiabuse statute Congress had enacted—
which applies when “liabilities are assumed
principally for tax avoidance purposes”—did not cover
the scenario before it. Id. at 1350; see 26 U.S.C.
§ 357(b)(1). But the court nevertheless invoked the
economic substance doctrine to vitiate the transaction
and, thus, the result that followed from the plain and
unambiguous terms of the statute. Coltec Indus., 454
F.3d at 1351–60.
Other circuits have also invoked the economic
substance doctrine in a similar, law-overriding
fashion, albeit in a more conclusory manner. See, e.g.,
Bank of N.Y. Mellon Corp. v. Commissioner, 801 F.3d
104, 113 (2d Cir. 2015) (“AIG argues that the
economic substance doctrine cannot be applied to
disallow foreign tax credits that comply with all
statutory and regulatory requirements. . . .
We
disagree.”), cert. denied, 136 S. Ct. 1377 (2016);
Kirchman v. Commissioner, 862 F.2d 1486, 1491
(11th Cir. 1989) (“The analysis of whether something

20
[lacks economic substance] must occur before analysis
of the [statutory provision].”).
3. The difference in these conflicting approaches
matters here. Clear, unambiguous, and mechanical
rules allowed Mr. Tucker, Sligo, and Epsolon to do
exactly what they did. Indeed, at least two of those
rules offered tax treatment options that any
reasonable taxpayer would have exercised to lower
his taxes. The Tax Court and Fifth Circuit disallowed
the results dictated by those rules, not because they
disagreed with the interpretation of the rules, but
because they believed it proper to override them using
the broad version of the economic substance doctrine.
There is no dispute about the content or meaning
of any of the three tax rules Mr. Tucker utilized:
• The 30-day rule kept a foreign corporation’s
United States shareholders from recognizing
their pro rata share of the corporation’s
subpart F income unless the corporation was a
controlled foreign corporation “for an
uninterrupted period of 30 days or more during
[the] taxable year.” 26 U.S.C. § 951(a)(1)
(2000). That bright-line rule had no conditions
or exceptions, and applied regardless of the
amount of income at issue or other underlying
economics.8

8

The mechanical 30-day rule was no accident. The
original House-passed controlled foreign corporation rules
required income inclusion “if the foreign corporation was a
[controlled foreign corporation] on any one day of the taxable
year.” H.R. Rep. No. 87-2508, at 30 (1962) (Conf. Rep.)
(emphasis added). The Senate’s addition of the 30-day rule thus
reflected an intentional choice—which the courts below
effectively disregarded even though it had been in place for over

21
•

•

The check-the-box regulations are similarly
mechanical. Before their promulgation, “many
states ha[d] revised their statutes” to “narrow[]
considerably the traditional distinctions
between corporations and partnerships” (i.e.,
between entities that are subject to entity-level
taxation and those that are not), causing
“taxpayers and the IRS [to] expend
considerable resources on classification issues.”
61 Fed. Reg. 21,989, 21,989–90 (May 13, 1996).
The check-the-box regulations adopted a “much
simpler,” “elective” approach. Id. at 21,990.
That is, they give taxpayers a choice in how
they are taxed—which taxpayers will naturally
use to their benefit—and are “all form and no
substance.” Summa Holdings, 848 F.3d at 786.
Moreover, they expressly allow elective
changes in classification and spell out the
consequences in detail, without even hinting
that elections with a tax-reduction purpose are
somehow invalid. See 26 C.F.R. § 301.77013(c)(1)(i), (g)(1)(ii) (2000).
The last rule at issue was of a piece. At the
time of Mr. Tucker’s transactions, an
applicable
regulation
“permitted
an
exchanging shareholder to elect to recognize
the gain . . . that it realize[d] in the exchange
. . . rather than include the all earnings and
profits amount in income.” 65 Fed. Reg. 3586,
3587 (Jan. 24, 2000); see 26 C.F.R. § 1.367(b)-

50 years. See Pub. L. No. 87-834, § 12(a), 76 Stat. 960, 1006
(1962).

22
3T(b)(4)(i)(A) (2000).9
That regulation
contained no limitations or exceptions, and
Sligo understandably elected to recognize the
(lower) “gain . . . realized” instead of the
(higher) “all earnings and profits amount.”
Any logical taxpayer would have done the
same.
Neither court below pointed to an ambiguity in
any of these rules that it was called upon to interpret.
On the contrary, the Fifth Circuit recognized that Mr.
Tucker “technically complied with [these] tax laws”
and that the transaction “was consistent with the
Code’s language.” App. 11a. In the D.C. and Sixth
Circuits, that would have been dispositive. But the
Fifth Circuit held otherwise, embracing a judge-made
veto power applicable whenever—as the First Circuit
long ago put it—following the text “would produce in
the particular instance a result distasteful to the
court.” Fabreeka Prods. Co. v. Commissioner, 294
F.2d 876, 877 (1st Cir. 1961). Ultimately, the court
concluded that it was appropriate to void the literal
application of these laws—not because the result
contravened the language of any statute or rule, but
rather because the court thought that Congress would
not have condoned that result. App. 14a.

9

That election was promulgated by a proposed regulation
in 1977 and modified in 1991. 42 Fed. Reg. 65,152, 65,159–60
(Dec. 30, 1977); 56 Fed. Reg. 41,993, 42,009–11 (Aug. 26, 1991).
The final regulation “d[id] not adopt” it, but the Treasury
Department kept it in place as a temporary regulation for an
extra year—during which the transactions at issue here took
place—“to provide taxpayers an opportunity to comment on
th[at] change.” 65 Fed. Reg. 3589, 3593 (Jan. 24, 2000).

23
That outcome-determinative conflict among the
courts of appeals warrants this Court’s review.
B. The Fifth Circuit Erred In Invoking The
Economic
Substance
Doctrine
To
Override Clear, Unambiguous, And
Mechanical Tax Rules
This Court’s review is particularly needed because
the majority approach in the lower courts, employed
by the Fifth Circuit here, is fundamentally flawed.
That text-overriding version of the economic
substance doctrine is impossible to square with this
Court’s approach to statutory and regulatory
interpretation, in the tax context and elsewhere. And
it is profoundly at odds with the separation of powers
between the legislative and judicial branches.
1. The Fifth Circuit’s broad conception of the
economic substance doctrine deeply conflicts with the
presumption that Congress intends the results of
clear and unambiguous laws. This Court has “stated
time and again that courts must presume that a
legislature says in a statute what it means and means
in a statute what it says there. When the words of a
statute are unambiguous, then, this first canon is also
the last: ‘judicial inquiry is complete.’” Barnhart v.
Sigmon Coal Co., 534 U.S. 438, 461–62 (2002)
(citations omitted). Thus, this Court “enforce[s] plain
and unambiguous statutory language according to its
terms.” Hardt v. Reliance Standard Life Ins. Co., 560
U.S. 242, 251 (2010). Indeed, this Court regularly
refuses “to rescue Congress from its drafting errors,
and to provide for what we might think . . . is the
preferred result.” Lamie v. United States Trustee, 540
U.S. 526, 542 (2004) (alteration in original) (citation
omitted). This Court has never carved out any special

24
exception from these elementary principles of
separation of powers for tax cases.10
The “text avoidance” version of the economic
substance doctrine, Summa Holdings, 848 F.3d at
787, also represents an improper “judicial effort to
enforce the statutory purpose of the tax code,” rather
than the text, Coltec Indus., 454 F.3d at 1353
(emphasis added). As this Court has emphasized,
however, “[t]he best evidence of [statutory] purpose is
the statutory text.” West Va. Univ. Hosps., Inc. v.
Casey, 499 U.S. 83, 98 (1991) (emphasis added). The
text-overriding version of the economic substance
doctrine is a singular departure from that
fundamental principle—but there is no warrant for
such tax exceptionalism. Cf. Mayo Found. for Med.
Educ. & Research v. United States, 562 U.S. 44, 56
(2011) (holding that the Chevron doctrine applies in
the tax context just as it does elsewhere).
To be sure, the economic substance doctrine was
initially conceived in a day when courts more readily
sought to divine a statute’s purpose from things like
legislative history, rather than simply giving effect to
10 The same goes for regulations. Valid regulations extend,

and have the same legal effect as, statutes. See Chrysler Corp.
v. Brown, 441 U.S. 281, 295 (1979). And, whatever leeway courts
have in interpreting ambiguous regulations, when a regulation
is unambiguous, it “just means what it means—and the court
must give it effect, as the court would any law.” Kisor v. Wilkie,
No. 18-15, 2019 WL 2605554, at *8 (U.S. June 26, 2019). That
is also true for agencies, which must follow their own rules. See
Ballard v. Commissioner, 544 U.S. 40, 59 (2005). Of course, an
agency may amend or repeal its regulations to address perceived
flaws or shortcomings, as long as it complies with the
requirements of rulemaking—but it may not ignore a regulation
as written. See id.; Nat’l Envtl. Dev. Ass’n’s Clean Air Project v.
EPA, 752 F.3d 999, 1009 (D.C. Cir. 2014).

25
text. Cf., e.g., Citizens to Preserve Overton Park, Inc.
v. Volpe, 401 U.S. 402, 412 n.29 (1971). But that is
hardly a sufficient justification for elevating purpose
over text today. Just as this Court now emphasizes
the primacy of text elsewhere, see, e.g., Baker Botts
L.L.P. v. ASARCO LLC, 135 S. Ct. 2158, 2169 (2015)
(“Our job is to follow the text even if doing so will
supposedly ‘undercut a basic objective of the statute’
. . . .” (citation omitted)), so it does with respect to the
tax laws, see Gitlitz v. Commissioner, 531 U.S. 206,
220 (2001) (“Because the Code’s plain text permits the
taxpayers here to receive these benefits, we need not
address this policy concern.”). Yet, notwithstanding
the Court’s repeated admonitions that the text is the
law, the Fifth Circuit and other lower courts have
continued to apply the economic substance doctrine to
disregard Code-compliant transactions, to effectuate
their view of an unstated statutory purpose. See CM
Holdings, 301 F.3d at 102; App. 11a.
Elevating a search for Congress’s supposed
“purpose” over text is particularly inappropriate
when it comes to tax law. The Internal Revenue Code
reflects innumerable tradeoffs about whom to tax,
what to tax, and how much to tax. See David A.
Weisbach, Line Drawing, Doctrine, and Efficiency in
the Tax Law, 84 Cornell L. Rev. 1627, 1631–32 (1999).
It serves a variety of non-tax purposes as well, such
as providing benefits to certain classes of people and
incentivizing particular kinds of economic activity.
See, e.g., 26 U.S.C. § 42 (credit for construction or
rehabilitation of affordable housing); Leandra
Lederman, W(h)ither Economic Substance?, 95 Iowa
L. Rev. 389, 395 (2010) (“[T]he federal income tax
system does not try only to measure taxpayers’
taxable income”; “[i]t also contains provisions

26
expressly designed to alter taxpayers’ behavior.”
(emphasis added)). The “text avoidance” version of
the
economic
substance
doctrine,
however,
unrealistically presumes that Congress always acts
with only one purpose—tax maximization—in mind.
See Summa Holdings, 848 F.3d at 787–88.
The fact that the text-overriding version of the
economic substance doctrine rests on that flawed
presumption without any textual hook is reason
enough to reject it. Cf. CTS Corp. v. Waldburger, 573
U.S. 1, 12 (2014) (“[N]o legislation pursues its
purposes at all costs.” (citation omitted)). But it is
even more problematic since it can cause courts to
reverse the effects of unquestionably taxpayerfriendly rules. Two of the rules at issue here, for
example, allow taxpayers to elect between various tax
treatments—an election that any rational taxpayer
would use to reduce tax. The courts below, however,
refused to give effect to those elections precisely
because they had been used to reduce tax.
Nor is there any special justification for a textoverriding economic substance doctrine in the tax
arena. Congress and the Treasury Department are
active in the tax field. They can change tax rules just
as easily as they can change other rules (and they do).
See Lamie, 540 U.S. at 542 (“If Congress enacted into
law something different from what it intended, then
it should amend the statute to conform it to its
intent.”). Moreover, Congress can enact—and has
enacted—specific rules to curb the potential for abuse.
See, e.g., 26 U.S.C. § 269(a) (disallowing tax benefits
from an acquisition when “the principal purpose for
which such acquisition was made is evasion or
avoidance of Federal income tax”). There is simply no
need for courts to set aside the consequences of

27
applying clear, unambiguous, and mechanical tax
rules just because, to their own noses, “the scheme in
question smells bad.” ACM P’ship, 157 F.3d at 265
(McKee, J., dissenting). After all, courts’ “inquiry is
cerebral, not visceral.
To the extent that the
Commissioner is offended by [certain] transactions he
should address Congress and/or the rulemaking
process, and not the courts.” Id.
2. The text-overriding economic substance
doctrine not only is at odds with the principles that
govern the interpretation of statutes generally, but
also contravenes foundational principles that govern
the interpretation of tax statutes in particular.
For example, this Court has long recognized that,
“[i]n the interpretation of statutes levying taxes it is
the established rule not to extend their provisions, by
implication, beyond the clear import of the language
used, or to enlarge their operations so as to embrace
matters not specifically pointed out.” Gould v. Gould,
245 U.S. 151, 153 (1917). This “established rule” is
especially important given that taxpayers are
expected to—and do—rely on the tax laws in ordering
their affairs. See Summa Holdings, 848 F.3d at 781–
82. But the text-overriding economic substance
doctrine does just the opposite—it allows courts to
ignore “the clear import of the language used” and
disregard the results of Code-compliant transactions.
Similarly, while this Court recognizes that
taxpayers may “structure their business affairs . . . to
minimize taxes,” Commissioner v. First Sec. Bank of
Utah, N.A., 405 U.S. 394, 398 n.4 (1972), and does not
inquire into taxpayers’ motives for entering into
certain transactions, see, e.g., Superior Oil Co. v.
Mississippi ex rel. Knox, 280 U.S. 390, 395–96 (1930),
lower courts frequently ignore these principles when

28
considering invoking the economic substance
doctrine. Not only is the taxpayer’s motivation
relevant to lower courts’ formulation of the economic
substance doctrine, but it is often the driving factor.
3. Nothing in this Court’s case law requires courts
to treat economic substance as a categorical, textoverriding demand of the tax law. On the contrary, if
anything, this Court has made clear that economic
substance is not a universal command of the Code.
In Cottage Savings Association v. Commissioner,
thrifts had experienced significant losses on mortgage
interests. 499 U.S. 554, 556 (1991). Their regulator
allowed them to exchange “substantially identical”
mortgage interests—without recognizing a loss for
regulatory purposes—for the avowed purpose of
“generat[ing] tax losses . . . that would not
substantially affect the economic position of the
[thrifts].” Id. at 557. This Court held that the thrifts
were entitled to recognize the losses, because the
assets exchanged were “materially different”: Even
though the mortgage interests were economically
indistinguishable, they entailed “legally distinct
entitlements.” Id. at 566. More to the point here, the
Court specifically rejected the “argu[ment] that
properties are ‘materially different’ only if they differ
in economic substance,” instead adopting “a much less
demanding and less complex test.” Id. at 562. In
other words, under Cottage Savings, “economic
substance” matters only if the rule requires it.
The cases most often cited by lower courts to
support the text-overriding economic substance
doctrine—primarily, Gregory and Frank Lyon—are
not to the contrary. In Gregory, the Court held merely
that a “reorganization” for purposes of the provision
at issue there meant a transaction with an

29
economically meaningful business purpose. 293 U.S.
at 469; see, e.g., Mertens § 43:29. In Frank Lyon the
Court likewise looked to the statute to determine who
qualified as an “owner” entitled to depreciation
deductions, and held that the taxpayer qualified
because it had committed its capital to constructing
the building. 435 U.S. at 580–81; see Nebraska Dep’t
of Revenue v. Loewenstein, 513 U.S. 123, 133 (1994)
(characterizing Frank Lyon as being about the
concept of “ownership” and whether to characterize
the transaction “as a ‘sale-and-leaseback’ rather than
a ‘financing transaction’”); Boulware v. United States,
552 U.S. 421, 429 (2008) (citing Frank Lyon for the
proposition that economic substance is useful when
considering particular “tax classifications like
‘dividend’ and ‘return of capital’”).
Both cases are thus narrow decisions that, at most,
use economic substance as a way of understanding tax
terms “that draw their content from life.”11 Joseph
Isenbergh, Musings on Form and Substance in
Taxation, 49 U. Chi. L. Rev. 859, 879 (1982). Neither
case created a general principle of tax law that allows
courts to disregard the tax results produced by clear,
unambiguous, and mechanical rules.

11 Other cases frequently cited by the lower courts are

similar. In Higgins v. Smith, this Court simply held that the
taxpayer had not “sustained” a “loss” within the meaning of the
tax law when he sold stock at a loss to his wholly owned
corporation. 308 U.S. 473, 475, 478–80 (1940). And in Knetsch
v. United States, the Court likewise found that the taxpayer’s
payments to an insurance company were not “‘interest paid . . .
on indebtedness’ within the meaning of” the tax law because the
“debt” was just a sham. 364 U.S. 361, 362 (1960) (alteration in
original) (citation omitted).

30
4. Of course, economic substance is not
categorically irrelevant, either. As with any matter of
interpretation, the ultimate question is whether the
underlying tax provision itself makes economic
substance relevant. See generally Amandeep S.
Grewal, Economic Substance and the Supreme Court,
116 Tax Notes 969 (2007). Sometimes, as in Gregory
and Frank Lyon, the relevant rule uses a malleable
term or concept, like “reorganization” or “ownership.”
In those situations, it is appropriate for courts to
consult economic substance principles when deciding
“whether what was done . . . was the thing which the
[rule] intended.” Gregory, 293 U.S. at 469. In other
situations, however, as in Horn and Summa
Holdings, the unambiguous terms of the rule in
question do not turn on the economic substance of the
transaction at issue, and courts should honor
compliance with the unambiguous terms of the rule.
Instead of engaging in that analysis, many lower
courts, including the Fifth Circuit below, have
invoked the concept of “economic substance” as a
roving license “to abandon general principles of
statutory construction . . . [and] recast transactions to
avoid . . . result[s] inconsistent with a judge’s notion
of a Code section’s purpose.” Mazzei v. Commissioner,
150 T.C. 138, 197 (2018) (Holmes, J., dissenting).
This Court would not normally let judges
invalidate the results that follow from the mechanical
application of clear and unambiguous rules, and it
should not make an exception for tax. See Casey, 499
U.S. at 101 (“[The statute’s] language is plain and
unambiguous. What the government asks is not a
construction of a statute, but, in effect, an
enlargement of it by the court, so that what was
omitted . . . may be included within its scope. To

31
supply omissions transcends the judicial function.”
(first alteration in original) (citation omitted)).
C. The Question Presented Is Important And
Warrants This Court’s Review
1. The proper role, and limits, of the courts when
it comes to giving effect to the clear and unambiguous
terms of federal law is a matter of the utmost
importance. The question whether taxpayers may
rely on the clear and unambiguous text of tax rules
enacted by Congress and the Treasury Department is
also undeniably important: Taxpayers are entitled to
rely on the clear and unambiguous text of the law, see
Casey, 499 U.S. at 101; Perez v. Mortgage Bankers
Ass’n, 135 S. Ct. 1199, 1223–24 (2015) (Thomas, J.,
concurring in the judgment), yet courts have invoked
the economic substance doctrine to override such
provisions and impose additional taxes, penalties,
and even criminal consequences, see United States v.
Daugerdas, 837 F.3d 212, 221–22 (2d Cir. 2016), cert.
denied, 138 S. Ct. 62 (2017); United States v. Wexler,
31 F.3d 117, 127 (3d Cir. 1994), cert. denied, 513 U.S.
1190 (1995).
2. This Court has not opined on the scope of the
economic substance doctrine for decades. Since then,
economic substance cases have proliferated in the
lower courts—but they have not converged on any
single articulable standard. Not only do courts
disagree about the fundamental role and limits of the
economic substance doctrine, they also vary
substantially in how they apply it. As the Second
Circuit has put it: The economic substance doctrine
is “not a model of clarity.” United States v. Coplan,
703 F.3d 46, 91 (2d Cir. 2012), cert. denied, 571 U.S.
819 (2013); see Klamath Strategic Inv. Fund, 568 F.3d

32
at 544 (recognizing different approaches in applying
doctrine; citing cases).
Notably, the Treasury
Department itself has recognized that the doctrine “is
inherently subjective” and is applied “unevenly.” U.S.
Dep’t of the Treasury, The Problem of Corporate Tax
Shelters:
Discussion, Analysis and Legislative
Proposals 94 (July 1999).12
As a result, the
Department has acknowledged, “a great deal of
uncertainty exists as to when and to what extent [it]
appl[ies], how [it] appl[ies], and how taxpayers may
rebut [it].” Id. This case presents a question of
threshold importance in clarifying the proper scope
(and limits) of the economic substance doctrine.
3. Section 7701(o) does not resolve that
uncertainty and, indeed, just adds to the importance
of this case. Enacted in 2010, the statute clarifies
what the economic substance doctrine requires in
circumstances when it applies: A transaction will be
treated as having economic substance “only if . . . [it]
changes in a meaningful way (apart from Federal
income tax effects) the taxpayer’s economic position,
and . . . the taxpayer has a substantial purpose (apart
from Federal income tax effects) for entering into such
transaction.” 26 U.S.C. § 7701(o)(1).
Critically, however, Section 7701(o) leaves open
the fundamental question of when the presence or
absence of such economic substance in a given
transaction actually matters. Congress expressly
provided that Section 7701(o) would apply only when
the “economic substance doctrine is relevant to a
transaction” as determined “in the same manner as if
this subsection had never been enacted.”
Id.
12 Available at https://www.treasury.gov/resource-center/
tax-policy/Documents/Report-Corporate-Tax-Shelters-1999.pdf.

33
§ 7701(o)(5)(C). In other words, by its terms, Section
7701(o) leaves the conflict at issue untouched.13 Only
this Court can resolve that conflict, and answer the
Question Presented in a way that will ensure that tax
rules are applied consistently—and consistently
applied—throughout the entire country.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
GEORGE M. CLARKE III
PHILLIP J. TAYLOR
MIREILLE R. OLDAK

GREGORY G. GARRE
Counsel of Record
BENJAMIN W. SNYDER
BAKER & MCKENZIE LLP
ERIC J. KONOPKA
815 Connecticut Ave., NW LATHAM & WATKINS LLP
Washington, DC 20006
555 Eleventh Street, NW
(202) 835-6184
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Petitioners
July 2, 2019
13 If anything, Section 7701(o) casts doubt on the existing

majority rule in the lower courts. As discussed, the majority
approach treats “[e]conomic substance [a]s a prerequisite to the
application of any Code provision allowing deductions.” CM
Holdings, 301 F.3d at 102. By acknowledging that there are
circumstances in which “economic substance” would not even be
“relevant,” 26 U.S.C. § 7701(o)(5)(C) (emphasis added), however,
Congress indicated that economic substance is not a uniform
“prerequisite” but rather a concept that matters, or not, based
on the terms of the particular rule at issue.

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Fifth Circuit, Keith A. Tucker,
Laura B. Tucker v. Commissioner, 766 F.
App’x 132 (5th Cir. 2019)....................................1a
Memorandum Findings of Fact and Opinion of
the United States Tax Court, Keith A.
Tucker
&
Laura
B.
Tucker
v.
Commissioner, 114 T.C.M. (CCH) 326
(Sept. 18, 2017) .................................................20a
26 U.S.C. § 951(a) (2000) ........................................94a
26 C.F.R. § 301.7701-3(c), (g) (2000) ......................97a
26 C.F.R. § 1.367(b)-3(b) (2000) ............................106a
26 C.F.R. § 1.367(b)-3T(b) (2000)..........................114a

1a
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court
of Appeals
Fifth Circuit
FILED
April 3, 2019
Lyle W. Cayce
Clerk
No. 17-60833
KEITH A. TUCKER; LAURA B. TUCKER,
Petitioners - Appellants
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent - Appellee
Appeal from the Decision of the
United States Tax Court
T.C. No. 12307-04
766 F. App’x 132
Before HIGGINBOTHAM, GRAVES, and WILLETT,
Circuit Judges.
PER CURIAM:*
Taxpayers Keith Tucker and Laura Tucker,
husband and wife, claimed a $39,188,666 loss
*

Pursuant to the 5TH CIR. R. 47.5, the court has
determined that this opinion should not be published and is not
precedent excerpt under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

2a
deduction for the 2000 tax year resulting from Mr.
Tucker’s execution of a “customized solution” to
mitigate the Taxpayers’ income tax. The customized
solution (the “FX Transaction”) involved highlycomplex, interrelated foreign currency option
investment transactions, which complied with a

literal reading of the Tax Code1 and generated
millions in paper gains and losses.
The
Commissioner
of
Internal
Revenue
(“Commissioner”) issued Taxpayers a notice of
deficiency, disallowing the entire loss deduction
and determining a $15,518,704 deficiency and a
$6,206,488 penalty. Taxpayers challenged the
deficiency and penalty in tax court. After a trial,
the tax court upheld the deficiency, finding that
Taxpayers were not entitled to their claimed
deduction because the underlying transaction
creating the deduction lacked economic
substance. However, the tax court did not uphold
the penalty. Taxpayers now appeal the tax
court’s decision on the deficiency. In this appeal,
we consider: (1) whether it was appropriate for
the tax court to apply the economic substance
doctrine to the FX Transaction, and (2) whether
the tax court applied the economic substance
doctrine correctly.2 After careful review of the
record and hearing oral argument, we find that
1

All “Tax Code,” “Code,” or “Section” references are to the
Internal Revenue Code of 1986, as amended and in effect in
2000. All “Treasury Regulation” references are to the Treasury
Regulations, as amended and in effect in 2000.
2 The Commissioner does not appeal the Tax Court’s
decision on the penalty.

3a

the economic substance doctrine was applicable
to the FX Transaction, and the tax court applied
the doctrine properly as set forth by circuit
precedent. Accordingly, we AFFIRM the tax
court’s order and decision.
BACKGROUND
Mr. Tucker’s transactions at issue on this appeal
involved several highly-complex, interrelated foreign
currency option investment transactions. Because
the tax court provided a robust overview of the facts
demonstrating the complexity of the tax scheme, only
facts that are relevant to the disposition of this appeal
follow.3
In 2000, Mr. Tucker, a certified public accountant
with a juris doctor, was the Chief Executive Officer of
Waddell & Reed Financial, Inc. (“WR”), a national
mutual fund and financial services company. As a
senior company executive, Mr. Tucker received tax
advice and company-sponsored personal financial
planning services through WR’s Financial Planning
Program from KPMG. When WR stock appreciated,
KPMG anticipated that Mr. Tucker would exercise his
WR stock options and experience a significant income
increase. In August 2000, as KPMG anticipated, Mr.
Tucker exercised 1,896,167 WR stock options, for
which WR withheld approximately $11.4 million in
federal income tax.
Sometime in 2000, KPMG advisors and Mr.
Tucker discussed ways to diversify Mr. Tucker’s
3

The facts are gleaned from the tax court’s factual
findings, which we do not find to be clearly erroneous, see Estate
of Duncan v. Comm’r of Internal Revenue, 890 F.3d 192, 197 (5th
Cir. 2018), and the parties’ stipulation of facts.

4a
investments and ways for Mr. Tucker to “mitigate his
income tax” from exercising his stock options. In midDecember 2000, after failed attempts to enter into two
separate
tax
benefit
transactions,
KPMG
recommended, and Mr. Tucker accepted, the FX
Transaction.
KPMG characterized the FX
Transaction as a “customized” tax solution to mitigate
Mr. Tucker’s 2000 income tax. The FX Transaction
required Mr. Tucker to invest in foreign currency
options in a series of transactions to take advantage
of the Tax Code and to produce millions in paper gains
and losses. Mr. Tucker was aware that the IRS might
disallow a loss deduction from the transaction.
I. FX Transaction
The FX Transaction involved three new entities
and two separate components of offsetting foreign
currency options to produce the $39,188,666 tax
deduction at issue in this case.
A. Relevant Entities
In late December 2000, Mr. Tucker organized
three new entities, Sligo (2000), LLC (“Sligo LLC”),
Sligo (2000) Company, Inc. (“Sligo”), and Epsolon,
Ltd, to execute the FX Transaction. Sligo LLC was a
Delaware limited liability company and Mr. Tucker
was its sole member. Sligo was an S Corporation
incorporated under Delaware law, and Mr. Tucker
wholly-owned the company. Sligo was a U.S.
shareholder of Epsolon, an Irish shelf company, and
Sligo owned 99% of the shelf company from December
18, 2000 to December 31, 2000. Sligo’s 99% ownership
of Epsolon resulted in Epsolon initially being

5a
classified as a controlled foreign corporation (“CFC”)4
for federal tax purposes. Effective December 27,
2000, however, Epsolon elected partnership
classification and was no longer considered a CFC.
Mr. Tucker contributed $2,024,700 in cash to
Sligo, and Sligo contributed $1,514,700 to Epsolon.
B. Epsolon Loss Component
Mr. Tucker generated approximately $39 million
in claimed tax loss through Epsolon by artfully
constructing his investments to comply with a
mechanical reading of the Code. As the tax court
explained:
Epsolon executed the loss component in four
steps:
(1) Epsolon acquired various offsetting
foreign currency digital option spread
positions (spread positions); (2) it disposed
of the gain legs of the spread positions while
Epsolon was a CFC; (3) it made a ‘checkthe-box’ election to become a partnership for
U.S. tax purposes; and (4) it disposed of the
loss legs of the spread positions.
Tucker v. Comm’r of Internal Revenue, 114 T.C.M.
(CCH) 326, 2017 WL 4158704, at *13 (T.C. 2017).
On December 20, 2000, Epsolon, while a CFC,
purchased from and sold to Lehman Brothers eight
foreign euro currency options tied to the U.S. Dollar,
where each set of options created a spread. The total
premium for the options Epsolon purchased was
$156,041,001, and the total premium for the options
that Epsolon sold was $157,500,000.
The net
4 A CFC is any foreign corporation of which more than
50% of the vote or value is owned by U.S. shareholders.

6a
premium payable to Epsolon for the options was
$1,458,999. The potential return on the investment
was based on the volatility of the USD/euro exchange
rate. Mr. Tucker understood that the options had a
40% chance of profitability.
On December 21, 2000, the euro appreciated
against the dollar, and Epsolon realized a net gain of
$51,260,455 after disposing of four of its euro options.
As a CFC, Epsolon’s $51 million gain was not subject
to federal income tax. See Sec. 881 & Sec. 882(a)(1).
Epsolon then purchased from and sold to Lehman
Brothers foreign deutschemark (“dem”) options using
most of the proceeds from the disposition of the euro
options.
On December 27, 2000, Epsolon’s status as a
CFC effectively ended with its “check-the-box”
election5 for partnership classification.
With
Epsolon’s entity classification change to partnership,
Epsolon was treated as liquidating and distributing
its assets and liabilities to Sligo. Under the “Section
367 election,”6 Epsolon’s $51 million gain as a CFC
did not carry over to the partnership. Under the “30day rule,”7 Sligo was not required to report Epsolon’s

5

A “check-the-box” election “allows taxpayers to choose
whether an entity will be characterized as a corporation for tax
purposes.” See Treas. Reg. § 301.7701-3(g)(1)(ii).
6

The Section 367 election “allowed taxpayers to elect to
include in income either the CFC’s [earnings and profits] amount
or the amount of gain realized in the liquidation.” See Treas.
Reg. § 1.367(b)-3T(b)(4)(i)(A).
7 Under the “30-day rule” a CFC’s income is “taxable to a
U.S. shareholder only if the U.S. shareholder owned the CFC for
30 or more days in a taxable year.”

7a
gain as taxable income because Epsolon was a CFC
for only nine days.
On December 28, 2000, Epsolon, as a
partnership, disposed of some of its dem and euro
options, which resulted in a net loss of $39,584,511.
Epsolon’s loss flowed through to Sligo. Sligo, as 99%
owner of Epsolon, claimed a 99% share of Epsolon’s
loss of $39,188,666. Sligo’s reported share of the loss
passed through to Mr. Tucker.
See 26 U.S.C.
§ 704(d)(1) (limiting share of partnership loss to
adjusted basis of partner’s interest). Taxpayers
reported the $39,188,666 loss as a deduction on their
2000 tax form.
C. Sligo LLC Basis Component
Taxpayers have conceded the manipulation of the
Sligo Basis Component, in which Mr. Tucker inflated
his basis in Sligo. However, they argue that they are
entitled to a basis in Sligo of $2,024,700, which is
what Mr. Tucker purportedly made to Sligo in cash
contributions.
On December 21, 2000, Sligo LLC purchased
from and sold to Lehman Brothers Japanese yen
currency options tied to the U.S. dollar. While the
premium for the purchased yen option was $51
million, the premium for the sold yen option was
$50,490,000, making the net premium from Sligo LLC
to Lehman Brothers $510,000.
On December 26, 2000, Mr. Tucker transferred
his 100% ownership interest in Sligo LLC to Sligo.
Mr. Tucker claimed a $53 million basis in Sligo,
calculated as the $51 million premium paid for the
yen option plus $2,024,700 in purported cash
contributions, without accounting for the premium
received for the yen options. The increased basis

8a
would permit Mr. Tucker to take full advantage of the
Epsolon loss for tax purposes.
II. Taxpayers’ 2000 Tax Return
On March 26, 2001, Taxpayers filed a joint tax
return for the 2000 tax year. Taxpayers reported
$44,187,744 in wages and salaries, including
$41,034,873 in gain from Mr. Tucker’s WR stock
options, and Taxpayers reported the $39,188,666
Epsolon loss as a deduction. Taxpayers reported
another $13 million in passthrough loss from Sligo on
their 2001 tax return. In total, Taxpayers reported
over $52 million in loss for 2000 and 2001. On April
15, 2004, the Commissioner issued Taxpayers a notice
of deficiency, disallowing the entire loss deduction
and determining a $15,518,704 deficiency and a
$6,206,488 accuracy-related penalty.
III. The Tax Court’s Decision
In tax court, Taxpayers challenged the
Commissioner’s disallowance and argued, inter alia,
that Taxpayers were permitted to deduct the Epsolon
loss to the extent of Mr. Tucker’s basis in Sligo. The
Commissioner argued, inter alia, that the
transactions underlying the claimed loss lacked
economic substance. The tax court agreed with the
Commissioner, applied the economic substance
doctrine to Mr. Tucker’s transaction, and upheld the
Commissioner’s disallowance.
This appeal followed.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction to review the tax court’s final
decision under 26 U.S.C. § 7482(a)(1).
We review the facts used to determine whether a
transaction lacks economic substance for clear error,

9a
and we review the ultimate determination of whether
a transaction lacks economic substance de novo. See
Estate of Duncan, 890 F.3d at 197; Nevada Partners
Fund, L.L.C. ex rel. Sapphire II, Inc. v. U.S. ex rel.
I.R.S., 720 F.3d 594, 610 (5th Cir. 2013), vacated on
other grounds by 571 U.S. 1119 (2014).
DISCUSSION
I. Economic Substance Doctrine
“The economic substance doctrine allows courts to
enforce the legislative purpose of the Code by
preventing taxpayers from reaping tax benefits from
transactions lacking in economic reality.” Klamath
Strategic Inv. Fund ex rel. St. Croix Ventures v. United
States, 568 F.3d 537, 543 (5th Cir. 2009). While
“taxpayers have the right to decrease or avoid taxes
by legally permissible means,” “transactions which do
not vary control or change the flow of economic
benefits are to be dismissed from consideration.” Id.
(citations omitted).
The doctrine has emerged from the Supreme
Court’s decision in Gregory v. Helvering, 293 U.S. 465
(1935). The Court reviewed a taxpayer’s series of
transactions to determine “whether what was done,
apart from the tax motive, was the thing which the
statute intended.” Id. at 469. The Court found that
the transactions fell outside the Code’s plain intent,
even though the transactions were technically
consistent with the Code. Id. at 469–70.
In Southgate, this court applied the economic
substance doctrine to determine the tax consequences
of three interrelated transactions, noting that “a
transaction’s tax consequences depend on its
substance, not its form.” Southgate Master Fund,
L.L.C. ex rel. Montgomery Capital Advisors, LLC v.

10a
United States, 659 F.3d 466, 478–79 (5th Cir. 2011).
The court noted that the economic substance doctrine,
“empower[s] the federal courts to disregard the
claimed tax benefits of a transaction—even a
transaction that formally complies with the blackletter provisions of the Code and its implementing
regulations—if the taxpayer cannot establish that
‘what was done, apart from the tax motive, was the
thing which the statute intended.’” Id. at 479
(quoting Gregory, 293 U.S. at 469).
The tax court applied the economic substance
doctrine to the FX Transaction and determined that
the transaction lacked economic substance.
Taxpayers raise two issues on appeal.
First,
Taxpayers argue that the tax court erred in applying
the economic substance doctrine. Second, Taxpayers
argue, if the economic substance doctrine is
applicable, the tax court did not apply the doctrine
properly. We find no error in the tax court’s decision.
II. The Economic Substance Doctrine
Applicable to the FX Transaction

is

The tax court applied the economic substance
doctrine to the FX Transaction because Taxpayers
“offered nothing to indicate that Congress intended to
provide the tax benefits they seek through the formal
application of the Code and the regulations without
conforming to economic reality.” Tucker, 2017 WL
4158704, at *17. Looking in isolation at each tax rule
used to implement the FX Transaction and heavily
relying on extra-circuit precedent, Taxpayers argue
that the economic substance doctrine is inapplicable
because the transaction complied with a literal
reading of the Code.

11a
The Supreme Court and this court have applied
the economic substance doctrine to transactions that
technically complied with tax laws. In Gregory, the
Court looked beyond the form of the transaction to
consider its economic substance. 293 U.S. 465.
Despite the taxpayer’s literal compliance with the
Code, the Court concluded that:
[t]he whole undertaking, though conducted
according to the terms of [the statute], was
in fact an elaborate and devious form of
conveyance masquerading as a corporate
reorganization, and nothing else. The . . .
transaction upon its face lies outside the
plain intent of the statute.
To hold
otherwise would be to exalt artifice above
reality and to deprive the statutory
provision in question of all serious purpose.
Id. at 470. In Nevada Partners, the taxpayers
implemented a multi-step investment strategy that
was technically consistent with the Code. 720 F.3d at
600. This court applied the economic substance
doctrine in that case, which also involved a complex
foreign currency transaction. Id. at 610–14.
In this matter, while the FX Transaction was
consistent with the Code’s language, it looked like
“[t]he whole undertaking . . . was in fact an elaborate
and devious” path to avoid tax consequences.
Gregory, 293 U.S. at 470. As the tax court noted, the
following resulted in the Taxpayers’ $39 million tax
loss deduction:
(1) Epsolon realized an aggregate gain of
$51,260,455 in 2000 when it disposed of four
euro options on December 21, 2000.

12a
(2) Epsolon did not recognize the
$51,260,455 gain for U.S. tax purposes
because
(i) Epsolon
was
a
foreign
corporation not subject to tax under section
881 or 8828 at the time of the gain and
(ii) Sligo was not required to include its
share of Epsolon’s gain under section 951
because Epsolon was a CFC for less than 30
days when it elected partnership status.
(3) Epsolon and Sligo were not required to
recognize gain or loss when Epsolon elected
partnership status because Epsolon made
an election that allowed it to recognize gain
equal to Sligo’s basis in its Epsolon stock
and Sligo had a zero basis in its Epsolon
stock.
See sec. l.367(b)-3T(b)(4)(i)(A),
Temporary Income Tax Regs., 65 Fed. Reg.
3588 (Jan. 24, 2000).
(4) After Epsolon became a U.S.
partnership, it disposed of an additional
four foreign currency options for a net loss
of $38,483,893 and transaction costs of
$1,100,618 in 2000 for a total loss of
$39,584,511.
(5) Sligo was required to take into account
its distributive share of Epsolon’s net loss,
which passed through to Mr. Tucker, as
Sligo’s S corporation shareholder, and the

8

Sec. 881 imposes a tax of 30% on foreign corporations on
amounts of “fixed or determinable annual or periodical gains”
income from sources within the United States. Sec. 882(a)(l)
taxes foreign corporations on income “effectively connected with
the conduct of a trade or business within the United States.”

13a
loss was deductible under section 165(a) and
characterized as ordinary under section 988.
Tucker, 2017 WL 4158704, at *12.
It was appropriate for the tax court to apply the
economic substance doctrine to the transaction to
determine whether “what was done, apart from the
tax motive, was the thing which the statute
intended.” Southgate, 659 F.3d at 479 (quoting
Gregory, 293 U.S. at 469). Accordingly, the tax court
did not err in applying the economic substance
doctrine to the FX Transaction.
Taxpayers rely heavily on Summa Holdings, Inc.
v. Comm’r of Internal Revenue, 848 F.3d 779 (6th Cir.
2017), to support their position that the tax court
erred in applying the economic substance doctrine to
the FX Transaction. In Summa Holdings, the Sixth
Circuit reviewed the tax court’s decision denying
relief to a family who sought to lower their taxes by
using a domestic international sales corporation
(“DISC”) “to transfer money from their family- owned
company to their sons’ Roth Individual Retirement
Accounts.” Summa Holdings, 848 F.3d at 779. The
court did not apply the economic substance doctrine
to the transactions because it was “not a case where
the taxpayers followed a devious path to a certain
result in order to avoid the tax consequences of the
straight path.” 848 F.3d at 788 (quotation marks and
citation omitted).
The Sixth Circuit found the
doctrine was inapplicable because none of the
transactions “was a labeling-game sham or defied
economic reality,” and the tax provisions used were
designed for tax-reduction purposes. Id. at 786. The
court concluded that “[a]lthough the distinction
between transactions that obscure economic reality

14a
and Code-compliant, tax-advantaged transactions
may be difficult to identify in some cases, the
transactions in [Summa Holdings] are clearly on the
legitimate side of the line.” Id. at 788.
That clarity is simply not present in Mr. Tucker’s
transactions. The tax court concluded that Congress
“neither contemplated nor intended to encourage this
type of mechanical manipulation of the rules” that
permits Mr. Tucker to avoid recognizing a $51 million
gain. Tucker, 2017 WL 4158704, at *16. The tax court
found that Mr. Tucker’s manipulation of the rules was
contrary to Congress’ intent. See id. (noting that S.
Rept. No. 87-1881 (1962), 1962-3 C.B. 707, 785,
subpart F, which includes the 30-day rule, was
“designed to end tax deferral on ‘tax haven’ operations
by U.S. controlled corporations”); id. (citing to the
preamble to the regulation which promulgated the
check-the-box election and finding that Mr. Tucker’s
use of the partnership election “to ignore economic
reality and to separate Epsolon’s gains from its losses”
was inconsistent with legislative intent). The tax
court concluded that Mr. Tucker’s calculated
manipulation of the tax code “assured that [he] would
have the loss he needed to offset his WR stock option
income without the need to recognize the offsetting
gain on the options.” Id.
While, “the line between disregarding a too-cleverby-half accounting trick and nullifying a Codesupported tax-minimizing transaction can be
elusive,” Summa, 848 F.3d at 787, the line is clear
here. Accordingly, even under Summa Holdings, it
was appropriate for the tax court to apply the
economic substance doctrine to determine whether
the transactions “defied economic reality.” Id. at 786.

15a
III. The FX Transaction Lacks Economic
Substance
The tax court applied the economic substance
doctrine to the FX Transaction and concluded that the
transaction lacked economic substance. Taxpayers
argue that “even if the Tax Court was correct in its
decision to apply the economic substance doctrine . . .
the Tax Court erred in the manner in which it applied
that doctrine.” Specifically, the tax court erred in
disregarding the fact that the transactions had a 40%
chance to earn profit and concluding that Mr. Tucker
had no non-tax purpose.
When applying the economic substance doctrine,
this court will respect “a genuine multiple-party
transaction with economic substance which is
compelled or encouraged by business or regulatory
realities,
is
imbued
with
tax-independent
considerations, and is not shaped solely by taxavoidance features.” Frank Lyon Co. v. United States,
435 U.S. 561, 583–84 (1978). “In other words, the
transaction must exhibit [1] objective economic
reality, [2] a subjectively genuine business purpose,
and [3] some motivation other than tax avoidance.”
Southgate, 659 F.3d at 480. “While ‘these factors are
phrased in the conjunctive, meaning that the absence
of any one of them will render the transaction void for
tax purposes,’ there is near-total overlap between the
latter two factors.” Id. (quoting Klamath, 568 F.3d at
544). Prongs two and three may be read as one prong
because “[t]o say that a transaction is shaped totally
by tax-avoidance features is, in essence, to say that
the transaction is imbued solely with tax-dependent
considerations.” Id. at 480 n.40. Accordingly, the
economic substance doctrine effectively has two

16a
prongs: an objective economic prong and a subjective
business purpose prong. See id. at 480–82.
“A notice of deficiency issued by the IRS is
‘generally given a presumption of correctness, which
operates to place on the taxpayer the burden of
producing evidence showing that the Commissioner’s
determination is incorrect.’” Nevada Partners, 720
F.3d at 610 (quoting Sealy Power, Ltd. v. Comm’r, 46
F.3d 382, 387 (5th Cir. 1995)). “[W]hen the taxpayer
claims a deduction, it is the taxpayer who bears the
burden of proving that the transaction has economic
substance.” Coltec Indus., Inc. v. United States, 454
F.3d 1340, 1355 (Fed. Cir. 2006).
The tax court concluded that the FX Transaction
failed both prongs of the economic substance doctrine.
Taxpayers argue that the tax court “misapplied each
prong of the analysis.” Because we conclude that the
FX Transaction fails the objective economic prong, we
affirm the tax court’s decision.
In the first prong of the economic substance
analysis, we must determine whether the FX
Transaction lacks objective economic reality.
Klamath, 568 F.3d at 544–45. “[T]ransactions lack
objective economic reality if they ‘do not vary, control,
or change the flow of economic benefits.’” Southgate,
659 F.3d at 481 (citation and alteration omitted).
“This is an objective inquiry into whether the
transaction either caused real dollars to meaningfully
change hands or created a realistic possibility that
they would do so.” Id. (citations omitted). “[The]
inquiry must be ‘conducted from the vantage point of
the taxpayer at the time the transactions occurred,
rather than with the benefit of hindsight.’” Id.
(quoting Smith v. Comm’r, 937 F.2d 1089, 1096 (6th
Cir. 1991)).

17a
Taxpayers argue that the tax court erred in
disregarding the profit potential of the FX
Transaction. They argue that the FX Transaction
“created the realistic probability that real dollars
would change hands” because Mr. Tucker had a 40%
chance to generate a net profit of $487,707 for the
investments. The tax court found that the FX
Transaction defied objective economic reality because
the “$487,707 potential profit is de minimis as
compared to the expected $20 million tax benefit” and
the “$52.9 million in tax losses over two years,”
including the $39 million at issue. Tucker, 2017 WL
4158704, at *20. We agree.
“A transaction has economic substance and will be
recognized for tax purposes if the transaction offers a
reasonable opportunity for economic profit, that is,
profit exclusive of tax benefits.” Portland Golf Club v.
Comm’r, 497 U.S. 154, 169 n.19 (1990) (quoting Gefen
v. Comm’r, 87 T.C. 1471, 1490 (1986)); see Southgate,
659 F.3d at 481 & n.43. In Nevada Partners, this
court concluded that the district court did not err in
determining that the taxpayers “failed to meet their
burden of proving that the transactions giving rise to
the $18 million tax loss in question had economic
substance.” 720 F.3d at 610. The court found that the
record objectively demonstrated that the series of
transactions were not designed to make a profit. Id.
at 610–611. In fact, the transactions “serve[d] no
other purpose than to provide the structure through
which [the taxpayer] could enjoy the $18 million
reduction to his personal 2001 tax burden.” Id. at 611.
The court also found that the series of transactions
lacked profit motive where the transactions were
designed to ensure “a relatively insignificant range [of
profit] in comparison with the $18 million tax benefit

18a
. . . .” Id. at 612–13. The court concluded that the
profit “was a ‘relative pittance’ that did ‘not
appreciably affect [the] beneficial interest[.]’” Id. at
613 (quoting Knetsch v. United States, 364 U.S. 361,
366 (1960)).
Considering the parties’ expert report, the tax
court found that there was a low likelihood, between
16% and 40%, that the FX Transaction would be
profitable because the options were “egregiously”
mispriced against Mr. Tucker. The tax court
concluded that:
[T]he Epsolon loss component was not
designed to make a profit, but rather
arranged to produce a $52.9 million
artificial loss.
The scheme involved
separating the gains from the losses by
allocating the gains to Epsolon while it was
a CFC, checking the box to become a
partnership, subsequently recognizing the
losses, and creating a tiered passthroughentity structure through which to claim the
artificial losses. No element of the Epsolon
loss and Sligo LLC basis components had
economic substance; each was orchestrated
to serve no other purpose than to provide the
structure through which [Taxpayers] could
reduce their 2000 and 2001 tax burden.
Tucker, 2017 WL 4158704, at *23.
Looking at the FX Transaction as a whole,9 we
agree with the tax court and conclude that the
9 See Salty Brine I, Ltd. v. United States, 761 F.3d 484,
495 (5th Cir. 2014) (stating that “a court must look at the
transaction as a whole to determine the economic substance”).

19a
transaction failed the objective economic prong
because there was no reasonable possibility of profit
and there was no actual economic effect. Because “the
absence of any one of [the prongs] will render the
transaction void for tax purposes,” we need not
determine whether the FX Transaction passes the
subjective business purpose prong. Southgate, 659
F.3d at 480.
CONCLUSION
For the foregoing reasons, we AFFIRM the tax
court’s decision.

20a
UNITED STATES TAX COURT
KEITH A. TUCKER AND LAURA B. TUCKER,
Petitioners v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
Docket No. 12307-04.
Filed September 18, 2017.
114 T.C.M. (CCH) 326
MEMORANDUM FINDINGS OF FACT
AND OPINION
GOEKE, Judge: Respondent issued a notice of
deficiency disallowing petitioners’ claimed loss
deduction of $39,188,666 for the 2000 tax year. This
adjustment resulted in a $15,518,704 deficiency and
a $6,206,488 section 6662 penalty.1 The claimed loss
deduction arises from a series of offsetting foreign
currency digital options that petitioner Keith A.
Tucker entered into through passthrough entities.
One set of offsetting foreign currency options
generated the loss, and a second set of offsetting
foreign currency options generated a tax basis in an S
corporation through which petitioners claimed the
loss deduction. Through a technical application of
statutory and regulatory provisions, Mr. Tucker
separated the loss and gain from the offsetting
options and claimed only the loss portion as U.S.
source. Before trial petitioners conceded the basis
component but continue to assert the deductibility of
a $2,024,700 loss for 2000 based upon their purported
1 Unless otherwise indicated, all Rule references are to the
Tax Court Rules of Practice and Procedure, and all section
references are to the Internal Revenue Code (Code) in effect for
the year in issue.

21a
cash basis in the S corporation. Petitioners seek to
carry forward the remainder of the loss deduction to
the extent of stock basis in future years.
On the basis of the concession, the issues for
decision are: (1) whether petitioners are entitled to
deduct a loss for 2000 on the offsetting foreign
currency options. We hold that they may not because
the underlying option transactions lacked economic
substance; and (2) whether petitioners are liable for
an accuracy-related penalty under section 6662. We
hold that they are not.
FINDINGS OF FACT
I. Background
At the time the petition was timely filed,
petitioners resided in Texas.2 Mr. Tucker received a
bachelor of business administration degree with a
major in accounting and a minor in finance in 1967
and a juris doctor degree in 1970 from the University
of Texas. Mr. Tucker was licensed as a certified public
accountant (C.P.A.). He never practiced law. After
his college graduation and while attending law school,
Mr. Tucker worked at KPMG or its predecessor
(KPMG) and became a partner in 1975. Mr. Tucker
started his KPMG career preparing individual tax
returns and then life insurance company returns and
eventually began to provide technical advice on life
insurance company tax matters. He successfully
developed his life insurance tax practice and a
national reputation. In 1981 Mr. Tucker became the
national director of KPMG’s insurance practice. In
1984 Mr. Tucker left the insurance taxation field and
2 The parties filed stipulations of facts with accompanying
exhibits which are incorporated by this reference.

22a
joined the investment banking firm Stephens, Inc., as
a senior vice president, becoming involved in mergers,
acquisitions, public and private placements, and
corporate finance. In 1987 Mr. Tucker joined the
private equity firm Trivest, Inc., as a partner,
working on middle-market leveraged buyouts. In
1991 Mr. Tucker left Trivest to become an executive
at Torchmark Corp., an insurance, financial services,
and real estate holding company. In 1992 Mr. Tucker
became the chief executive officer (CEO) of a
Torchmark subsidiary, Waddell & Reed Financial,
Inc. (Waddell & Reed), a national mutual fund and
financial services company targeting middle-class
individual investors and small businesses. In 1998
Torchmark spun off Waddell & Reed as a publicly
traded company. Mr. Tucker remained the CEO and
served as a director and the chairman of the board.
Mr. Tucker remained in these positions until his
forced resignation in 2005. After leaving KPMG in
1984, Mr. Tucker continued to maintain a
relationship with the firm. KPMG served as his
personal tax adviser and return preparer. KPMG
prepared petitioners’ returns for 1984 through 2000
and advised Mr. Tucker on various investment,
income, and estate planning issues.
A. Executive Financial Planning Program
After Waddell & Reed went public in 1998,
Waddell & Reed established a company-sponsored
personal financial planning program for its senior
executives (WR executive program) that provided
financial, estate, and income tax planning and tax
return preparation services. Part of Waddell & Reed’s
reasoning for adopting the WR executive program
was concern with its own reputation and client

23a
relationships as affected by the ethical conduct of its
executives, including tax compliance issues. Waddell
& Reed also wanted to ensure that senior executives
focused their attention on shareholder matters rather
than their own tax and investment affairs. Upon Mr.
Tucker’s recommendation, Waddell & Reed engaged
KPMG to manage the WR executive program. KPMG
also served as Waddell & Reed’s auditor. Mr. Tucker
recommended a friend and former KPMG colleague,
Eugene Schorr, to run the WR executive program.
Bruce Wertheim, a senior manager at KPMG,
assisted Mr. Schorr as a principal adviser.
Mr. Schorr has a bachelor’s degree in accounting
and a master’s degree in taxation and is a C.P.A. and
a personal financial specialist. He worked in KPMG’s
tax compliance group and specialized in individual
tax and financial planning, gifts and estates, trust
planning, and charitable contributions. Mr. Schorr
worked at KPMG (or its predecessors) from 1966 until
he retired in 2003, becoming a partner in 1976.
During his career Mr. Schorr served as partner in
charge of KPMG’s New York individual tax practice
and as partner in charge of its national personal
financial planning practice. During 2000 and 2001 he
served as partner in charge of KPMG’s national
financial planning corporate program. Mr. Schorr
taught an undergraduate estate and gift tax course
for 10 years and lectured on income tax, trust, and
estate planning issues at various conferences and
institutes. He wrote tax articles and served on the
editorial board of Taxation for Accountants and as a
director of the New York State Society of Certified
Public Accountants. Throughout this career Mr.
Schorr emphasized the importance of client
relationships.
In his experience, many senior

24a
executives lacked time to handle their own financial
and estate planning and tax matters. Mr. Schorr had
extensive experience in the development and
administration of executive financial planning
programs such as the WR executive program. Mr.
Tucker considered Mr. Schorr trustworthy and
knowledgeable and viewed him as the preeminent
person at KPMG for coordinating tax return
compliance, tax planning, estate planning, and
financial planning for executives.
From 1999 through 2001 KPMG provided Waddell
& Reed’s senior executives, including Mr. Tucker,
with individual tax and financial planning services
pursuant to the WR executive program. As part of the
WR executive program, KPMG asked Waddell
& Reed’s senior executives to complete a
comprehensive information-gathering document
relating to the executives’ financial and tax situations
and financial and nonfinancial goals. KPMG used the
information to develop specific recommendations for
the executives.
B. Waddell & Reed Stock Options
During his employment with Waddell & Reed, Mr.
Tucker participated in an executive deferred
compensation stock option plan (WR stock options
plan).
By 2000 Waddell & Reed’s stock had
significantly appreciated in the short time since it had
gone public in 1998. KPMG anticipated that Waddell
& Reed’s executives, including Mr. Tucker, would
exercise their WR stock options during 2000 to take
advantage of the increased stock value and would
experience significant increases in their 2000 incomes
as a result of exercising the WR stock options. KPMG
advised Mr. Tucker on timing and restrictions upon

25a
the exercise of the WR stock options. On August 1,
2000, Mr. Tucker exercised 1,776,654 WR stock
options. On that same date he exercised 119,513 WR
stock options via the Keith A. Tucker Children’s Trust
Agreement, dated February 21, 2000. On their 2000
joint income tax return, petitioners reported
$44,187,744 in wages and salaries, which included
$41,034,873 in gain from the exercise of WR stock
options. Waddell & Reed withheld Federal income
tax of approximately $11.4 million from Mr. Tucker’s
compensation relating to the exercise of the options.
II. Evolution of a Tax Strategy
In May 2000 before exercising the WR stock
options, Mr. Tucker met with KPMG advisers to
discuss his financial and tax planning for 2000
including his exercise of the WR stock options. They
discussed the need to withhold income tax upon the
exercise of the WR stock options. Mr. Schorr also
explained the need for Mr. Tucker to diversify his
investments. Mr. Tucker viewed his WR investments
as conservative and wanted to diversify into riskier
investments. Mr. Schorr advised Mr. Tucker that
KPMG offered various investment programs that
could mitigate his income tax resulting from
exercising the WR stock options. Mr. Tucker viewed
his conversations with KPMG as part of the WR
executive program. KPMG had trained and directed
its partners to refer clients with income over a certain
threshold to KPMG’s Innovative Strategies Group.
Mr. Schorr identified Mr. Tucker as a potential client
for the Innovative Strategies Group in the spring of
2000 on the basis of Mr. Tucker’s 2000 income from
his exercise of the WR stock options. Mr. Schorr
conferred with Timothy Speiss, the northeast partner

26a
in charge of KPMG’s Innovative Strategies Group,
and with other KPMG partners with respect to Mr.
Tucker. Mr. Schorr asked Mr. Speiss to meet with Mr.
Tucker to discuss tax strategies to mitigate his 2000
income tax. Mr. Speiss has a bachelor’s degree in
business with a major in accountancy and a master of
science degree in taxation. He began working at
KPMG in 1983 and became a partner in 1999. At trial
in this case Mr. Speiss asserted his Fifth Amendment
privilege against self-incrimination when questioned
by respondent’s counsel. Mr. Tucker relied on Mr.
Schorr’s recommendation of Mr. Speiss because Mr.
Tucker trusted Mr. Schorr. Mr. Tucker viewed his
meeting with Mr. Speiss as part of the WR executive
program. Mr. Tucker had not previously met Mr.
Speiss and was not familiar with KPMG’s Innovative
Strategies Group, which Mr. Speiss described as
offering specialized investment and tax planning
advice.
By letter dated June 22, 2000, Mr. Wertheim
provided Mr. Tucker with an estimate of Mr. Tucker’s
income from the planned August 2000 exercise of the
WR stock options in anticipation of their upcoming
meeting. On June 26, 2000, the KPMG advisers,
Messrs. Speiss, Wertheim, and Schorr, met with Mr.
Tucker, and Mr. Speiss explained that part of his
work was to identify investment opportunities that
also had tax benefits and to implement the tax
benefits for KPMG’s clients. KPMG proposed a tax
strategy referred to as “short options” and explained
that the strategy would mitigate petitioners’ 2000
income tax from the WR stock options (short options
strategy). Mr. Schorr explained that the Internal
Revenue Service (IRS) could impose accuracy-related
tax penalties and that taxpayers could protect

27a
themselves from penalties by relying on counsel. Mr.
Tucker had previously been unfamiliar with IRS
penalties.
On the same day Mr. Tucker also met with a
representative of Quadra Associates who was a
former KPMG colleague of Messrs. Tucker and
Schorr to discuss a tax strategy for petitioners’ 2000
income tax referred to as the Quadra Forts
transaction. Mr. Schorr arranged this meeting. After
these meetings Mr. Tucker decided to further pursue
and investigate KPMG’s short options strategy. Mr.
Tucker declined to engage in the Quadra Forts
transaction in part because it would require
disposition of his WR stock, something he wanted to
avoid as Waddell & Reed’s CEO. KPMG sent a letter
to Mr. Tucker, dated July 25, 2000, that described
both tax strategies, which Mr. Tucker received during
the first week of August. On August 2, 2000, Mr.
Tucker spoke with representatives of KPMG and
Helios Financial LLC (Helios) to discuss the
mechanics of the short option strategy. After these
discussions Mr. Tucker viewed the short options
strategy as in a concept stage and he did not yet
understand the transaction. KPMG provided an
engagement letter to Mr. Tucker, dated August 10,
2000, and signed by Mr. Speiss, for services relating
to the short option strategy for a fee of $600,000.
On August 11, 2000, the IRS issued Notice 200044, 2000-2 C.B. 255, which described the son of BOSS
tax shelter and identified as a “listed” transaction the
simultaneous purchase and sale of offsetting options
and the subsequent transfer of the options to a
partnership. As a result of the issuance of Notice
2000-44, supra, KPMG informed Mr. Tucker that the
IRS had identified the short options strategy as a

28a
listed transaction and KPMG could no longer
recommend that strategy. Mr. Tucker no longer
wanted to engage in the short options strategy
because of the potential negative impact on his
personal and professional reputation, his career, and
Waddell & Reed’s reputation had he engaged in an
abusive tax scheme. Mr. Tucker discussed these
concerns with KPMG and indicated that he would not
want to participate in an abusive tax scheme. As a
result of KPMG’s disclosure of Notice 2000-44, supra,
and its recommendation against the short options
strategy, Mr. Tucker believed he could trust KPMG
not to advise him to invest in an abusive tax strategy.
He believed KPMG was fulfilling its responsibilities
under the WR executive program to prevent senior
executives from entering into transactions that could
create trouble with the IRS.
Mr. Tucker and KPMG began to discuss other tax
mitigation strategies for Mr. Tucker’s 2000 tax
planning. In fall 2000 Mr. Tucker reconsidered the
Quadra Forts transaction, upon KPMG’s advice, and
met with Quadra Associates. KPMG provided tax
advice to Mr. Tucker on the Quadra Forts transaction
and consulted with Quadra Associates as Mr.
Tucker’s adviser. Mr. Tucker decided to participate
in the Quadra Forts transaction. The Quadra Forts
transaction was scheduled to commence on December
18, 2000. Issues arose concerning Quadra Associates’
unwillingness to share details about the transaction
with KPMG, and the lack of disclosure could have
prevented KPMG from being able to sign petitioners’
2000 return as return preparer. On December 12,
2000, Quadra Associates advised KPMG that
financing for the Quadra Forts transaction was in
jeopardy and the transaction might not close. On

29a
December 14, 2000, Mr. Tucker was advised that the
Quadra Forts transaction could not be completed
because of a lack of financing. During this period,
when Mr. Tucker first considered the short options
strategy in June 2000 through the failure of the
Quadra Forts transaction in mid-December 2000, Mr.
Tucker had little direct communication with Mr.
Speiss.
After the Quadra Forts transaction fell through,
Mr. Speiss discussed with and sought approval from
several members in KPMG’s tax leadership positions
to develop and propose a customized tax solution to
mitigate Mr. Tucker’s 2000 income tax by the end of
the year. Mr. Speiss informed Mr. Schorr that he
intended to propose a potential customized tax
strategy to Mr. Tucker that involved foreign currency
options. Mr. Schorr followed up with at least one
member of KPMG’s tax leadership to confirm that the
tax leadership approved a customized tax solution for
Mr. Tucker because of the sensitive nature of yearend
tax strategies and because Mr. Schorr understood
that KPMG would not pursue certain types of tax
strategies for its clients after issuance of Notice 200044, supra.
On December 15, 2000, Mr. Speiss spoke with Mr.
Tucker and recommended a transaction involving
foreign currency options (FX transaction). KPMG
customized and recommended the FX transaction to
three Waddell & Reed senior executives, including
Mr. Tucker. One of the other executives also executed
the transaction. Mr. Speiss identified four entities,
Helios, Diversified Group, Inc. (DGI), Alpha
Consultants, LLC (Alpha), and Lehman Brothers
Commercial Corp. (Lehman Brothers), a global
financial services firm, that would collectively execute

30a
and manage the FX transaction.
Mr. Tucker
understood that Helios, DGI, and Alpha (promoter
group) were investment advisers that would assist in
implementing the FX transaction and that DGI had
designed the FX transaction. Individuals associated
with the promoter group explained the potential
profit and loss associated with the FX transaction and
informed Mr. Tucker that both the potential profit
and loss would be capped. The promoter group told
Mr. Tucker that he had a potential return of $800,000
on the FX transaction, after transaction costs and
fees, and the probability that he would earn a profit
was 40%. Mr. Tucker viewed an $800,000 profit over
a short period as a good investment. In fact Mr.
Tucker had a net economic loss on the FX transaction
of approximately $695,000. Mr. Tucker knew about
the tax benefits of the FX transaction; he also knew
the IRS might disallow the loss deduction from the
transaction.
On December 16, 2000, Mr. Speiss sent a letter to
Mr. Tucker concerning the FX transaction and
transmitting a profit and loss summary for the FX
transaction and a summary of “review points” being
considered by KPMG.
The letter included an
attachment titled “CFC timeline”. The CFC timeline
contained the following table:
Fri., Dec. 15

Purchase stock of CFC;
enter into shareholder’s
agreement;
fund
CFC;
acquire options.

Wed., Dec. 27

Latest date for sale of gain
legs and purchase of
replacement options

31a
Thurs., Dec. 28

Latest effective date
check-the-box election

of

Fri., Dec. 29

Remaining positions expire
or are sold

Mar. 13, 2001

Latest date for making
retroactive
check-the-box
election

Tax return due Sec. 367(b) gain election
date
Sept. 15, 2001

Sec. 338 election

On December 18, 2000, Mr. Tucker spoke with
Messrs. Schorr and Speiss by telephone about the FX
transaction. Mr. Tucker decided to implement the FX
transaction and signed an engagement letter, dated
December 27, 2000, for KPMG to provide tax
consulting services relating to the FX transaction.
Mr. Tucker worked with Mr. Speiss to implement the
transaction during the last two weeks of December
2000, including after Mr. Tucker left for a two-week
vacation on December 19, 2000. Mr. Schorr did not
participate in meetings and discussions between
Messrs. Tucker and Speiss relating to the FX
transaction. Mr. Tucker understood that Mr. Schorr
was not involved in implementing the FX transaction.
III. Relevant Entities
Mr. Tucker implemented the FX transaction
through three entities: Sligo (2000) Company, Inc.
(Sligo), Sligo (2000), LLC (Sligo LLC), and Epsolon,
Ltd. (Epsolon).
In December 2000 Mr. Tucker
incorporated Sligo under Delaware law, with Mr.
Tucker owning all outstanding stock. Sligo elected S
corporation status for Federal income tax purposes,

32a
effective December 18, 2000. In December 2000 Mr.
Tucker also organized Sligo LLC under Delaware law
pursuant to a limited liability company agreement
dated December 19, 2000. From its inception until
December 26, 2000, Mr. Tucker was the sole member
of Sligo LLC. On December 26, 2000, Mr. Tucker
transferred his ownership interest in Sligo LLC to
Sligo.
Epsolon was a foreign corporation organized under
the laws of the Republic of Ireland on November 6,
2000.
When Epsolon was initially organized,
Cumberdale Investment, Ltd. (Cumberdale), also a
foreign corporation existing under the laws of the
Republic of Ireland, owned all 100 shares of Epsolon’s
issued and outstanding stock. On December 18, 2000,
Sligo purchased 99 Epsolon shares from Cumberdale
for $10,000. From December 18 through 31, 2000,
Sligo owned 99 shares and Cumberdale owned 1
share. Petitioners did not directly or indirectly own
any interest in Cumberdale. Epsolon elected
partnership classification for Federal income tax
purposes effective December 27, 2000.
On December 18, 2000, Cumberdale and Sligo
entered into a shareholder agreement to make capital
contributions to Epsolon: Cumberdale agreed to
contribute $15,300 and Sligo agreed to contribute
$1,514,700 for a total contribution of $1,530,000. Mr.
Tucker opened two accounts at Lehman Brothers, one
on behalf of Epsolon (Epsolon account) and the other

33a
on behalf of Sligo LLC (Sligo LLC account).3 On
December 20, 2000, Mr. Tucker transferred
$1,530,000 into the Epsolon account. Mr. Tucker
made two transfers into the Sligo LLC account of
$510,000 and $500,000 on December 20 and 28, 2000,
respectively.
IV. FX Transaction
The FX transaction consisted of two components.
The first component (Epsolon loss component) was
structured in accordance with the CFC timeline
outlined above. The second component (Sligo LLC
basis component) was structured to increase the basis
in an S corporation, Sligo, through which the Epsolon
loss could pass through to Mr. Tucker.
a. Epsolon’s Loss Component
i. December 20, 2000, Foreign Currency
Transactions
On December 20, 2000, Epsolon purchased the
following four foreign currency options (euro options)
from Lehman Brothers tied to the U.S. dollar and the
European euro (USD/euro) for a combined premium
of $156,041,0
Option

Strike
price

Long euro
call I

.9208
USD/euro

3

Payoff
amount

Premium

$187,637,704 $56,451,951

Mr. Tucker signed new account forms with Lehman
Brothers that referenced Notice 2000–44, 2002–2 C.B. 255. The
reference to the notice did not raise concerns with Mr. Tucker
about the validity of the FX transaction as he considered it to be
boilerplate.

34a
Option

Strike
price

Payoff
amount

Premium

Long euro
call II

.9208
USD/euro

71,710,943

21,568,993

Long euro
put I

.8914
USD/euro

187,445,332

56,451,284

Long euro
put II

.8914
USD/euro

71,637,538

21,568,773

On December 20, 2000, Epsolon wrote to Lehman
Brothers the following euro options for a combined
premium of $157,500,000:
Option

Strike
price

Payoff
amount

Premium

Short
euro call I

.9207
USD/euro

Short
euro call
II

.9207
USD/euro

72,434,183

21,750,000

Short
euro put I

.8915
USD/euro

189,635,141

57,000,000

Short
euro put
II

.8915
USD/euro

72,360,777

21,750,000

$189,827,513 $57,000,000

The eight euro options expired on January 8, 2001.
The total net premium payable by Lehman Brothers
to Epsolon relative to the above eight euro options
(December 20, 2000, euro options) was $1,458,999,
which was posted as a credit to the Epsolon account
at Lehman Brothers. In addition to the net premium,
Epsolon was required to post a margin of $1,448,986.

35a
The sum of these amounts, together with the accrued
interest, was intended as collateral for the amount
Epsolon could owe on the December 20, 2000, euro
options if the USD/euro exchange rate was below
.8914 or above .9208 at expiration.
On the basis of the euro options, Mr. Tucker’s
advisers determined there were three possible
outcomes at expiration:4
1. If the USD/euro exchange rate was below .8914
USD/euro, the parties would exercise four of
the euro options (long euro put I, long euro put
II, short euro put I, and short euro put II), and
Epsolon would owe a net $2,913,048 to Lehman
Brothers, which would result in the return of
the $1,458,999 credit and an additional loss of
$1,454,049;
2. if the USD/euro exchange rate was above .8914
and below .9208 USD/euro, the parties would
not exercise any of eight options, and Epsolon
would realize a gain of $1,458,999 (the net
premium credited to its account); or
3. if the USD/euro exchange rate was above .9208
USD/euro, the parties would exercise four of
the euro options (long euro call I, long euro call
II, short euro call I, and short euro call II), and
Epsolon would owe $2,913,049 to Lehman
Brothers, which would result in the return of
the $1,458,999 credit and an additional loss of
$1,454,050.
4 On brief respondent alleged three possible outcomes
with slightly different amounts of potential loss or gain and used
exchange rates of .8915 USD/euro and .9207 USD/euro. The
difference is immaterial for our decision.

36a
2. December 21, 2000, Foreign Currency
Transactions
On December 21, 2000, the euro appreciated
against the U.S. dollar. On December 21, 2000,
Epsolon disposed of the following four December 20,
2000, euro options for a net gain of $51,260,455:
Closed
out for

Gain

Long euro $75,714,627
call I

—

$19,262,676

Long euro
call II

28,131,028

—

6,562,035

Short
euro put I

—

$38,155,202

18,844,798

Short
euro put
II

—

15,159,054

6,590,946

Option

Sold for

On the same day, Epsolon purchased from
Lehman Brothers the following two foreign currency
options tied to the Deutschmark (DEM) and the U.S.
dollar (Deutschmark options) for a combined
premium of $103,918,493:
Option

Strike
price

Payoff
amount

Premium

Long
DEM call
I

2.1241
$187,751,702 $75,760,627
DEM/USD

Long
DEM call
II

2.1241
DEM/USD

71,779,358

28,157,866

37a
Epsolon sold to Lehman Brothers the following
two Deutschmark options for a combined premium of
$53,316,100:
Option

Strike
price

Payoff
amount

Premium

Short
DEM put
I

2.1939
$189,640,141 $38,156,208
DEM/USD

Short
DEM put
II

2.1939
DEM/USD

72,364,777

15,159,892

Each of the Deutschmark options expired on
January 8, 2001. On the basis of the four
Deutschmark options, Epsolon owed a net premium
to Lehman Brothers of $50,602,393. Epsolon paid the
net premium in part by $50,531,399 in proceeds from
the disposition of four December 20, 2000, euro
options. Epsolon’s acquisition of the Deutschmark
options required it to pay an additional $70,994
premium and to post an additional margin of $9,006.
3. December 28, 2000, Foreign Currency
Transactions
On December 28, 2000, Epsolon disposed of the
following four foreign currency options for a net loss
of $38,483,893:
Option

Sold for

Closed
out for

Gain/loss

Long
DEM
call I

$124,340,670

—

$48,580,043

38a
Option

Sold for

Closed
out for

Gain/loss

Long
euro
put I

4,565,799

—

(51,885,485)

Short
euro
call I

—

Short
DEM
put I

—

4. January 8,
Transactions

$125,715,399 (68,715,399)

4,619,260

2001,

33,536,948

Foreign

Currency

On January 8, 2001, the four remaining euro and
Deutschmark options expired. As of January 8, 2001,
Epsolon had not exercised four options, which expired
as follows:
1. the long DEM option call II expired, and
Lehman Brothers owed $71,779,358 to
Epsolon;
2. the short euro call option II expired, and
Lehman Brothers owed $72,434,183 to
Epsolon;
3. the long euro put option II expired out of the
money; and
4. the short DEM put option II expired out of the
money.
B. Sligo LLC Basis Component
On December 21, 2000, Sligo LLC purchased from
Lehman Brothers a long put option to sell
14,392,491,546 Japanese yen (yen option) at a strike

39a
price of 108.96 yen to the U.S. dollar for a $51 million
premium. Also on December 21, 2000, Sligo LLC sold
a yen put option to Lehman Brothers to sell
14,277,335,279 yen at a strike price of 108.97 yen to
the U.S. dollar for a premium of $50,490,000. Both
yen options expired on December 21, 2001, a one-year
period from execution to maturity. Sligo LLC owed
Lehman Brothers a net premium of $510,000 for the
two yen options. If the yen/USD exchange rate was
above 108.96 at expiration, Sligo LLC would receive a
net payment of 115,136,267 yen (worth between
$1,081,390 and $1,068,710). If the yen/USD exchange
rate was below 108.96 at expiration, both yen options
would expire worthless, and Sligo LLC would lose the
$510,000 premium paid to Lehman Brothers.
On December 26, 2000, Mr. Tucker transferred his
100% ownership interest in Sligo LLC to Sligo.
Epsolon took the reporting position that: (1) it was a
controlled foreign corporation (CFC) for a period of
nine days before it elected partnership classification,
i.e., the taxable year ended December 26, 2000, and
(2) its partnership election resulted in a deemed
liquidation of Epsolon but did not result in any
taxable income to Epsolon.
See sec. 301.77013(g)(1)(ii), Proced. & Admin. Regs. In calculating Mr.
Tucker’s basis in his Sligo stock, petitioners increased
Mr. Tucker’s basis by the $51 million premium paid
for the long yen put option and $2,024,700 in
purported cash contributions. However, Mr. Tucker
did not decrease his Sligo stock basis by the premium
received for the short yen put option. Mr. Tucker
claimed a basis in his Sligo stock of $53,024,700.
Petitioners’ basis calculation for the Sligo stock was
based on the position that the obligation to fulfill the
short yen put option was a “contingent” obligation

40a
which did not reduce Mr. Tucker’s basis in his Sligo
stock under section 358(a) and (d).
The Sligo LLC yen options created a basis
component of the FX transaction similar to the basis
inflation identified in Notice 2000-44, supra. Mr.
Tucker was not aware that the FX transaction
involved a basis component at the time he executed
the FX transaction. Mr. Tucker had received but did
not read written communications that referred to a
basis component. Petitioners have conceded the Sligo
LLC basis component but continue to argue that Mr.
Tucker is entitled to a basis in his Sligo stock, as of
December 31, 2000, for purported cash contributions
of $2,024,700 that he had made during the 2000 tax
year.5
V. Professional Advice on Mr. Tucker’s 2000 Tax
Year
KPMG represented to Mr. Tucker that the FX
transaction was not covered by Notice 2000-44, supra.
Mr. Tucker did not read Notice 2000-44, supra,
because he did not think that he would understand it
and because he trusted his KPMG advisers. Mr.
Tucker understood that KPMG would not provide an
opinion regarding the tax effects of the FX transaction
because KPMG was Mr. Tucker’s return preparer and
because Mr. Speiss had planned the FX transaction.
KPMG orally communicated to Mr. Tucker that the
claimed tax treatment of the FX transaction was
warranted. KPMG indicated that it would sign
petitioners’ return reporting the FX transaction,

5 Respondent asserts that petitioners
substantiated the capital contribution.

have

not

41a
giving Mr. Tucker comfort that the FX transaction
was a legitimate tax planning solution.
A. Brown & Wood Tax Opinions
On or around December 26, 2000, Mr. Tucker
engaged the law firm Brown & Wood to provide a tax
opinion with respect to the FX transaction upon
KPMG’s recommendation. KPMG had recommended
three law firms to Mr. Tucker, and he chose Brown
& Wood to provide the opinions because he was
familiar with the firm. Mr. Tucker understood that
he needed a legal opinion as an “insurance policy” to
ensure that the tax treatment of the FX transaction
was proper and to protect against risk of IRS
penalties. Mr. Tucker did not understand that Brown
& Wood was involved with the development of the FX
transaction. Mr. Tucker had a conference call with
Mr. Speiss and counsel from Brown & Wood on
December 15, 2000.
In late January 2001 James Haber, president of
DGI, advised R.J. Ruble, a tax partner at Brown
& Wood, that Mr. Tucker would require two opinions
with respect to the FX transaction: one relating to the
Sligo LLC basis component (Sligo opinion) and the
second relating to a loss generated by the Epsolon loss
component (Epsolon opinion). DGI’s general counsel
had prepared a draft memorandum, dated October 25,
2000, discussing the U.S. tax consequences of a CFC
strategy similar to that used in the Epsolon loss
component (CFC memorandum).
The CFC
memorandum included the CFC timeline given to Mr.
Tucker before he engaged in the FX transaction. DGI
provided the CFC memorandum and also a form legal
opinion relating to the Sligo LLC basis component to
Mr. Ruble when he was preparing the two Brown

42a
& Wood opinions. The two Brown & Wood opinions
concluded Mr. Tucker’s tax treatment of the FX
transaction would more likely than not withstand IRS
scrutiny and referenced multiple tax-law doctrines,
including the sham transaction doctrine, economic
substance, the step transaction doctrine, section 465
at-risk rules, and the basis adjustment rules.
Mr. Tucker received the Sligo opinion after filing
his 2000 income tax return, having filed the return
approximately three weeks before the due date in
order to obtain his expected refund of the tax withheld
with respect to the WR stock options. Mr. Tucker
received the Epsolon opinion before he filed his 2000
return. Mr. Tucker questioned KPMG, as his tax
return preparer, about the need to wait to file his 2000
return until he received both opinions. KPMG
advised him that a delay in filing was not necessary
because KPMG confirmed the opinions were
forthcoming. Petitioners presented expert testimony
that it was within acceptable practice standards at
the time of the FX transaction to provide a tax opinion
after the filing of a tax return. Both opinions were
backdated to December 31, 2000; petitioners’ expert
noted no advantage to backdating an opinion, and
backdating was not part of practice standards. Mr.
Tucker did not read the Brown & Wood opinions,
believing that he would not understand their
technical nature. Mr. Tucker relied on KPMG to
review the Brown & Wood opinions, consistent with
his normal practice. There is no evidence in the
record concerning Brown & Wood’s fee for the two
opinions or how the fee was paid.

43a
B. Speiss Memorandum
Mr. Speiss prepared a 48-page single-spaced
memorandum addressed to Mr. Tucker, dated
January 8, 2001 (Speiss memorandum), that
summarized the FX transaction and analyzed the tax
consequences of the FX transaction. The Speiss
memorandum states it is not a tax opinion. The
memorandum described the application of the
relevant Code provisions relied on for petitioners’
reporting position and provided an analysis of various
statutory provisions and judicial doctrines that the
IRS could attempt to use to challenge or
recharacterize the FX transaction, including
economic substance, sham transaction, sham
partnership, and step transaction doctrines, at-risk
rules, and partnership antiabuse rules. The Speiss
memorandum concluded that Notice 2000-44, supra,
should not apply and the FX transaction should not
trigger the substantial understatement penalty. Mr.
Tucker understood that the purpose of the Speiss
memorandum was to support KPMG’s signature as
tax return preparer on petitioners’ 2000 return
claiming the loss from the FX transaction. KPMG
prepared and signed petitioners’ 2000 return in
accordance with the Speiss memorandum.
In
January 2001 Mr. Tucker received a copy of the Speiss
memorandum but did not read it.
C. Schorr Memorandum
Mr. Schorr prepared an internal four-page
memorandum to file (Schorr memorandum) dated
January 18, 2001, that described advice and
recommendations that KPMG provided to Mr. Tucker
during 2000. Mr. Schorr did not expect that Mr.
Tucker would read the Brown & Wood opinions. Mr.

44a
Tucker received the Schorr memorandum before
filing his 2000 return.
He read the Schorr
memorandum because it was a short document and
because he had not requested it and was not aware
that Mr. Schorr had drafted a memorandum. He
described the Schorr memorandum as written in
layman’s terms for a client to understand. The Schorr
memorandum indicated that Mr. Schorr drafted it in
response to the IRS’ increased scrutiny of tax
solutions as announced in Notice 2000-44, supra. The
Schorr memorandum memorialized KPMG internal
discussions about the implementation of a tax
solution for Mr. Tucker, including the short options
strategy, the Quadra Forts transaction, and the FX
transaction. The memorandum stated that Mr.
Speiss had conferred with DGI and Brown & Wood to
develop a customized tax solution for Mr. Tucker and
that Mr. Speiss had developed the tax and investment
structure with Helios and Brown & Wood. Despite the
statements in the Schorr memorandum, Mr. Tucker
did not understand that Brown & Wood had a conflict
of interest that precluded its providing an
independent legal opinion.
The Schorr memorandum summarized discussions
with Mr. Tucker about his unwillingness to enter into
a transaction that could result in IRS penalties. The
memorandum indicated possible IRS penalties of $4
million as a result of the FX transaction and advice
given to Mr. Tucker to make a $5 million long-term
investment to hedge against penalties. Mr. Tucker
invested $3 million in junk-bond, high-yield securities
and $1 million in fixed-income instruments and
hedging transactions. The Schorr memorandum also
summarized KPMG internal discussions on fees
charged to Mr. Tucker. KPMG charged Mr. Tucker a

45a
$500,000 fee for services relating to the FX
transaction, and the Schorr memorandum referred to
an initial fee of $250,000. The Schorr memorandum
stated that Mr. Speiss insisted on a larger fee because
he had developed and implemented the FX
transaction from beginning to end. The memorandum
also stated that a fee based on hours of service would
be between $250,000 and $300,000. Mr. Tucker also
paid a $1,020,000 fee to Helios relating to the FX
transaction. The relationship between Helios and
DGI is unclear from the record.
Mr. Schorr knew that the IRS might disallow the
claimed tax treatment of the FX transaction but
believed that Mr. Tucker would not be subject to IRS
penalties.
This comports with Mr. Tucker’s
understanding of the advice he received from KPMG.
Although Mr. Schorr wrote in his memorandum that
Mr. Speiss developed the FX transaction with Helios
and Brown & Wood, Mr. Schorr did not realize that
Brown & Wood would have a conflict of interest when
providing a tax opinion. Mr. Schorr did not receive
copies of the Brown & Wood opinions and did not read
the opinions.
VI. Tax Reporting
For 2000, Epsolon, a foreign entity, reported a
$38,483,893 net loss from the December 28, 2000,
disposition of the four foreign currency options plus
an additional loss from transaction costs of
$1,100,618 for a total loss of $39,584,511 (option loss).
Epsolon allocated $39,188,666 of the option loss to
Sligo on the basis of Sligo’s 99% ownership. Sligo
reported this option loss on its S corporation return
for the period December 18 to 31, 2000. On their 2000
joint return, petitioners reported a loss of

46a
$39,203,302, consisting, in large part, of the
$39,188,666 passthrough loss from Sligo. Petitioners
also reported a $13,742,247 loss from Sligo on their
2001 joint return for a total loss of over $52.9 million
for the two years 2000 and 2001.6
VII. Subsequent
Proceedings

Adviser

Communications

and

In March 2002 Brown & Wood, then part of Sidley,
Austin, Brown & Wood LLP (Sidley Austin), sent Mr.
Tucker a letter informing him of the IRS’ newly
announced voluntary disclosure program, for
taxpayers who had participated in tax shelters, that
allowed taxpayers to avoid accuracy-related
penalties. IRS Announcement 2002-2, 2002-1 C.B.
304. Brown & Wood recommended that Mr. Tucker
consult his regular tax adviser about the voluntary
disclosure program.
Mr. Tucker discussed IRS
Announcement 2002-2, supra, with Messrs. Schorr
and Speiss, who advised Mr. Tucker not to make a
voluntary disclosure about the FX transaction or to
seek amnesty from IRS penalties because the FX
6

Epsolon was not subject to TEFRA procedures because it
was a foreign partnership pursuant to sec. 6031(e) for the year
in issue. For 2001 Epsolon reported a net loss of $13,890,954
relating to the January 8, 2001, expiration of the four remaining
foreign currency options. Sligo, as 99% partner, reported a
$13,758,878 loss from Epsolon on its 2001 S corporation return,
and petitioners reported a $13,742,247 loss from Sligo on their
2001 joint return. Respondent issued a notice of deficiency to
petitioners for 2001, and petitioners filed a timely petition. The
Court dismissed the case for lack of jurisdiction on the basis that
the notice of deficiency was invalid because of a related TEFRA
partnership proceeding, which was not yet completed. The 2001
losses are at issue in a partnership-level proceeding filed in the
Court of Federal Claims. That case has been stayed pending the
disposition of this case.

47a
transaction was not a tax shelter and was not subject
to the voluntary disclosure program. By letter dated
April 24, 2002, Mr. Speiss sent Mr. Tucker a copy of
the Speiss memorandum.
As part of a promoter examination of KPMG, the
IRS issued summonses to KPMG for the names of
clients to whom KPMG had sold transactions covered
by Notice 2000-44, supra. In August 2003 KPMG
advised Mr. Tucker for the first time that the FX
transaction was a tax shelter subject to Notice 200044, supra. In September 2003 Mr. Tucker filed a John
Doe lawsuit against KPMG in U.S. District Court to
enjoin the disclosure of his identity to the IRS. The
Government subsequently intervened, and the
District Court dismissed the John Doe suit three days
before the period of limitations for petitioners’ 2000
tax year expired. KPMG disclosed Mr. Tucker’s
identity to the IRS in response to the summons.
On April 15, 2004, respondent issued a notice of
deficiency to petitioners for 2000, disallowing a
$39,188,666 loss deduction and determining a
deficiency of $15,518,704 and a section 6662 accuracyrelated penalty of $6,206,488. Mr. Tucker disclosed
receipt of the deficiency notice to Waddell & Reed’s
board of directors and other senior executives. In May
2005 Mr. Tucker resigned from Waddell & Reed as his
tax issues began to draw more attention in the media.
The board of directors had advised Mr. Tucker that if
he did not resign, he would be fired.
In August 2005 KPMG entered into a deferred
prosecution agreement with the Government in which
it admitted that it had participated in tax shelter
transactions as part of a criminal conspiracy in an
attempt to defraud the United States. KPMG agreed
to pay the Government $456 million in restitution,

48a
penalties, and disgorgement of fees. In May 2007
Sidley Austin entered into a settlement with the IRS
in which it agreed to pay a tax shelter promoter
penalty of $39.4 million.
In April 2009 Mr. Tucker filed an arbitration
complaint against KPMG and Sidley Austin before
the American Arbitration Association for damages
resulting from alleged fraudulent conduct relating to
KPMG’s advice in connection with the FX transaction.
Mr. Tucker alleged that KPMG had made false
representations concerning the validity of the FX
transaction and the risk of IRS penalties. Mr. Tucker
pursued the arbitration complaint to recover for
damage to his reputation and career as a result of his
involvement in the FX transaction and the resulting
IRS case against him and to recover damages in
connection with potential IRS penalties for 2000 and
2001. Mr. Tucker learned during the arbitration that
his 2000 tax reporting position with respect to the FX
transaction involved a basis-inflation component. In
November 2010 KPMG entered into a settlement
agreement with Mr. Tucker for an amount that would
have substantially compensated for Mr. Tucker’s lost
salary, bonuses, and equity participation due to his
forced resignation from Waddell & Reed as alleged in
the complaint. Sidley Austin also settled Mr. Tucker’s
claim for $1,050,000.

49a
VIII. Expert Witnesses
Respondent submitted two expert reports
prepared by David F. DeRosa and Thomas Murphy.7
Dr. DeRosa’s report focuses on analyzing whether
each spread position was a single economic position
and concludes that each spread position represented
a single economic position. Dr. DeRosa explained that
the options were entered into as spreads and not as
individual components and should not be separated.
Dr. DeRosa testified that if Epsolon and Sligo LLC
had entered into each option separately, Lehman
Brothers would have required them to post massive
margin amounts to cover potential liabilities. The
lack of such amounts indicates that the parties to the
options viewed each spread as a single economic
position according to Dr. DeRosa. Dr. DeRosa opined
that the options were economically inseparable. Dr.
DeRosa also calculated that the expected rate of
return on the option transactions was negative,
exclusive of fees. Dr. DeRosa also concluded that both
the Epsolon and Sligo LLC options were mispriced to
Mr. Tucker’s disadvantage.
Petitioners submitted an expert report by H.
Gifford Fong. Mr. Fong’s report evaluates whether
the Epsolon foreign currency option transactions were
valued consistent with market prices and whether
Mr. Tucker had a reasonable profit potential with
respect to the Epsolon options. Mr. Fong concludes
7

Voir dire of Mr. Murphy at trial revealed that he had not
updated his curriculum vitae with respect to certain aspects of
his employment history and trials in which he had testified in
the prior four years in violation of Rule 143(g)(1)(E). As a result,
we did not permit Mr. Murphy to testify and did not admit his
report into evidence.

50a
that the option transactions were valued properly and
that there was a reasonable prospect for profit, net of
fees and expenses. Mr. Fong determined that Mr.
Tucker had a 40% chance of profit on both the Epsolon
options and the Sligo LLC options. Dr. DeRosa agreed
with Mr. Fong’s probability calculation but also
explained that Mr. Tucker would have needed to
profit on both sets of options to earn a profit net of fees
and that the likelihood of profiting on both sets would
be lower.
OPINION
Petitioners argue that they are entitled to deduct
the loss on the Epsolon options to the extent of Mr.
Tucker’s basis in Sligo. Having conceded Sligo’s basis
arising from the Sligo LLC options, petitioners assert
that Mr. Tucker had a $2,024,700 basis in Sligo in
2000 on the basis of alleged cash contributions.
Petitioners assert that they are entitled to deduct
$2,024,700 of Sligo’s loss in 2000 and to carry forward
the remainder of the 2000 loss to future years to the
extent of Mr. Tucker’s basis in Sligo and its successor
corporation, Starview Enterprises, Inc. Petitioners
argue that specific and detailed provisions of the Code
and the regulations dictate the tax treatment of the
Epsolon options, which we should respect. In support
of their position, petitioners assert that the Epsolon
loss component yielded the loss claimed pursuant to
the following analysis:
(1) Epsolon realized an aggregate gain of
$51,260,455 in 2000 when it disposed of four euro
options on December 21, 2000.
(2) Epsolon did not recognize the $51,260,455 gain
for U.S. tax purposes because (i) Epsolon was a
foreign corporation not subject to tax under section

51a
881 or 8828 at the time of the gain and (ii) Sligo was
not required to include its share of Epsolon’s gain
under section 951 because Epsolon was a CFC for less
than 30 days when it elected partnership status.
(3) Epsolon and Sligo were not required to
recognize gain or loss when Epsolon elected
partnership status because Epsolon made an election
that allowed it to recognize gain equal to Sligo’s basis
in its Epsolon stock and Sligo had a zero basis in its
Epsolon stock.
See sec. 1.367(b)-3T(b)(4)(i)(A),
Temporary Income Tax Regs., 65 Fed. Reg. 3588 (Jan.
24, 2000).
(4) After Epsolon became a U.S. partnership, it
disposed of an additional four foreign currency
options for a net loss of $38,483,893 and transaction
costs of $1,100,618 in 2000 for a total loss of
$39,584,511.
(5) Sligo was required to take into account its
distributive share of Epsolon’s net loss, which passed
through to Mr. Tucker, as Sligo’s S corporation
shareholder, and the loss was deductible under
section 165(a) and characterized as ordinary under
section 988.
Respondent asserts several arguments against
petitioners’ entitlement to the ordinary loss
deduction. Specifically, respondent argues that we
should disallow petitioners’ claimed loss deduction
because (i) the Epsolon options lacked economic
8

Sec. 881 imposes a tax of 30% on foreign corporations on
amounts of “fixed or determinable annual or periodical gains”
income from sources within the United States. Sec. 882(a)(1)
taxes foreign corporations on income “effectively connected with
the conduct of a trade or business within the United States.”

52a
substance, (ii) the Epsolon loss was not bona fide and
the Epsolon options were not entered into for profit,
(iii) the step transaction doctrine prevents separating
the gain from the loss on the Epsolon options, (iv) the
loss should be allocated to Epsolon before the
partnership election while it was a CFC because the
gain and loss legs of the options are a single economic
position under section 988, (v) the principal purpose
of Mr. Tucker’s acquisition of Epsolon and Sligo stock
was to evade or avoid Federal income taxes, and
(vi) Mr. Tucker was not at risk for the claimed loss
under section 465.
We agree with respondent that the Epsolon
options lacked economic substance. A taxpayer may
not deduct losses resulting from a transaction that
lacks economic substance even if that transaction
complies with the literal terms of the Code. See
Southgate Master Fund, LLC ex rel. Montgomery
Capital Advisors LLC v. United States, 659 F.3d 466,
479 (5th Cir. 2011); Coltec Indus., Inc. v. United
States, 454 F.3d 1340, 1352-1355 (Fed. Cir. 2006).
Accordingly, we do not address respondent’s
remaining arguments.
I. Background: Code and Regulations Applicable to
the FX Transaction
Petitioners argue that the Code imposes clear,
mechanical provisions to determine the taxation of
foreign corporations. Petitioners contend that we
must give effect to the applicable Code and regulatory
provisions as written because Congress “knowingly
and explicitly” enacted laws to permit the tax
treatment that petitioners claimed. The tax strategy
at issue involved two separate components that both
used offsetting foreign currency options to create a tax

53a
benefit:
(1) the Epsolon loss component used
offsetting foreign currency options to generate losses
and (2) the Sligo LLC basis component used offsetting
foreign currency options to create a basis in an S
corporation through which the Epsolon losses could
flow to petitioners’ joint tax return. These two
components were structured and executed to work in
tandem in order to generate an artificial loss to offset
petitioners’ nearly $50 million in taxable gains in
2000 and 2001. As petitioners argue that the
mechanical provisions of the Code and the regulations
dictate the tax treatment of the loss on the Epsolon
options, we review the tax treatment below.
A. Epsolon Loss Component
Mr. Tucker generated the claimed tax loss through
Epsolon. At the time Mr. Tucker acquired ownership
of Epsolon, it was a foreign corporation for U.S. tax
purposes. Mr. Tucker owned 99% of Epsolon through
his wholly owned S corporation, Sligo. Epsolon
executed the loss component in four steps:
(1) Epsolon acquired various offsetting foreign
currency digital option spread positions (spread
positions); (2) it disposed of the gain legs of the spread
positions while Epsolon was a CFC; (3) it made a
“check-the-box” election to become a partnership for
U.S. tax purposes; and (4) it disposed of the loss legs
of the spread positions. Petitioners argue that
Epsolon’s gain on the options realized while a CFC is
foreign source and not recognized for U.S. tax
purposes and that Epsolon’s losses after it became a
partnership are U.S. source and pass through to Sligo
as U.S. source loss. As an S corporation, Sligo would
pass its losses through to Mr. Tucker, its sole

54a
shareholder. Accordingly, Mr. Tucker claimed the
Epsolon losses on his joint return.
1. Taxation of Gain From Epsolon Options to
a CFC
Petitioners argue that Congress chose not to tax
foreign source income of a CFC in existence for less
than 30 days with no business activities other than
buying and selling foreign currency options. Epsolon
was a CFC for nine days. Section 882(a)(1) taxes
foreign corporations engaged in a trade or business
within the United States. A trade or business within
the United States generally does not include trading
in stocks, securities, or commodities through an
agent. Sec. 864(b)(2)(A) and (B). As Epsolon’s
activities were limited to foreign currency option
trades through an agent, it did not have a trade or
business within the United States during 2000.
Accordingly, Epsolon’s gain was not taxable under
section 882(a)(1). Furthermore, Epsolon’s gain on the
options was not fixed or determinable annual or
periodical income taxable to foreign corporations
under section 881(a)(1). Sec. 1.1441-2(b)(2)(i), Income
Tax Regs. (stating that gain from the sale of property
generally is not fixed or determinable annual or
periodical income).
According to petitioners’ mechanical application of
the Code and the regulations, petitioners could be
taxed on Epsolon’s gain only under section 951.
However, Epsolon avoided the application of the
section 951 income inclusion rules. Section 951
requires a U.S. shareholder of a CFC to include in
gross income its pro rata share of the CFC’s subpart
F income. Subpart F income would include gain on
the Epsolon options. Secs. 951(a)(1), 952(a)(2),

55a
954(c)(1)(C). The section 951 income inclusion rule
applies only if the corporation is a CFC for an
uninterrupted period of 30 days. Sec. 951(a)(1).
Epsolon existed as a CFC for less than 30 days
because it made an election to be treated as a
partnership for Federal income tax purposes.
Accordingly, under the mechanical application of the
rules, Sligo was not required to include Epsolon’s gain
on the options in its income. Petitioners contend that
the Epsolon gain nevertheless had U.S. tax
consequences on the basis that Sligo was required to
account for the gain in its earnings and profits.
2. Loss on Epsolon Options After Partnership
Election
Effective December 27, 2000, Epsolon elected
partnership status, becoming a partnership for
Federal income tax purposes.
The partnership
election resulted in two events: (i) the electing entity
is deemed to distribute its assets and liabilities to its
shareholders in a complete liquidation and (ii) the
shareholders are then deemed to contribute the same
assets and liabilities to a newly formed partnership
for Federal income tax purposes. Sec. 301.77013(g)(1)(ii), Proced. & Admin. Regs. As a result of
Epsolon’s partnership election, Epsolon distributed
the remaining eight options to its shareholders, Sligo
and Cumberdale, a foreign entity, in a complete
liquidation on December 26, 2000. Sligo received a
carryover basis in its share of Epsolon’s assets that
Sligo was deemed to receive in the deemed
liquidation.
See sec. 334(b)(1). Section 332(a)
provides for nonrecognition treatment on a
liquidating distribution from a corporation to another
corporation. Section 332(b) defines the scope of the

56a
nonrecognition treatment. Section 332(b) provides
that a distribution is considered to be in complete
liquidation if (1) the corporate shareholder owns at
least 80% of the total combined voting power and 80%
of the total number of shares of all other classes of
stock and (2) the distribution is in complete
cancellation or redemption of all the stock, and the
transfer of all the assets occurs within the taxable
year. By interposing Sligo as the 99% owner of
Epsolon, rather than directly owning Epsolon himself,
Mr. Tucker structured the transaction to take
advantage of the section 332 nonrecognition rule for
corporate shareholders and avoided recognizing gain
from the deemed liquidation upon Epsolon’s
partnership election.
Section 367(b) provides for an exception to the
section 332 nonrecognition treatment that would
have required Sligo as a U.S. corporate shareholder to
recognize gain on the remaining eight options that
were deemed distributed from Epsolon upon the
partnership election. Under section 367(b) and
related regulations, a domestic parent is generally
required to include in income the foreign subsidiary’s
earnings and profits. However, petitioners were able
to avoid this exception and avoid gain or loss
recognition because of temporary regulations in effect
at that time. The temporary regulations allowed
Sligo to elect to recognize gain upon the deemed
liquidation equal to either: (1) its built-in gain in its
Epsolon stock or (2) Epsolon’s earnings and profits
attributable to Sligo. See sec. 1.367(b)-3T(b)(4)(i)(A),
Temporary Income Tax Regs., supra. The election in
the temporary regulations was available only for
transactions that occurred between February 23,
2000, and February 23, 2001. See T.D. 8863, 2000-1

57a
C.B. 488. At the time of Epsolon’s partnership
election, Sligo had no built-in gain on its Epsolon
stock; Epsolon had $51,260,455 of earnings and
profits. Sligo elected to recognize the built-in gain of
zero upon the deemed liquidation. According to
petitioners, the deemed liquidation of Epsolon did not
result in taxable income to Epsolon or Sligo.
After the deemed liquidation, Sligo was deemed to
contribute the eight options back to Epsolon as a
newly formed partnership. See sec. 301.77013(g)(1)(ii), Proced. & Admin. Regs. According to
petitioners, neither Epsolon nor Sligo recognized gain
or loss upon Sligo’s deemed contribution of the options
to Epsolon. See sec. 721(a). Epsolon calculated its
basis in the newly contributed options pursuant to
section 723 and received a carryover basis in the
options; and Sligo calculated its basis in its Epsolon
partnership interest pursuant to sections 722 and
755. Petitioners calculated Sligo’s adjusted basis in
its Epsolon partnership interest as Sligo’s basis in the
long options, subtracting the liability on the short
options assumed by Epsolon. See sec. 752(a). After
the partnership election on December 26, 2000,
Epsolon closed out four of the remaining options for a
net loss of over $38 million plus over $1 million in
transaction costs on December 28, 2000, and let the
other four options expire, unexercised, on January 8,
2001. Epsolon characterized the net loss on the
December 28, 2000, disposition of the four options as
U.S. source.
Through the above application of the mechanical
rules of the Code and the regulations, Mr. Tucker did
not recognize the gain on the offsetting gain legs of
the Epsolon options but recognized the loss on the loss
legs to offset his income on his WR stock options. In

58a
this way, Epsolon separated the gain and loss legs of
the Epsolon options. Petitioners argue that both the
loss and the gain were bona fide, and the Code treats
them differently.
B. Sligo LLC Basis Component
As outlined above, the Epsolon loss passed
through to Mr. Tucker’s S corporation Sligo and then
to Mr. Tucker. To take advantage of the loss, he
needed to have a sufficient basis in his Sligo stock. He
created a stock basis through a second set of offsetting
foreign currency options (Sligo LLC basis component).
Petitioners have conceded that Mr. Tucker is not
entitled to the basis in his Sligo stock created through
the Sligo LLC options. We summarize the Sligo LLC
basis component below.
1. S Corporation Basis Adjustment Rules
Pursuant to section 1366(a), S corporation
shareholders take into account their pro rata shares
of passthrough S corporation income, losses,
deductions, or credits in calculating their tax
liabilities. When an S corporation incurs losses, the S
corporation shareholders can directly deduct their
shares of the S corporation losses on their individual
returns in accordance with the S corporation
passthrough rules. However, section 1366(d)(1) limits
the amount of passthrough losses and deductions that
a shareholder may claim. The amount of losses
cannot exceed the shareholder’s adjusted basis in the
S corporation stock plus the adjusted basis of any debt
owed to the shareholder by the corporation. Sec.
1366(d)(1). This limitation is imposed to disallow a
deduction that exceeds the shareholder’s economic
investment in the S corporation.
Disallowed
passthrough
loss
deductions
carry
forward

59a
indefinitely and may be claimed to the extent that the
shareholder increases his or her stock basis in the S
corporation. Sec. 1366(d)(2).
S corporation shareholders must make various
adjustments to their bases in their S corporation
stock. S corporation shareholders increase their bases
in S corporation stock by their pro rata shares of
income and by capital contributions and decrease
their bases by losses and deductions passed through
to the shareholders. Secs. 1012, 1367. A shareholder
may increase his or her stock basis if he or she makes
an economic outlay to or for the benefit of the S
corporation. Underwood v. Commissioner, 63 T.C.
468, 477 (1975) aff’d, 535 F.2d 309 (5th Cir. 1976); see
Goatcher v. United States, 944 F.2d 747, 751 (10th
Cir. 1991); Estate of Leavitt v. Commissioner, 875
F.2d 420, 422 (4th Cir. 1989), aff’g 90 T.C. 206 (1988).
An economic outlay is an actual contribution of cash
or property by the shareholder to the S corporation.
Estate of Leavitt v. Commissioner, 875 F.2d at 422.
2. Sligo LLC Basis Computation
To take advantage of the Epsolon losses, Mr.
Tucker had to sufficiently inflate his basis in his Sligo
stock. To this end, he purported to establish the
necessary basis through offsetting yen options.
Through Sligo LLC he bought and sold put options
with premiums of $51 million and $50.49 million,
respectively, and then contributed the options to Sligo
by transferring his ownership in Sligo LLC to Sligo.
Mr. Tucker calculated his Sligo stock basis by
increasing his basis for the $51 million premium
purportedly paid for the long yen option. However, he
did not decrease his stock basis for the offsetting
$50.49 million premium purportedly received for the

60a
short yen option on the basis that his obligation to
fulfill the short yen option was a contingent liability
that did not reduce his stock basis under section
358(a) and (d). Mr. Tucker also increased his stock
basis by a purported cash contribution of $2,024,700.
Thus, Mr. Tucker claimed a basis in Sligo stock of
$53,024,700. The basis computation above would
have given him a sufficient basis in his Sligo stock to
claim the Epsolon passthrough losses on his
individual income tax return.
Petitioners have
conceded the $51 million basis increase from the
premium paid for the yen option and now seek to
recognize Epsolon losses to the extent they can
establish a basis in Sligo through cash contributions
and carry over the remaining Epsolon losses to future
years.
II. Mechanical Application of the Code and
Application of the Economic Substance Doctrine
Petitioners argue that the Code and the
regulations mandate the above treatment of the gain
and loss on the Epsolon options, and accordingly they
are entitled to deduct the loss from the Epsolon
options to the extent of Mr. Tucker’s basis in Sligo.
They argue that Congress chose not to tax the gain
realized on the Epsolon options while Epsolon was a
CFC for less than 30 days and chose to allow the loss
realized while Epsolon was a U.S. partnership. They
urge the Court to give effect to the statute as written
and the regulatory choices made by the Secretary.
They argue that Congress purposefully taxed U.S.
shareholders of CFCs only when the entities are CFCs
for 30 days or more. Sec. 951(a)(1). In addition,
petitioners argue that during the limited period
relevant here, regulations allowed a parent company

61a
with a foreign subsidiary to elect to recognize gain
equal to either (1) the parent’s built-in gain in the
subsidiary’s stock or (2) the foreign subsidiary’s
earnings and profits. Sec. 1.367(b)-3T(b)(4)(i)(A),
Temporary Income Tax Regs., supra. By having
Epsolon in existence as a CFC for less than 30 days,
filing a partnership election, and electing to recognize
built-in gain once Epsolon became a U.S. partnership,
petitioners suggest that Mr. Tucker used the Code
provisions as Congress intended to effectively avoid
recognizing a purported $51 million gain. Petitioners,
however, cite no legislative, regulatory, or other
authority indicating that Congress intended such a
result. Rather, legislative history and congressional
intent contradict petitioners’ argument. The 30-day
CFC rule of section 951(a) is a linchpin of the FX
transaction. Section 951 taxes U.S. shareholders of a
CFC currently on their pro rata shares of certain
types of CFC earnings. The legislative history states
that the subpart F regime, which includes the 30-day
rule under section 951(a), was “designed to end tax
deferral on ‘tax haven’ operations by U.S. controlled
corporations.” S. Rept. No. 87-1881 (1962), 1962-3
C.B. 707, 785; see also H.R. Rept. No. 87-1447 (1962),
1962-3 C.B. 405, 462. It is clear that Congress neither
contemplated nor intended to encourage this type of
mechanical manipulation of the rules when enacting
these international tax provisions. The courts have
rejected a mechanical or formalistic compliance with
the rules of subpart F. Garlock, Inc. v. Commissioner,
58 T.C. 423 (1972), aff’d, 489 F.2d 197 (2d Cir. 1973);
see Estate of Weiskopf v. Commissioner, 64 T.C. 78
(1975); Kraus v. Commissioner, 59 T.C. 681 (1973),
aff’d, 490 F.2d 898 (2d Cir. 1974); Barnes Grp. Inc. v.
Commissioner, T.C. Memo. 2013-109 (considering

62a
substance over form doctrine with respect to the
subpart F regime). The “mere technical compliance
with the statute [subpart F] is not sufficient.” Kraus
v. Commissioner, 59 T.C. at 692. On multiple
occasions, the courts have considered both the terms
and intent of the subpart F provisions and held U.S.
shareholders were subject to income inclusion and tax
under subpart F consistent with the substance of the
transactions rather than their form.9
Petitioners’ argument that Congress and the
Secretary approved of Mr. Tucker’s use of the checkthe-box partnership election to allow a loss deduction
also contradicts legislative history. At the time of the
promulgation of the partnership check-the-box
regulations, there was a concern that taxpayers might
use the partnership check-the-box election, as here, in
an attempt to achieve results that are inconsistent
with legislative intent. The explanation of the
provisions in the preamble to T.D. 8697, 1997-1 C.B.
215, 216, which promulgated the check-the-box
regulations, states:
As stated in the preamble to the proposed
regulations, in light of the increased flexibility
under an elective regime for the creation of
organizations classified as partnerships,
Treasury and the IRS will continue to monitor
carefully the uses of partnerships in the
9

Sec. 988 does not preclude our application of the
economic substance doctrine. See Stobie Creek Invs. LLC v.
United States, 608 F.3d 1366 (Fed. Cir. 2010). Sec. 988 provides
that foreign currency gain or loss shall be computed separately
and treated as ordinary income or loss. Respondent relies on sec.
988 as an alternative argument for treating the Epsolon options
as a single economic position. We do not address this argument
as we find the FX transaction lacked economic substance.

63a
international context and will take appropriate
action when partnerships are used to achieve
results that are inconsistent with the policies
and rules of particular Code provisions or of
U.S. tax treaties.
Mr. Tucker used the partnership election to ignore
economic reality and to separate Epsolon’s gains from
its losses—a critical step in his prearranged
transaction. This manipulation of the elective regime
for creating a partnership is patently inconsistent
with legislative intent and is a prime example of the
kind of behavior that concerned the regulators when
the flexible check-the-box rules were promulgated.
The offsetting Epsolon option spreads, the splitting of
the gain and loss legs through the check-the-box
partnership scheme, and the election under section
1.367(b)-3T(b)(4)(i)(A), Temporary Income Tax Regs.,
supra, assured that Mr. Tucker would have the loss
he needed to offset his WR stock option income
without the need to recognize the offsetting gain on
the options. Petitioners lack any support for their
argument that Congress intended to permit Mr.
Tucker to claim tax deductions equal to more than 75
times the amount of his actual economic loss.
Petitioners cite two 50-year-old cases from the
Court of Appeals for the First Circuit in support of
their position that we should respect the mechanical
application of the Code and the regulations used to
achieve the tax-avoidance strategy in the FX
transaction, Fabreeka Prods. Co. v. Commissioner,
294 F.2d 876 (1st Cir. 1961), vacating and remanding
34 T.C. 290 (1960), and Granite Tr. Co. v. United
States, 238 F.2d 670 (1st Cir. 1956). In both cases,
the Court of Appeals refused to apply judicial
antiabuse doctrines despite the taxpayers’ clear tax-

64a
avoidance motives. Both Fabreeka and Granite Tr.
are readily distinguishable on their facts and with
respect to the intent of the relevant Code provisions.10
Neither case considers the requirements of the
economic substance doctrine as established by the
Court of Appeals for the Fifth Circuit and discussed
below.
In the Fifth Circuit judicial antiabuse
principles are imposed to prevent taxpayers from
subverting legislative purpose by claiming tax
benefits from transactions that are fictitious or lack
economic reality. The Court of Appeals has stated:
The judicial doctrines empower the federal
courts to disregard the claimed tax benefits of a
transaction—even a transaction that formally
complies with the black-letter provisions of the
10 In Fabreeka Prods. Co. v. Commissioner, 294 F.2d 876

(1st Cir. 1961), vacating and remanding 34 T.C. 290 (1960), a
corporation purchased bonds at a premium in part with loans,
deducted the amortized bond premium as allowed by the Code,
and distributed the bonds as a dividend, which the shareholders
resold for substantially the same premium paid by the
corporation. In effect the corporation claimed a deduction for
amounts distributed as dividends. In Granite Tr. Co. v. United
States, 238 F.2d 670 (1st Cir. 1956), a corporation disposed of
stock in a wholly owned corporation and then liquidated, thereby
avoiding nonrecognition of gain or loss upon a complete
liquidation of a subsidiary by an 80% corporate shareholder. See
sec. 112(b)(6), I.R.C. 1939. The cases’ validity in relation to the
economic substance doctrine has been questioned as both cases
apply a rigid two-part test that invalidates a transaction only if
it lacks economic substance and the taxpayer’s sole motivation
was tax avoidance. See Fid. Int’l Currency Advisor A Fund, LLC
v. United States, 747 F. Supp. 2d 49 (D. Mass. 2010), aff’d, 661
F.3d 667 (1st Cir. 2011). The Court of Appeals for the Fifth
Circuit uses a conjunctive three-part test for the economic
substance doctrine. Klamath Strategic Inv. Fund ex rel. St.
Croix Ventures v. United States, 568 F.3d 537 (5th Cir. 2009).

65a
Code and its implementing regulations—if the
taxpayer cannot establish that “what was done,
apart from the tax motive, was the thing which
the statute intended.”
Southgate Master Fund, 659 F.3d at 479 (fn. ref.
omitted) (quoting Gregory v. Helvering, 293 U.S. 465,
469 (1935)). Petitioners have offered nothing to
indicate that Congress intended to provide the tax
benefits they seek through the formal application of
the Code and the regulations without conforming to
economic reality.
Accordingly we consider the
economic reality of the options at issue.
III. Economic Substance Doctrine
Taxpayers generally are free to structure their
business transactions as they wish even if motivated
in part by a desire to reduce taxes. Gregory v.
Helvering, 293 U.S. at 469. The economic substance
doctrine, however, permits a court to disregard a
transaction—even one that formally complies with
the Code—for Federal income tax purposes if it has no
effect other than on income tax loss. See Knetsch v.
United States, 364 U.S. 361 (1960); Southgate Master
Fund, 659 F.3d at 479. We will respect a transaction
when it constitutes a genuine, multiparty
transaction, compelled by business or regulatory
realities, with tax-independent considerations that
are not shaped solely by tax-avoidance features.
Frank Lyon Co. v. United States, 435 U.S. 561, 583584 (1978). Whether a transaction has economic
substance is a factual determination. United States
v. Cumberland Pub. Serv. Co., 338 U.S. 451, 456
(1950). Generally, the taxpayer has the burden of
proving that the Commissioner’s determinations in a
notice of deficiency are incorrect. Rule 142(a); Welch

66a
v. Helvering, 290 U.S. 111, 115 (1933). It is well
settled that “an income tax deduction is a matter of
legislative grace,” and the taxpayer generally bears
the burden of showing his entitlement to a claimed
deduction. INDOPCO, Inc. v. Commissioner, 503 U.S.
79, 84 (1992).
Accordingly, the burden of proving economic
substance rests on the taxpayer. See Coltec Indus.,
Inc., 454 F.3d at 1355-1356 & n.15.
The Courts of Appeals are split as to the
application of the economic substance doctrine.11 An
appeal in this case would lie to the Court of Appeals
for the Fifth Circuit absent a stipulation to the
contrary and, accordingly, we follow the law of that
circuit. See Golsen v. Commissioner, 54 T.C. 742
(1970), aff’d, 445 F.2d 985 (10th Cir. 1971). The Court
11 Some Courts of Appeals require that a valid transaction

have either economic substance or a nontax business purpose.
See, e.g., Horn v. Commissioner, 968 F.2d 1229, 1236-1238 (D.C.
Cir. 1992), rev’g Fox v. Commissioner, T.C. Memo. 1988-570;
Rice’s Toyota World, Inc. v. Commissioner, 752 F.2d 89, 91 (4th
Cir. 1985), aff’g in part, rev’g in part 81 T.C. 184 (1983). Other
Courts of Appeals require that a valid transaction have both
economic substance and a nontax business purpose. See Dow
Chem. Co. v. United States, 435 F.3d 594, 599 (6th Cir. 2006);
Winn-Dixie Stores, Inc. & Subs. v. Commissioner, 254 F.3d 1313,
1316 (11th Cir. 2001), aff’g 113 T.C. 254 (1999). Still other
Courts of Appeals adhere to the view that a lack of economic
substance is sufficient to invalidate a transaction regardless of
the taxpayer’s subjective motivation. See, e.g., Coltec Indus.,
Inc. v. United States, 454 F.3d 1340, 1355 (Fed. Cir. 2006). And
still other Courts of Appeals treat the objective and subjective
prongs merely as factors to consider in determining whether a
transaction has any practical economic effects beyond tax
benefits. See, e.g., ACM P’ship v. Commissioner, 157 F.3d 231,
248 (3d Cir. 1998), aff’g in part, rev’g in part T.C. Memo. 1997115.

67a
of Appeals for the Fifth Circuit has interpreted the
economic substance test as a conjunctive “multi-factor
test”. Klamath Strategic Inv. Fund ex rel. St. Croix
Ventures v. United States, 568 F.3d 537, 544 (5th Cir.
2009). In Klamath, the Court of Appeals stated that
a transaction will be respected for tax purposes only
if:
(1) it has economic substance compelled by
business or regulatory realities; (2) it is imbued with
tax-independent considerations; and (3) it is not
shaped totally by tax avoidance features. Id. at 544.
Thus, the transaction must exhibit an objective
economic reality, a subjectively genuine business
purpose, and some motivation other than tax
avoidance. Southgate Master Fund, 659 F.3d at 480.
Failure to meet any one of these three factors renders
the transaction void for tax purposes. Klamath, 568
F.3d at 544. While Klamath phrases the economic
substance doctrine as a conjunctive, three-factor test,
the Court of Appeals for the Fifth Circuit has
recognized that “there is near-total overlap between
the latter two factors. To say that a transaction is
shaped totally by tax-avoidance features is, in
essence, to say that the transaction is imbued solely
with tax-dependent considerations.”
Southgate
Master Fund, 659 F.3d at 480 & n.40. The proper
focus of the economic substance doctrine is the
particular transaction that gave rise to the tax benefit
at issue, not collateral transactions that do not
produce tax benefits. Klamath, 568 F.3d at 545. For
the reasons discussed below, we find that the Epsolon
option transactions fail the economic substance
doctrine as set forth by the Court of Appeals for the
Fifth Circuit.

68a
A. Objective Economic Inquiry
Under the objective economic inquiry of Klamath,
a transaction lacks economic reality if it does not vary,
control, or change the flow of economic benefits.
Southgate Master Fund, 659 F.3d at 481. The
objective economic inquiry asks whether the
transaction affected the taxpayer’s financial position
in any way, i.e. whether the transaction “either
caused real dollars to meaningfully change hands or
created a realistic possibility that they would do so.”
Id. at 481 & n.41. Stated differently, the test for
objective economic reality is whether there is a
reasonable possibility of making a profit apart from
tax benefits. Id. at 481 n.43. The inquiry is based on
the vantage point of the taxpayer at the time the
transactions occurred rather than with the benefit of
hindsight. Id. at 481.
Petitioners argue that the Epsolon options
materially changed the taxpayer’s economic position.
Petitioners further argue that Mr. Tucker had a
reasonable possibility of making a profit. He could
have earned $487,707 profit net of fees if both the
Epsolon and Sligo LLC options had been profitable,
which petitioners argue reflects a reasonable
possibility of profit sufficient to satisfy the objective
economic inquiry as articulated by the Court of
Appeals for the Fifth Circuit. Petitioners contend
that Mr. Tucker had a 40% probability of earning a
$1,458,999 profit on the Epsolon options and a 40%
probability of earning a $558,708 profit on the Sligo
LLC options for a total profit of $2,017,707 and a net
profit of $487,707 after payment of KPMG’s and
Helios’ fees.
Petitioners argue this amount
represents a large profit because it represents a 14%
return over a short period. The parties substantially

69a
agree on the amount and probability of Mr. Tucker’s
profit potential from the Sligo LLC and Epsolon
options. At the time of the FX transaction, Mr.
Tucker also understood that the Sligo LLC options
and Epsolon options each had a 40% chance of
profitability. Respondent notes that Mr. Tucker
needed to profit on both components to realize a net
profit on the total FX transaction to cover the nearly
$1.5 million in fees that Mr. Tucker paid to KPMG
and Helios. Respondent argues that probability that
both events would occur could have been as low as
16%. Mr. Fong acknowledged that the likelihood of
profit on both components was between 16% and 40%,
depending upon the extent to which there was a
correlation between the two events. Neither party’s
expert provided testimony of the appropriate
correlation, however.
1. Reasonable Possibility for Profit
The possibility of making any profit is not
presumptively sufficient to show a reasonable
possibility of profit. The existence of “some potential
for profit” is not necessarily sufficient to establish
economic substance. Keeler v. Commissioner, 243
F.3d 1212, 1219 (10th Cir. 2001), aff’g T.C. Memo.
1999-18. A transaction lacks objective economic
substance if it does not “appreciably affect * * * [a
taxpayer’s] beneficial interest except to reduce his
tax.” Knetsch, 364 U.S. at 366 (quoting Gilbert v.
Commissioner, 248 F.2d 399, 411 (2d Cir. 1957)
(Hand, J., dissenting)). A de minimis economic effect
is insufficient. Id. at 365-366 (finding a transaction
involving leveraged annuities to be a sham because
possible $1,000 cash value of annuities at maturity
was “relative pittance” compared to purported value
of annuities). Respondent argues that Mr. Tucker did

70a
not have a reasonable probability of profit because the
potential profit of $487,707 as outlined above was not
reasonable when compared with his $20 million tax
savings from the FX transaction over 2000 and 2001.
Petitioners argue that we should not compare profit
potential with tax benefits for purposes of the
economic substance doctrine and that we should
independently consider Mr. Tucker’s opportunity to
earn a profit. We have previously compared potential
profit with tax savings in assessing economic
substance. Reddam v. Commissioner, 755 F.3d 1051,
1061 (9th Cir. 2014), aff’g T.C. Memo. 2012-106; Sala
v. United States, 613 F.3d 1249, 1254 (10th Cir.
2010); Gerdau Macsteel, Inc. v. Commissioner, 139
T.C. 67, 174 (2012); Humboldt Shelby Holding Corp.
& Subs. v. Commissioner, T.C. Memo. 2014-47, aff’d,
606 F. App’x 20 (2d Cir. 2015). Thus, when analyzing
the objective economic substance of a transaction, it is
appropriate to view the reasonableness of the profit
potential in the light of the expected tax benefits.
The Epsolon options gave rise to $52.9 million in
tax losses over two years, 2000 and 2001, with
petitioners claiming a $38 million loss for 2000 and a
tax benefit of over $20 million for 2000 and 2001. The
$487,707 potential profit is de minimis as compared
to the expected $20 million tax benefit. Petitioners’
claimed tax loss has no meaningful relevance to the
minimal profit potential of $487,707 from the FX
transaction. This amount is insignificant when
compared to petitioners’ $52.9 million in ordinary
losses for 2000 and 2001 from the FX transaction and
when compared to petitioners’ tax savings of $20
million manufactured by the FX transaction for 2000
and 2001. Petitioners’ tax savings for 2000 alone were
$15.5 million. By any objective measure, the FX

71a
transaction defied economic reality. See Sala v.
United States, 613 F.3d at 1254 (potential to earn
$550,000 profit was dwarfed by expected tax benefit
of nearly $24 million); Humboldt Shelby Holding
Corp. & Subs. v. Commissioner, at *16 (potential
profit of $510,000 was inconsequential compared to
the $25 million tax benefit generated by the digital
options); Blum v. Commissioner, T.C. Memo. 2012-16,
slip op. at 35 (a 19.1% chance at realizing a $600,000
profit and a 7.6% chance of realizing a $3 million
profit, were de minimis when compared to losses of
over $45 million), aff’d, 737 F.3d 1303 (10th Cir.
2013). Thus, it is evident that the Epsolon options,
viewed objectively, offered no reasonable expectation
of any appreciable net gain but rather were designed
to generate artificial losses by gaming the tax code.
Accordingly, the Epsolon options fail the objective
prong of the economic substance analysis.
Petitioners suggest that we ascertain profitability
by considering only the Epsolon options on the basis
of their concession with respect to the Sligo LLC basis
component. Petitioners contend that a comparison of
the profit potential and the tax benefit of only the
Epsolon options shows that the profits and the tax
savings are sufficiently aligned to establish that the
Epsolon options had economic substance. Petitioners
contend that with their concession, they are entitled
to a loss deduction of approximately $2 million for
2000, which results in tax savings of roughly $800,000
for 2000. However, petitioners misstate the effect of
their concession as they seek to carry over the
remainder of the 2000 $38 million loss to future years
to the extent that they can establish Mr. Tucker’s
Sligo stock basis. Petitioners further argue that we
should recalculate the profit potential on the Epsolon

72a
options by allocating the $1.5 million in fees paid to
KPMG and Helios equally between the Epsolon and
Sligo LLC components. Under this calculation,
petitioners assert that Mr. Tucker would have a profit
potential of $688,090 on the Epsolon options, which
represents a 30% return over a 19-day period.
Petitioners argue that Mr. Tucker’s potential profit is
“substantial” compared to the $800,000 of tax savings
petitioners claim for 2000, ignoring their carryover of
the 2000 loss.
In assessing the economic substance of a
transaction, we consider the transaction that gave
rise to the tax benefit and not collateral transactions
that do not produce tax benefits. Klamath, 568 F.3d
at 545. The collateral transactions in Klamath were
investments made with actual capital contributions to
the partnership at issue which did not provide the tax
benefits at issue. Id. The court in Klamath refused
to consider the profitability of these investments in its
analysis of the economic substance doctrine on the
basis that the tax savings arose from an inflated
partnership basis and euro purchased and distributed
by the partnership. Id. Southgate Master Fund also
involved
two
transactions
(acquisition
of
nonperforming loans and the creation of a
partnership) where the Court of Appeals for the Fifth
Circuit considered which transaction created the tax
savings at issue. The case involved the tax treatment
of losses claimed through a partnership.
The
partnership’s acquisition of nonperforming foreign
loans resulted in more than $1 billion in losses.
Southgate Master Fund, 659 F.3d at 468. The court
found that despite the losses, the acquisition of the
loans had economic substance.
The investors
prepared market research and a valuation analysis

73a
before acquiring the loans, and the acquisition was
within the partners’ core business of acquiring
distressed debt. Id. at 469-470. The court found that
the losses were unforeseeable and that a reasonable
possibility of profit existed for the loans. Id. at 481.
For purposes of the economic substance doctrine, the
Government sought to compare the profit potential
from the nonperforming loans with the tax savings
from the partnership structure. The court refused to
make such a comparison as the court would not
combine its analysis of the loan acquisition and the
partnership structure. The court found that the
partners would have acquired the loans even if they
had not received any tax benefits. Id. at 482. In fact
one partner invested in the loans without any
expectation or receipt of tax benefits. Id. The court
found that the partnership was a sham, however,
finding that the partnership was created to generate
artificial losses and tax benefits.
The court
recharacterized the acquisition of the nonperforming
loans as a direct sale to the individual partners,
compared the profit potential from the nonperforming
loans and the tax benefits from a direct sale, and
found the tax benefits (from real, out-of-pocket
expenses) were not disproportionate to the expected
profitability. Id. at 483.
Petitioners’ argument that we should ignore the
Sligo LLC basis component fails for two reasons.
First, the theory that we should wholly disregard one
abusive component merely because it was conceded to
be abusive does not imbue the other equally abusive
component with economic substance. To do so would
contravene the core purpose of the economic
substance doctrine to give effect to economic realities.
Second, if we were to disregard the basis-inflation

74a
component, we would also disregard the 40%
probability of earning a $558,708 profit associated
with it, thus effectively wiping out any profit potential
unless we agree with petitioners’ reallocation of fees
on a 50-50 basis. Such a reallocation of fees is not
warranted as the fees related to the entire FX
transaction. Mr. Tucker would have had to profit on
both the Epsolon and Sligo LLC option spreads to
cover the $1.5 million in fees paid to KPMG and
Helios for the FX transaction. Both the Sligo LLC and
Epsolon loss components were essential to achieve the
mitigation of Mr. Tucker’s 2000 income tax from the
WR stock options. Mr. Tucker would not have
executed the Epsolon options separate from the Sligo
LLC options. Cf. Southgate Master Fund, 659 F.3d
466. The two components were interrelated, and Mr.
Tucker depended on the Sligo LLC basis component
in his decision to proceed with Epsolon loss
component. See Winn-Dixie Stores, Inc. & Subs. v.
Commissioner, 113 T.C. 254, 280 (1999), aff’d, 254
F.3d 1313 (11th Cir. 2001). The Court considers “the
transaction in its entirety, rather than focusing only
on each individual step.” Reddam v. Commissioner,
T.C. Memo. 2012-106, slip op. at 42, aff’d, 755 F.3d
1051 (9th Cir. 2014).
2. Actual Economic Effect
Tax losses that fail to correspond to any actual
economic losses “do not constitute the type of ‘bona
fide’ losses that are deductible” for Federal tax
purposes. ACM P’ship v. Commissioner, 157 F.3d
231, 252 (3d Cir. 1998), aff’g in part, rev’g in part T.C.
Memo. 1997-115. “[T]he mere presence of potential
profit does not automatically impart substance where
a commonsense examination of the transaction and
the record * * * reflect a lack of economic substance.”

75a
John Hancock Life Ins. Co. (U.S.A.) v. Commissioner,
141 T.C. 1, 79 (2013) (citing Sala v. United States, 613
F.3d 1249, 1254 (10th Cir. 2010)); see Keeler v.
Commissioner, 243 F.3d at 1219.
Mr. Tucker
experienced a net economic loss of approximately
$695,000 on the FX transaction. However, this
economic loss did not cause real dollars to
meaningfully change hands to the extent of the
claimed tax losses of $52.9 million for 2000 and 2001
or the claimed tax loss of $38 million for 2000. See
Southgate Master Fund, 659 F.3d at 481. Mr. Tucker
should have expected to lose money on the FX
transaction; he knew there was a 60% chance that
each component would result in an economic loss. Yet
his potential for economic loss was severely limited,
$1,488, 985 and $510,000 on the Epsolon and Sligo
LLC options, respectively, when compared to his
claimed tax losses. This expected loss was part of the
cost of engaging in the FX transaction to achieve the
desired tax savings and was not intended to change
Mr. Tucker’s financial position. Had the Epsolon
options resulted in a profit, the claimed artificial loss
would have remained for petitioners to claim on their
tax return. The artificial $39 million loss for 2000 is
unrelated to the $487,707 in profit potential or the
actual $695,000 economic loss that Mr. Tucker
sustained.
The economics of the FX transaction do not
support petitioners’ claim to the losses reported on
their 2000 tax return. There were four possible
outcomes for the two sets of option transactions:
(1) Epsolon option transactions finished in-themoney; Sligo LLC option transactions finished
in-the-money;

76a
(2) Epsolon option transactions finished in-themoney; Sligo LLC option transactions finished
out-of-the-money;
(3) Epsolon option transactions finished out-ofthe-money; Sligo LLC option transactions
finished out-of-the-money; or
(4) Epsolon option transactions finished out-ofthe-money; Sligo LLC option transactions
finished in-the-money.
The parties rely on the economic analyses of their
respective experts in support of their positions
concerning the options’ economic effect. Both experts
agree that Mr. Tucker could profit only under the
fourth outcome, and only to the extent of $487,707
after accounting for fees. The other three outcomes
would result in an economic loss. Both experts also
used the Black Scholes Merton option pricing
formula, but respondent’s expert, using Mr. Fong’s
price determinations for the individual legs of the
spread positions, concluded that the options were
mispriced against Mr. Tucker. Mr. Fong did not price
the spreads as a whole, however. Petitioners dispute
that the options were mispriced.
Mr. Fong determined, and Dr. DeRosa agreed,
that there was an approximately 40% likelihood that
the Epsolon option transactions would finish out-ofthe-money and an approximately 40% chance that the
Sligo LLC option transactions would finish in-themoney, both events were necessary for Mr. Tucker to
make the$487,707 profit, and the likelihood that both
events would occur would fall between 16% and 40%.
Petitioners argue that we should not consider the 60%
likelihood that Mr. Tucker would lose money because
Mr. Tucker did not consider the FX transaction from

77a
a loss perspective. Rather he considered only that he
had a 40% chance of making a profit and could earn
that profit over a short period. To this end, Mr.
Tucker acknowledged he knew the options were
riskier than his typical investments.
Dr. DeRosa also analyzed the expected rate of
return of the FX transaction and the probabilityweighted sum of the four possible outcomes, and he
calculated that Mr. Tucker had a negative expected
rate of return on both the Epsolon and Sligo LLC
option transactions, before and after accounting for
fees. Dr. DeRosa determined that Mr. Tucker’s
expected rates of return for the Epsolon and Sligo
LLC
options
were—54.90%
and—52.39%,
respectively, after accounting for fees. Dr. DeRosa
explained that the expected rate of return analysis is
a fundamental tool in assessing the economics of the
options because it accounts for investment costs,
possible payoffs, and probabilities of those payoffs.
Dr. DeRosa explained that an expected rate of return
is indicative of whether an option is priced correctly
and the large negative expected rates of return
present in this case indicate that the options were
“egregiously” mispriced against Mr. Tucker.
Petitioners argue that the expected rate of return
analysis is not relevant to the objective test of the
economic substance doctrine because such an analysis
fails to address whether the options had profit
potential. At times, courts have found that negative
expected rates of return indicate a lack of reasonable
possibility of profit while at other times courts have
given little weight to such analyses. See Stobie Creek
Invs., LLC v. United States, 608 F.3d 1366, 1378 (Fed.
Cir. 2012); Reddam v. Commissioner, T.C. Memo.
2012-106; Blum v. Commissioner, T.C. Memo. 2012-

78a
16; Fid. Int’l Currency Advisor A Fund, LLC v. United
States, 747 F. Supp. 2d 49, 196 (D. Mass. 2010),
aff’d, 661 F.3d 667 (1st Cir. 2011). The extent to
which a given analysis is instructive depends heavily
on the facts of the transaction in question.
Significantly mispriced assets can indicate a lack of
economic substance. Reddam v. Commissioner, T.C.
Memo. 2012-106; Blum v. Commissioner, T.C. Memo.
2012-16.
We have found that the FX transaction lacked
profit potential on the basis of a comparison of the
minimal profit potential with the $52 million in tax
savings over two years. Accordingly, we do not need
to rely on Dr. DeRosa’s expected rate of return
analysis. For the most part, both expert reports are in
agreement and use the same mathematical model and
inputs. The reports, however, diverge in two key
respects. First, as explained above, Dr. DeRosa relies
on an expected rate of return analysis, and Mr. Fong
determined profit probability. Second, the experts
disagree on how to interpret each options’ value. The
experts agree that the stated premium of each
individual option was generally within 1% of its
theoretical value. That is, each option, valued
independently, was traded at or near market price at
the time the trades occurred. Dr. DeRosa’s rebuttal
report, however, explains that the appropriate value
to examine is the net premium paid or received,
relative to the theoretical value of the position, to
determine whether the FX transaction was fairly
priced. While not determinative, a mispriced asset
can contribute to the overall picture of a transaction
lacking in economic substance.
See Blum v.
Commissioner, slip op. at 37-38. Using Mr. Fong’s
valuation calculations, Dr. DeRosa compared a

79a
market-valued net premium of $2,212,12512 for the
Epsolon euro options with the net premium of
$1,458,999 payable by Lehman Brothers to Epsolon.
Dr. DeRosa determined that the amount payable to
Epsolon was 34% less than Mr. Fong’s value, or
rather, Lehman Brothers underpaid Mr. Tucker by
$753,126.
Between the 60% or greater likelihood that Mr.
Tucker would lose money on the options, the large
negative expected rate of return, and the mispricing
of the options, the expert reports indicate that the
Epsolon options were expected to, and did in fact,
generate an economic loss. Mr. Tucker made a
minimal cash outlay, had limited financial risk, and
incurred an actual economic loss of roughly $695,000,
which stands in stark contrast to the claimed loss of
$52.9 million over two years. Viewed objectively, the
Epsolon loss component was not designed to make a
profit, but rather arranged to produce a $52.9 million
artificial loss. The scheme involved separating the
gains from the losses by allocating the gains to
Epsolon while it was a CFC, checking the box to
become a partnership, subsequently recognizing the
losses, and creating a tiered passthrough-entity
structure through which to claim the artificial losses.
No element of the Epsolon loss and Sligo LLC basis
components had economic substance; each was
orchestrated to serve no other purpose than to provide
the structure through which petitioners could reduce
12 Dr. DeRosa believes that Mr. Fong’s calculation contains

a simple mathematical error and the correct value should be
$2,388,167. If that error were corrected, the difference between
the market-valued net premium and the net premium payable
would increase to 39%.

80a
their 2000 and 2001 tax burden. Accordingly, because
the Epsolon option transaction lacked objective
economic substance, it is void for tax purposes. See
Klamath, 568 F.3d at 544 (to have economic
substance a transaction must satisfy three factors).
Failure to satisfy the objective economic realities
inquiry is sufficient to void the Epsolon options for tax
purposes. For the sake of thoroughness, we will
examine whether petitioners satisfy the subjective
inquiries of business purpose and nontax motivation.
B. Subjective Business Purpose Inquiry
The second and third Klamath factors, while
enumerated separately, overlap and derive from the
same subjective inquiry of a subjectively genuine
business purpose or some motivation other than tax
avoidance. Southgate Master Fund, 659 F.3d at 481.
Accordingly we address the two factors together.
Taxpayers are not prohibited from seeking tax
benefits in conjunction with seeking profits for their
businesses. Id. Taxpayers who act with mixed
motives of profits and tax benefits can satisfy the
subjective test. Id. at 481-482. For purposes of the
subjective inquiry, tax-avoidance considerations
cannot be the taxpayer’s sole purpose for entering into
a transaction. Salty Brine I, Ltd. v. United States,
761 F.3d 484, 495 (5th Cir. 2014). That a taxpayer
enters into a transaction primarily to obtain tax
benefits does not necessary invalidate the transaction
under the subjective inquiry. Compaq Comput. Corp.
& Subs. v. Commissioner, 277 F.3d 778, 786 (5th Cir.
2001), rev’g 113 T.C. 214 (1999). However, “[t]he
existence of a relatively minor business purpose will
not validate a transaction if ‘the business purpose is
no more than a façade’.” Humboldt Shelby Holding

81a
Corp. & Subs. v. Commissioner, at *16 (quoting ASA
Investerings P’ship v. Commissioner, 201 F.3d 505,
513 (D.C. 2000), aff’g T.C. Memo. 1998-305).
Respondent asserts that Mr. Tucker engaged in
the FX transaction for the sole purpose of avoiding
income tax that he owed upon the exercise of his WR
stock options. Petitioners counter that Mr. Tucker’s
admitted desire for tax savings does not negate his
other motivations for entering into the FX
transaction—profit and diversification. Petitioners
claim Mr. Tucker’s primary motivation was profit. In
an effort to show his profit motives petitioners
characterize Mr. Tucker’s investment in the FX
transaction as relatively small and describe the 40%
chance of profit as very substantial and the $487,707
profit potential amount as very large over a short
period. On brief, petitioners analogize Mr. Tucker’s
tax strategy to a double bacon cheeseburger—
equating the $20 million expected tax benefits to the
two hamburger patties and the $487,707 profit
potential to the bacon—and urge us to believe that he
“bought it for the bacon.” The record, however,
indicates otherwise.
Mr. Tucker did not implement the options for a
genuine business purpose. Rather he entered into the
Epsolon options for the sole purpose of reducing his
income tax. Mr. Tucker’s efforts to participate in
other tax strategies before ultimately engaging in the
FX transaction, including the short options strategy
before KPMG terminated the strategy upon the
issuance of Notice 2000-44, supra, and the Quadra
Forts transaction before its financing fell through,
belie Mr. Tucker’s claim that his motivations were
anything other than tax savings. Mr. Tucker did not
approach the FX transaction as a normal investment

82a
but rather approached it as a tax-avoidance strategy
despite his extensive experience in the field of finance.
Mr. Tucker, a former CEO of a publicly traded
financial services company, attempts to portrait
himself as an unsophisticated investor. For the FX
transaction he relied entirely on the advice of his tax
adviser, KPMG, without any review of his own into
the investment potential of the Sligo LLC or Epsolon
options. His interactions with KPMG cast doubt on
his purported profit motivation for engaging in the FX
transaction. KPMG approached Mr. Tucker in the
spring of 2000 with the idea of a tax solution to
mitigate the income tax from the anticipated exercise
of the WR stock options. Mr. Tucker decided to
pursue a short options strategy and then exercised his
WR stock options on August 1, 2000. Shortly
thereafter, the IRS issued Notice 2000-44, supra, and
KPMG terminated its short options strategy. KPMG
sought an alternative tax solution for Mr. Tucker,
which also fell through in mid-December. At the 11th
hour, Mr. Speiss sought approval from KPMG’s tax
leadership to create a customized tax solution for Mr.
Tucker. Mr. Speiss sought assistance from Helios,
Alpha, and DGI to orchestrate a tax solution that
involved an elaborate array of steps, including newly
created entities, tax elections, and the acquisition of
offsetting foreign currency digital option spreads, for
the sole purpose of generating a multimillion-dollar
ordinary loss in the final two weeks of the tax year.
KPMG arranged the FX transaction to ensure the
amount of the generated tax losses would be sufficient
to offset Mr. Tucker’s income from the WR stock
options. They completed the transaction in a short
time during the final two weeks of the tax year for the

83a
purpose of avoiding taxes owed for that year, after two
other failed attempts at tax-avoidance transactions.
Mr. Tucker’s testimony attempts to put a positive
spin on the economic realities of the transaction,
testifying that he knew that the FX transaction was
riskier than his typical investments and that he
sought to diversify into riskier investments. In
actuality, Mr. Tucker should have expected the
investment to be a failure, as he knew that the
Epsolon and Sligo LLC option transactions each had
a 60% chance of losing money. Mr. Tucker claims a
diversification motive and made other investments of
less than $5 million at the time of the FX transaction
per KPMG’s advice in an attempt to show his nontax
profit motives. However, the record shows that the
purpose of those investments was to protect against
IRS penalties and not to diversify. Mr. Tucker’s
additional investments do not imbue the FX
transaction with tax-independent considerations.
Moreover, the Epsolon entity served no business
purpose other than tax avoidance. At the time he
acquired Epsolon, Mr. Tucker did not intend to
conduct any legitimate business or investment
activities through Epsolon. Epsolon was a shelf
corporation established by tax shelter promoters.
Mr. Tucker’s decision to enter into the FX
transaction was solely tax motivated and did not have
a genuine business purpose. Regardless of his
purported desire for profit and diversification, Mr.
Tucker executed a transaction that was structured for
tax savings and not to make a profit. We note that
even had petitioners established a nontax or genuine
business purpose for the Epsolon options, such
motivation would not have been sufficient to satisfy
the conjunctive factor test for economic substance as

84a
set forth by the Court of Appeals for the Fifth Circuit.
The Epsolon options lacked any practical objective
economic effect.
IV. Accuracy-Related Penalties
Section 6662 provides that a taxpayer may be
liable for a 20% penalty on the portion of an
underpayment of tax attributable to (1) a substantial
understatement of income tax, (2) negligence or
disregard of rules or regulations, or (3) any
substantial valuation misstatement. Sec. 6662(a) and
(b)(1), (2), and (3).
A “substantial valuation
misstatement” occurs if the value of any property or
the adjusted basis of any property claimed on an
income tax return is 200% or more of the correct
amount.
Sec. 6662(e)(1)(A); sec. 1.6662-5(e)(1),
Income Tax Regs. If the valuation misstatement is
400% or more of the correct amount, the
misstatement is considered a gross valuation
misstatement, and the 20% penalty increases to 40%.
Sec. 6662(h). The section 6662 penalties do not apply
if taxpayers demonstrate they acted with reasonable
cause and in good faith. Sec. 6664(c)(1). In the
deficiency notice, respondent determined in the
alternative that petitioners are liable for the 20% and
40% accuracy-related penalties for negligence, a
substantial understatement of income tax, a
substantial valuation misstatement, or a gross
valuation misstatement. There is no stacking of
penalties. Sec. 1.6662-2(c), Income Tax Regs. While
more than one basis for the section 6662 penalty may
exist, the maximum allowed penalty is 40%. Id.
The 40% gross valuation misstatement penalty
would apply in this case on the basis of petitioners’
claimed inflated basis in the Sligo stock. Sec.

85a
6662(h)(2)(A). To allow for the Epsolon option losses
to pass through Sligo to petitioners’ 2000 tax return,
Mr. Tucker had to establish a sufficient basis in his
Sligo stock, which he did through a basis-inflation
transaction using offsetting option positions in the
Sligo LLC basis component which petitioners have
since conceded. Mr. Tucker bought and sold yen put
options through Sligo LLC with gross premiums of
$51 million and $50,490,000, respectively, and then
contributed these positions to Sligo by transferring
his Sligo LLC ownership to Sligo. Mr. Tucker paid a
net premium of only $510,000 on the yen options but
claimed a stock basis of $51 million, the gross
premium of the purchased yen put option. Mr. Tucker
did not reduce his Sligo basis by the premium received
for the sold yen put option, arguing that the sold yen
put option was a contingent liability that did not
reduce S corporation basis under section 358(a) and
(d). Petitioners have conceded this issue and now
maintain that Mr. Tucker’s basis is limited to cash
contributions he made to Sligo during 2000.
Petitioners allege that amount to be $2,024,700. Even
if we assume that Mr. Tucker had a basis in Sligo
equal to $2,024,700, his reported basis of $51 million
exceeded that amount by more than 2,500%, far in
excess of the 400% threshold required for the gross
valuation misstatement penalty to apply.
Petitioners argue that they are not liable for the
accuracy-related penalty because they acted with
reasonable cause and in good faith in reporting their
2000 tax liability. We determine whether a taxpayer
acted with reasonable cause and in good faith on a
case-by-case basis, taking into account all pertinent
facts and circumstances. Sec. 1.6664-4(b)(1), Income
Tax Regs. A taxpayer’s reliance on the advice of an

86a
independent professional may constitute reasonable
cause and good faith. The advice must be based on all
pertinent facts and circumstances and the law as it
relates to those facts and circumstances and must not
be based on any unreasonable factual or legal
assumptions. Id. para. (c)(1). We have summarized
the requirements for the reasonable reliance on
professional advice as: (1) the professional is a
competent tax adviser with sufficient expertise
to justify reliance, (2) the taxpayer provided
necessary and accurate information to the adviser,
and (3) the taxpayer actually relied in good faith on
the adviser’s judgment. Neonatology Assocs., P.A. v.
Commissioner, 115 T.C. 43, 98-99 (2000), aff’d, 299
F.3d 221 (3d Cir. 2002). A taxpayer’s education and
business experience are relevant to the determination
of whether the taxpayer acted with reasonable
reliance on an adviser and in good faith. Sec. 1.66644(b)(1), Income Tax Regs. The Supreme Court
recognized in United States v. Boyle, 469 U.S. 241,
251 (1985), that a taxpayer exercises “[o]rdinary
business care and prudence” when he reasonably
relies on a professional’s advice on matters beyond the
taxpayer’s understanding.
A taxpayer need not challenge an independent and
qualified adviser, seek a second opinion, or monitor
advice on the provisions of the Code. Id. As the
Supreme Court noted in Boyle: “Most taxpayers are
not competent to discern error in the substantive
advice of an accountant or attorney. To require the
taxpayer to challenge the attorney * * * would nullify
the very purpose of seeking the advice of a presumed
expert in the first place.” Id. Advice need not be
written and includes any communication that
provides advice on which the taxpayer relied directly

87a
or indirectly. Sec. 1.6664-4(c)(2), Income Tax Regs.
The most important factor is the extent of the
taxpayer’s effort to assess the taxpayer’s proper tax
liability. Id. para. (b). The focus of the reasonable
cause defense is on the taxpayer’s knowledge, not the
adviser’s knowledge. Southgate Master Fund, 659
F.3d at 494.
The reasonableness of any reliance depends on the
quality and objectivity of the advice. Klamath, 568
F.3d at 548. Reliance on an adviser is not reasonable
or in good faith when the taxpayer knew or should
have known that the adviser had an inherent conflict
of interest. See Chamberlain v. Commissioner, 66
F.3d 729, 732-733 (5th Cir. 1995), aff’g in part, rev’g
in part T.C. Memo. 1994-228; Paschall v.
Commissioner, 137 T.C. 8, 22 (2011); Neonatology
Assocs., P.A. v. Commissioner, 115 T.C. at 98.
Taxpayers cannot in good faith rely on the advice of a
promoter of a tax shelter transaction. However, the
definition of a promoter is not clear from case law. We
have stated that a promoter is someone who
participated in the structuring of the tax shelter
transaction offered to numerous clients or otherwise
has a financial interest or profits from the
transaction. 106 Ltd. v. Commissioner, 136 T.C. 67,
80 (2011), aff’d, 684 F.3d 84 (D.C. Cir. 2012); Tigers
Eye Trading, LLC v. Commissioner, T.C. Memo. 2009121. An adviser is not a promoter when he has a longterm and continual relationship with the clienttaxpayer, does not give unsolicited advice regarding
the tax shelter, advises the client only within his field
of expertise and not because of his regular
involvement in the tax shelter transactions, follows
his regular course of conduct in rendering his advice,
and has no stake in the transaction besides his

88a
regular hourly rate. 106 Ltd. v. Commissioner, 136
T.C. at 80 (citing Countryside Ltd. P’ship v.
Commissioner, 132 T.C. 347, 352-355 (2009)). There
is no bright-line test for determining whether an
adviser is a promoter. See Am. Boat Co. v. United
States, 583 F.3d 471, 483 (7th Cir. 2009). We must
also consider a taxpayer’s right to structure his affairs
in a way that minimizes tax and to seek tax advice to
accomplish that result. The reasonable cause defense
does not require the taxpayer to correctly anticipate
the legal consequences that the Court will attach to
the underlying facts of the transaction. Southgate
Master Fund, 659 F.3d at 494.
We find that Mr. Tucker is not liable for the
section 6662 penalty on the basis of his reliance on
Mr. Schorr of KPMG. Mr. Tucker had a long-term
relationship with both KPMG and Mr. Schorr, whom
he viewed as a friend. Mr. Schorr introduced and
recommended Mr. Speiss. KPMG had prepared
petitioners’ returns for 15 years without audit. Mr.
Tucker had recommended Mr. Schorr to manage the
WR executive program when it was created. Mr.
Tucker did not solicit or initiate the contemplation of
a tax strategy. Mr. Tucker believed that KPMG was
offering its services as part of the WR executive
program, which Waddell & Reed established to
ensure that Waddell & Reed’s executives were in
compliance with tax law. Mr. Tucker had informed
KPMG that he did not want to engage in a transaction
that would subject him to IRS scrutiny because of
concern for his professional reputation and career and
the potential impact on Waddell & Reed’s reputation
as its CEO. After the issuance of Notice 2000-44,
supra, Mr. Tucker was adamantly against
participating in such a transaction.
KPMG

89a
repeatedly assured Mr. Tucker that Notice 2000-44,
supra, did not apply to the FX transaction. Mr.
Tucker believed that KPMG would protect his
interests as KPMG had done when it terminated the
short options strategy in response to Notice 2000-44,
supra. Mr. Tucker believed that KPMG would not
recommend an abusive tax shelter, and KPMG’s
withdrawal of the short options strategy after the
issuance of Notice 2000-44, supra, confirmed this. He
testified that KPMG’s withdrawal of the short options
strategy “made me feel better.” Accordingly, when
KPMG recommended the FX transaction, Mr. Tucker
believed it was a legitimate tax planning solution.
Because of his past experiences, Mr. Tucker did not
expect that KPMG would recommend an abusive tax
shelter. KPMG offered the FX transaction to only a
limited number of individuals, three Waddell & Reed
executives including Mr. Tucker. Mr. Tucker viewed
KPMG’s actions with respect to the FX transaction as
an integral part of KPMG’s normal tax planning
advice on the basis of his longstanding relationship
with KPMG, KPMG’s role in the WR executive
program, and his representations to KPMG that he
did not want to engage in a tax strategy that could
jeopardize Waddell & Reed’s or his own reputation
within the financial services industry. In fact,
Waddell & Reed engaged KPMG to assist its senior
executives in financial and tax planning in part to
protect Waddell & Reed’s reputation in the financial
services industry. At KPMG’s recommendation, Mr.
Tucker made $4 million in investments separate from
the FX transaction to protect himself from IRS
penalties.
At the time of the FX transaction KPMG was one
of the largest accounting firms in the United States.

90a
Mr. Tucker viewed Mr. Schorr as a preeminent person
for coordinating tax return compliance and tax and
financial planning. Mr. Tucker believes KPMG
misled him. He was forced to resign as CEO of
Waddell & Reed and is no longer employable in the
financial services industry. In the end, Mr. Tucker
lost his position at Waddell & Reed because of his
participation in the FX transaction and received a
large settlement from KPMG for his lost future
compensation. We note that in our order dated
August 24, 2015, we found that Mr. Tucker’s
representations in his arbitration proceeding against
KPMG support his assertion that he relied on the
advice he received from KPMG in good faith. Because
of Mr. Tucker’s long relationship with Mr. Schorr, he
was less likely to question KPMG’s advice. While Mr.
Tucker was motivated to reduce his 2000 income tax
liability, he consistently represented to KPMG that
he did not want to put his own reputation or career on
the line as a result of a tax scheme. When KPMG
recommended the FX transaction, Mr. Tucker
believed in good faith that it was not abusive.
Accordingly, we find that the section 6662 penalty is
not applicable.
Mr. Schorr was a competent tax professional and
had access to all necessary and accurate information
about the FX transaction through his employment
with KPMG. Mr. Schorr did not have a financial
interest in the FX transaction as a tax shelter
promoter would. While KPMG increased its fee above
its initial fee, Mr. Schorr did not financially benefit
from the increase. Mr. Tucker knew that Mr. Speiss
at KPMG created the FX transaction as a customized
tax solution to mitigate his 2000 income tax. Yet he
did not understand that Mr. Speiss’ involvement

91a
created an inherent conflict of interest with his
longstanding relationship with Mr. Schorr and
KPMG as his return preparer. Mr. Schorr also
credibly testified that he did not believe Mr. Speiss’
involvement created a conflict of interest. Further
KPMG indicated to Mr. Tucker that Brown & Wood
could provide independent legal advice with respect
to the FX transaction. Mr. Tucker did not view KPMG
as the promoter of a tax shelter for a number of
reasons including his longstanding relationship with
KPMG, KPMG’s role in the WR executive program,
and his statements to KPMG that he did not want to
engage in a tax strategy that could jeopardize
Waddell & Reed’s or his own reputation within the
financial services industry. He considered his main
contact at KPMG, Mr. Schorr, to be a friend who
would look out for his best interests. Mr. Tucker
believed that KPMG would protect his interests as it
had done when it terminated the short options
strategy. KPMG withdrew the short options strategy
as abusive, and Mr. Tucker believed that KPMG
would not recommend another potentially abusive
transaction.
Mr. Tucker credibly testified that
KPMG’s withdrawal of the short options strategy
strengthened his trust in KPMG and his decades-old
relationship with Mr. Schorr.
We place little weight on Mr. Tucker’s failure to
review certain documents relating to the FX
transaction. As a senior executive, Mr. Tucker
depended heavily on his personal assistant. We do
not view Mr. Tucker’s following his normal practices
when dealing with his taxes as a failure of good faith
or reasonable diligence. As a senior executive, Mr.
Tucker had a management style of delegating to
people whom he trusted. Having his administrative

92a
assistant open and read emails relating to the FX
transaction was consistent with Mr. Tucker’s normal
business practice. Likewise we do not find the fact
that Mr. Tucker did not read Notice 2000-44, supra,
himself to preclude a finding of reasonable reliance on
his adviser. Respondent argues that Mr. Tucker
should have read Notice 2000-44, supra.13 Mr.
Tucker, who had experience with insurance tax
matters in the early part of his career, left the tax
field in 1984 and focused entirely on the financial
services industry. Mr. Tucker relied on KPMG
because he believed that he would not understand the
technical tax implications of the FX transaction.
Despite his background, C.P.A. license, and law
degree, Mr. Tucker had little understanding of the
complicated tax issues involved in the FX transaction.
We do not base our finding of Mr. Tucker’s
reasonable cause and good faith on the Brown & Wood
opinions. Mr. Tucker did not receive at least one of
the Brown & Wood opinions before petitioners filed
their 2000 joint return, did not read either opinion,
and had limited direct communication with Brown
& Wood attorneys. There is no evidence that Mr.
Tucker directly paid any fees to Brown & Wood for the
opinions. Moreover, the promoter group provided
drafts of the opinions to Brown & Wood. The
reasonable cause defense depends on the particular
facts and circumstances of each case. In this case, we
find that petitioners have established that they met
the requirements of the reasonable cause defense and
find that they are not liable for the section 6662

13 Lehman Brothers’ new account forms, which Mr. Tucker
did not read, also mentioned Notice 2000-44, 2000-2 C.B. 255.

93a
penalty.14 Mr. Tucker made a sufficient good-faith
effort to assess his 2000 income tax and reasonably
relied on Mr. Schorr’s professional advice. To find
otherwise would require taxpayers to challenge their
attorneys, seek second opinions, or try to
independently monitor their advisers on the complex
provisions of the Code.
In reaching our holdings herein, we have
considered all arguments made, and to the extent not
mentioned, we conclude they are moot, irrelevant, or
without merit.
To reflect the foregoing,
Decision will be entered
for respondent on the
deficiency
and
for
petitioners on the penalty.

14 Respondent argues that Mr. Tucker’s statements in the

arbitration proceeding against KPMG are admissions that
prevent him from establishing reasonable cause here. We
disagree, as we held in our order dated August 24, 2015, denying
respondent’s motion for summary judgment.

94a
26 U.S.C. § 951 (2000)
Title 26. Internal Revenue Code
Subtitle A. Income Taxes
Chapter 1. Normal Taxes and Surtaxes
Subchapter N. Tax Based on Income from Sources
Within or Without the United States
Part III. Income from Sources Without the
United States
Subpart F. Controlled Foreign Corporations
§ 951. Amounts included in gross income of
United States shareholders
(a) Amounts included
(1) In general
If a foreign corporation is a controlled foreign
corporation for an uninterrupted period of 30 days
or more during any taxable year, every person who
is a United States shareholder (as defined in
subsection (b)) of such corporation and who owns
(within the meaning of section 958(a)) stock in such
corporation on the last day, in such year, on which
such corporation is a controlled foreign corporation
shall include in his gross income, for his taxable
year in which or with which such taxable year of the
corporation ends—
(A) the sum of—
(i) his pro rata share (determined under
paragraph (2)) of the corporation’s subpart F
income for such year,
(ii) his pro rata share (determined under
section 955(a)(3) as in effect before the
enactment of the Tax Reduction Act of 1975) of
the corporation’s previously excluded subpart F

95a
income withdrawn from investment in less
developed countries for such year, and
(iii) his pro rata share (determined under
section 955(a)(3)) of the corporation’s previously
excluded subpart F income withdrawn from
foreign base company shipping operations for
such year; and
(B) the amount determined under section 956
with respect to such shareholder for such year (but
only to the extent not excluded from gross income
under section 959(a)(2)).
(2) Pro rata share of subpart F income
The pro rata share referred to in paragraph
(1)(A)(i) in the case of any United States shareholder
is the amount—
(A) which would have been distributed with
respect to the stock which such shareholder owns
(within the meaning of section 958(a)) in such
corporation if on the last day, in its taxable year,
on which the corporation is a controlled foreign
corporation it had distributed pro rata to its
shareholders an amount (i) which bears the same
ratio to its subpart F income for the taxable year,
as (ii) the part of such year during which the
corporation is a controlled foreign corporation
bears to the entire year, reduced by
(B) the amount of distributions received by any
other person during such year as a dividend with
respect to such stock, but only to the extent of the
dividend which would have been received if the
distribution by the corporation had been the
amount (i) which bears the same ratio to the
subpart F income of such corporation for the

96a
taxable year, as (ii) the part of such year during
which such shareholder did not own (within the
meaning of section 958(a)) such stock bears to the
entire year.
For purposes of subparagraph (B), any gain included
in the gross income of any person as a dividend
under section 1248 shall be treated as a distribution
received by such person with respect to the stock
involved.
(3) Limitation on pro rata share of previously
excluded subpart F income withdrawn from
investment
For purposes of paragraph (1)(A)(iii), the pro rata
share of any United States shareholder of the
previously excluded subpart F income of a controlled
foreign corporation withdrawn from investment in
foreign base company shipping operations shall not
exceed an amount—
(A) which bears the same ratio to his pro rata
share of such income withdrawn (as determined
under section 955(a)(3)) for the taxable year, as
(B) the part of such year during which the
corporation is a controlled foreign corporation
bears to the entire year.
***

97a
26 C.F.R. § 301.7701-3 (2000)
§ 301.7701–3 Classification of certain business
entities
***
(c) Elections—(1) Time and place for filing—(i) In
general. Except as provided in paragraphs (c)(1)(iv)
and (v) of this section, an eligible entity may elect to
be classified other than as provided under paragraph
(b) of this section, or to change its classification, by
filing Form 8832, Entity Classification Election, with
the service center designated on Form 8832. An
election will not be accepted unless all of the
information required by the form and instructions,
including the taxpayer identifying number of the
entity, is provided on Form 8832. See § 301.6109–1
for rules on applying for and displaying Employer
Identification Numbers.
(ii) Further notification of elections. An eligible
entity required to file a federal tax or information
return for the taxable year for which an election is
made under paragraph (c)(1)(i) of this section must
attach a copy of its Form 8832 to its federal tax or
information return for that year. If the entity is not
required to file a return for that year, a copy of its
Form 8832 must be attached to the federal income tax
or information return of any direct or indirect owner
of the entity for the taxable year of the owner that
includes the date on which the election was effective.
An indirect owner of the entity does not have to attach
a copy of the Form 8832 to its return if an entity in
which it has an interest is already filing a copy of the
Form 8832 with its return. If an entity, or one of its
direct or indirect owners, fails to attach a copy of a

98a
Form 8832 to its return as directed in this section, an
otherwise valid election under paragraph (c)(1)(i) of
this section will not be invalidated, but the non-filing
party may be subject to penalties, including any
applicable penalties if the federal tax or information
returns are inconsistent with the entity’s election
under paragraph (c)(1)(i) of this section.
(iii) Effective date of election. An election made
under paragraph (c)(1)(i) of this section will be
effective on the date specified by the entity on Form
8832 or on the date filed if no such date is specified on
the election form. The effective date specified on
Form 8832 can not be more than 75 days prior to the
date on which the election is filed and can not be more
than 12 months after the date on which the election
is filed. If an election specifies an effective date more
than 75 days prior to the date on which the election is
filed, it will be effective 75 days prior to the date it
was filed. If an election specifies an effective date
more than 12 months from the date on which the
election is filed, it will be effective 12 months after the
date it was filed. If an election specifies an effective
date before January 1, 1997, it will be effective as of
January 1, 1997. If a purchasing corporation makes
an election under section 338 regarding an acquired
subsidiary, an election under paragraph (c)(1)(i) of
this section for the acquired subsidiary can be
effective no earlier than the day after the acquisition
date (within the meaning of section 338(h)(2)).
(iv) Limitation. If an eligible entity makes an
election under paragraph (c)(1)(i) of this section to
change its classification (other than an election made
by an existing entity to change its classification as of
the effective date of this section), the entity cannot

99a
change its classification by election again during the
sixty months succeeding the effective date of the
election. However, the Commissioner may permit the
entity to change its classification by election within
the sixty months if more than fifty percent of the
ownership interests in the entity as of the effective
date of the subsequent election are owned by persons
that did not own any interests in the entity on the
filing date or on the effective date of the entity’s prior
election. An election by a newly formed eligible entity
that is effective on the date of formation is not
considered a change for purposes of this paragraph
(c)(1)(iv).
(v) Deemed elections—(A) Exempt organizations.
An eligible entity that has been determined to be, or
claims to be, exempt from taxation under section
501(a) is treated as having made an election under
this section to be classified as an association. Such
election will be effective as of the first day for which
exemption is claimed or determined to apply,
regardless of when the claim or determination is
made, and will remain in effect unless an election is
made under paragraph (c)(1)(i) of this section after
the date the claim for exempt status is withdrawn or
rejected or the date the determination of exempt
status is revoked.
(B) Real estate investment trusts. An eligible
entity that files an election under section 856(c)(1) to
be treated as a real estate investment trust is treated
as having made an election under this section to be
classified as an association. Such election will be
effective as of the first day the entity is treated as a
real estate investment trust.

100a
(vi) Examples. The following examples illustrate
the rules of this paragraph (c)(1):
Example 1. On July 1, 1998, X, a domestic
corporation, purchases a 10% interest in Y, an eligible
entity formed under Country A law in 1990. The
entity’s classification was not relevant to any person
for federal tax or information purposes prior to X’s
acquisition of an interest in Y. Thus, Y is not
considered to be in existence on the effective date of
this section for purposes of paragraph (b)(3) of this
section. Under the applicable Country A statute, all
members of Y have limited liability as defined in
paragraph (b)(2)(ii) of this section. Accordingly, Y is
classified as an association under paragraph
(b)(2)(i)(B) of this section unless it elects under this
paragraph (c) to be classified as a partnership. To be
classified as a partnership as of July 1, 1998, Y must
file a Form 8832 by September 14, 1998. See
paragraph (c)(1)(i) of this section. Because an election
cannot be effective more than 75 days prior to the date
on which it is filed, if Y files its Form 8832 after
September 14, 1998, it will be classified as an
association from July 1, 1998, until the effective date
of the election. In that case, it could not change its
classification by election under this paragraph (c)
during the sixty months succeeding the effective date
of the election.
Example 2. (i) Z is an eligible entity formed under
Country B law and is in existence on the effective date
of this section within the meaning of paragraph (b)(3)
of this section. Prior to the effective date of this
section, Z claimed to be classified as an association.
Unless Z files an election under this paragraph (c), it

101a
will continue to be classified as an association under
paragraph (b)(3) of this section.
(ii) Z files a Form 8832 pursuant to this paragraph
(c) to be classified as a partnership, effective as of the
effective date of this section. Z can file an election to
be classified as an association at any time thereafter,
but then would not be permitted to change its
classification by election during the sixty months
succeeding the effective date of that subsequent
election.
(2) Authorized signatures—(i) In general. An
election made under paragraph (c)(1)(i) of this section
must be signed by—
(A) Each member of the electing entity who is an
owner at the time the election is filed; or
(B) Any officer, manager, or member of the
electing entity who is authorized (under local law or
the entity’s organizational documents) to make the
election and who represents to having such
authorization under penalties of perjury.
(ii) Retroactive elections.
For purposes of
paragraph (c)(2)(i) of this section, if an election under
paragraph (c)(1)(i) of this section is to be effective for
any period prior to the time that it is filed, each
person who was an owner between the date the
election is to be effective and the date the election is
filed, and who is not an owner at the time the election
is filed, must also sign the election.
(iii) Changes in classification. For paragraph
(c)(2)(i) of this section, if an election under paragraph
(c)(1)(i) of this section is made to change the
classification of an entity, each person who was an

102a
owner on the date that any transactions under
paragraph (g) of this section are deemed to occur, and
who is not an owner at the time the election is filed,
must also sign the election. This paragraph (c)(2)(iii)
applies to elections filed on or after November 29,
1999.
***
(g) Elective changes in classification—(1) Deemed
treatment of elective change—(i) Partnership to
association. If an eligible entity classified as a
partnership elects under paragraph (c)(1)(i) of this
section to be classified as an association, the following
is deemed to occur: The partnership contributes all of
its assets and liabilities to the association in exchange
for stock in the association, and immediately
thereafter, the partnership liquidates by distributing
the stock of the association to its partners.
(ii) Association to partnership. If an eligible entity
classified as an association elects under paragraph
(c)(1)(i) of this section to be classified as a partnership,
the following is deemed to occur: The association
distributes all of its assets and liabilities to its
shareholders in liquidation of the association, and
immediately thereafter, the shareholders contribute
all of the distributed assets and liabilities to a newly
formed partnership.
(iii) Association to disregarded entity. If an eligible
entity classified as an association elects under
paragraph (c)(1)(i) of this section to be disregarded as
an entity separate from its owner, the following is
deemed to occur: The association distributes all of its
assets and liabilities to its single owner in liquidation
of the association.

103a
(iv) Disregarded entity to an association. If an
eligible entity that is disregarded as an entity
separate from its owner elects under paragraph
(c)(1)(i) of this section to be classified as an
association, the following is deemed to occur: The
owner of the eligible entity contributes all of the
assets and liabilities of the entity to the association in
exchange for stock of the association.
(2) Effect of elective changes. The tax treatment of
a change in the classification of an entity for federal
tax purposes by election under paragraph (c)(1)(i) of
this section is determined under all relevant
provisions of the Internal Revenue Code and general
principles of tax law, including the step transaction
doctrine.
(3) Timing of election—(i) In general. An election
under paragraph (c)(1)(i) of this section that changes
the classification of an eligible entity for federal tax
purposes is treated as occurring at the start of the day
for which the election is effective. Any transactions
that are deemed to occur under this paragraph (g) as
a result of a change in classification are treated as
occurring immediately before the close of the day
before the election is effective. For example, if an
election is made to change the classification of an
entity from an association to a partnership effective
on January 1, the deemed transactions specified in
paragraph (g)(1)(ii) of this section (including the
liquidation of the association) are treated as occurring
immediately before the close of December 31 and
must be reported by the owners of the entity on
December 31. Thus, the last day of the association’s
taxable year will be December 31 and the first day of
the partnership’s taxable year will be January 1.

104a
(ii) Coordination with section 338 election. A
purchasing corporation that makes a qualified stock
purchase of an eligible entity taxed as a corporation
may make an election under section 338 regarding the
acquisition if it satisfies the requirements for the
election, and may also make an election to change the
classification of the target corporation. If a taxpayer
makes an election under section 338 regarding its
acquisition of another entity taxable as a corporation
and makes an election under paragraph (c) of this
section for the acquired corporation (effective at the
earliest possible date as provided by paragraph
(c)(1)(iii) of this section), the transactions under
paragraph (g) of this section are deemed to occur
immediately after the deemed asset purchase by the
new target corporation under section 338.
(iii) Application to successive elections in tiered
situations. When elections under paragraph (c)(1)(i)
of this section for a series of tiered entities are
effective on the same date, the eligible entities may
specify the order of the elections on Form 8832. If no
order is specified for the elections, any transactions
that are deemed to occur in this paragraph (g) as a
result of the classification change will be treated as
occurring first for the highest tier entity’s
classification change, then for the next highest tier
entity’s classification change, and so forth down the
chain of entities until all the transactions under this
paragraph (g) have occurred. For example, Parent, a
corporation, wholly owns all of the interest of an
eligible entity classified as an association (S1), which
wholly owns another eligible entity classified as an
association (S2), which wholly owns another eligible
entity classified as an association (S3). Elections
under paragraph (c)(1)(i) of this section are filed to

105a
classify S1, S2, and S3 each as disregarded as an
entity separate from its owner effective on the same
day. If no order is specified for the elections, the
following transactions are deemed to occur under this
paragraph (g) as a result of the elections, with each
successive transaction occurring on the same day
immediately after the preceding transaction S1 is
treated as liquidating into Parent, then S2 is treated
as liquidating into Parent, and finally S3 is treated as
liquidating into Parent.
(4) Effective date. This paragraph (g) applies to
elections that are filed on or after November 29, 1999.
Taxpayers may apply this paragraph (g) retroactively
to elections filed before November 29, 1999 if all
taxpayers affected by the deemed transactions file
consistently with this paragraph (g).
***

106a
26 C.F.R. § 1.367(b)-3 (2000)
§ 1.367(b)–3 Repatriation of foreign corporate
assets
in
certain
non-recognition
transactions.
***
(b) Exchange of stock owned directly by a United
States shareholder or by certain foreign corporate
shareholders—(1) Scope. This paragraph (b) applies
in the case of an exchanging shareholder that is
either—
(i) A United States shareholder of the foreign
acquired corporation; or
(ii) A foreign corporation with respect to which
there are one or more United States shareholders.
(2) United States shareholder. For purposes of this
section (and for purposes of the other section 367(b)
regulation provisions that specifically refer to this
paragraph (b)(2)), the term United States shareholder
means any shareholder described in section 951(b)
(without regard to whether the foreign corporation is
a controlled foreign corporation), and also any
shareholder described in section 953(c)(1)(A) (but only
if the foreign corporation is a controlled foreign
corporation subject to the rules of section 953(c)).
(3) Income inclusion—(i) Inclusion of all earnings
and profits amount. An exchanging shareholder shall
include in income as a deemed dividend the all
earnings and profits amount with respect to its stock
in the foreign acquired corporation.
For the
consequences of the deemed dividend, see § 1.367(b)–
2(e). Notwithstanding § 1.367(b)–2(e), however, a
deemed dividend from the foreign acquired

107a
corporation to an exchanging foreign corporate
shareholder shall not qualify for the exception from
foreign personal holding company income provided by
section 954(c)(3)(A)(i), although it may qualify for the
look-through treatment provided by section 904(d)(3)
if the requirements of that section are met with
respect to the deemed dividend.
(ii) Examples. The following examples illustrate
the rules of paragraph (b)(3)(i) of this section:
Example 1— (i) Facts. DC, a domestic corporation,
owns all of the outstanding stock of FC, a foreign
corporation. The stock of FC has a value of $100, and
DC has a basis of $30 in such stock. The all earnings
and profits amount attributable to the FC stock
owned by DC is $20, of which $15 is described in
section 1248(a) and the remaining $5 is not (for
example, because it accumulated prior to 1963). FC
has a basis of $50 in its assets. In a liquidation
described in section 332, FC distributes all of its
property to DC, and the FC stock held by DC is
canceled.
(ii) Result. Under paragraph (b)(3)(i) of this
section, DC must include $20 in income as a deemed
dividend from FC. Under section 337(a) FC does not
recognize gain or loss in the assets that it distributes
to DC, and under section 334(b), DC takes a basis of
$50 in such assets. Because the requirements of
section 902 are met, DC qualifies for a deemed paid
foreign tax credit with respect to the deemed dividend
that it receives from FC.
Example 2— (i) Facts. DC, a domestic corporation,
owns all of the outstanding stock of FC, a foreign
corporation. The stock of FC has a value of $100, and

108a
DC has a basis of $30 in such stock. The all earnings
and profits amount attributable to the FC stock
owned by DC is $75. FC has a basis of $50 in its
assets. In a liquidation described in section 332, FC
distributes all of its property to DC, and the FC stock
held by DC is canceled.
(ii) Result. Under paragraph (b)(3)(i) of this
section, DC must include $75 in income as a deemed
dividend from FC. Under section 337(a) FC does not
recognize gain or loss in the assets that it distributes
to DC, and under section 334(b), DC takes a basis of
$50 in such assets. Because the requirements of
section 902 are met, DC qualifies for a deemed paid
foreign tax credit with respect to the deemed dividend
that it receives from FC.
Example 3— (i) Facts. DC, a domestic corporation,
owns 80 percent of the outstanding stock of FC, a
foreign corporation. DC has owned its 80 percent
interest in FC since FC was incorporated. The
remaining 20 percent of the outstanding stock of FC
is owned by a person unrelated to DC (the minority
shareholder). The stock of FC owned by DC has a
value of $80, and DC has a basis of $24 in such stock.
The stock of FC owned by the minority shareholder
has a value of $20, and the minority shareholder has
a basis of $18 in such stock. FC’s only asset is land
having a value of $100, and FC has a basis of $50 in
the land. Gain on the land would not generate
earnings and profits qualifying under section 1248(d)
for an exclusion from earnings and profits for
purposes of section 1248. FC has earnings and profits
of $20 (determined under the rules of § 1.367(b)–
2(d)(2)(i) and (ii)), $16 of which is attributable to the
stock owned by DC under the rules of § 1.367(b)–

109a
2(d)(3). FC subdivides the land and distributes to the
minority shareholder land with a value of $20 and a
basis of $10. As part of the same transaction, in a
liquidation described in section 332, FC distributes
the remainder of its land to DC, and the FC stock held
by DC and the minority shareholder is canceled.
(ii) Result. Under section 336, FC must recognize
the $10 of gain it realizes in the land it distributes to
the minority shareholder, and under section 331 the
minority shareholder recognizes its gain of $2 in the
stock of FC. Such gain is included in income by the
minority shareholder as a dividend to the extent
provided in section 1248 if the minority shareholder
is a United States person that is described in section
1248(a)(2). Under § 1.367(b)–2(d)(2)(iii), the $10 of
gain recognized by FC increases its earnings and
profits for purposes of computing the all earnings and
profits amount and, as a result, $8 of such increase
(80 percent of $10) is considered to be attributable to
the FC stock owned by DC under § 1.367(b)–
2(d)(3)(i)(A)(1). DC’s all earnings and profits amount
with respect to its stock in FC is $24 (the $16 of initial
all earnings and profits amount with respect to the
FC stock held by DC, plus the $8 addition to such
amount that results from FC’s recognition of gain on
the distribution to the minority shareholder). Under
paragraph (b)(3)(i) of this section, DC must include
the $24 all earnings and profits amount in income as
a deemed dividend from FC.
Example 4— (i) Facts.
DC1, a domestic
corporation, owns all of the outstanding stock of DC2,
a domestic corporation. DC1 also owns all of the
outstanding stock of FC, a foreign corporation. The
stock of FC has a value of $100, and DC1 has a basis

110a
of $30 in such stock. The assets of FC have a value of
$100. The all earnings and profits amount with
respect to the FC stock owned by DC1 is $20. In a
reorganization described in section 368(a)(1)(D), DC2
acquires all of the assets of FC solely in exchange for
DC2 stock. FC distributes the DC2 stock to DC1, and
the FC stock held by DC1 is canceled.
(ii) Result. DC1 must include $20 in income as a
deemed dividend from FC under paragraph (b)(3)(i) of
this section. Under section 361, FC does not recognize
gain or loss in the assets that it transfers to DC2 or in
the DC2 stock that it distributes to DC1, and under
section 362(b) DC2 takes a basis in the assets that it
acquires from FC equal to the basis that FC had
therein. Under § 1.367(b)–2(e)(3)(ii) and section
358(a)(1), DC1 takes a basis of $50 (its $30 basis in
the stock of FC, plus the $20 that was treated as a
deemed dividend to DC1) in the stock of DC2 that it
receives in exchange for the stock of FC. Under
§ 1.367(b)–2(e)(3)(iii) and section 312(a), the earnings
and profits of FC are reduced by the $20 deemed
dividend.
Example 5— (i) Facts.
DC1, a domestic
corporation, owns all of the outstanding stock of DC2,
a domestic corporation. DC1 also owns all of the
outstanding stock of FC1, a foreign corporation. FC1
owns all of the outstanding stock of FC2, a foreign
corporation. The all earnings and profits amount
with respect to the FC2 stock owned by FC1 is $20.
In a reorganization described in section 368(a)(1)(D),
DC2 acquires all of the assets and liabilities of FC2 in
exchange for DC2 stock. FC2 distributes the DC2
stock to FC1, and the FC2 stock held by FC1 is
canceled.

111a
(ii) Result. FC1 must include $20 in income as a
deemed dividend from FC2 under paragraph (b)(3)(i)
of this section. The deemed dividend is treated as a
dividend for purposes of the Internal Revenue Code
as provided in § 1.367(b)–2(e)(2); however, under
paragraph (b)(3)(i) of this section the deemed
dividend cannot qualify for the exception from foreign
personal holding company income provided by section
954(c)(3)(A)(i), even if the provisions of that section
would otherwise have been met in the case of an
actual dividend.
Example 6. (i) Facts. DC1, a domestic corporation,
owns 99 percent of USP, a domestic partnership. The
remaining 1 percent of USP is owned by a person
unrelated to DC1. DC1 and USP each directly own 9
percent of the outstanding stock of FC, a foreign
corporation that is not a controlled foreign
corporation subject to the rule of section 953(c). In a
reorganization described in section 368(a)(1)(C), DC2,
a domestic corporation, acquires all of the assets and
liabilities of FC in exchange for DC2 stock. FC
distributes to its shareholders DC2 stock, and the FC
stock held by its shareholders is canceled.
(ii) Result. (A) DC1 and USP are United States
persons that are exchanging shareholders in a
transaction described in paragraph (a) of this section.
As a result, DC1 and USP are subject to the rules of
paragraph (b) of this section if they qualify as United
States shareholders as defined in paragraph (b)(2) of
this section. Alternatively, if they do not qualify as
United States shareholders as defined in paragraph
(b)(2) of this section, DC1 and USP are subject to the
rules of paragraph (c) of this section. Paragraph (b)(2)
of this section defines the term United States

112a
shareholder to include any shareholder described in
section 951(b) (without regard to whether the foreign
corporation is a controlled foreign corporation). A
shareholder described in section 951(b) is a United
States person that is considered to own, applying the
rules of section 958(a) and 958(b), 10 percent or more
of the total combined voting power of all classes of
stock entitled to vote of a foreign corporation. Under
section 958(b), the rules of section 318(a), as modified
by section 958(b) and the regulations thereunder,
apply so that, in general, stock owned directly or
indirectly by a partnership is considered as owned
proportionately by its partners, and stock owned
directly or indirectly by a partner is considered as
owned by the partnership. Thus, under section
958(b), DC1 is treated as owning its proportionate
share of FC stock held by USP, and USP is treated as
owning all of the FC stock held by DC1.
(B) Accordingly, for purposes of determining
whether DC1 is a United States shareholder under
paragraph (b)(2) of this section, DC1 is considered as
owning 99 percent of the 9 percent of FC stock held by
USP. Because DC1 also owns 9 percent of FC stock
directly, DC1 is considered as owning more than 10
percent of FC stock. DC1 is thus a United States
shareholder of FC under paragraph (b)(2) of this
section and, as a result, is subject to the rules of
paragraph (b) of this section. However, for purposes
of determining DC1’s all earnings and profits amount,
DC1 is not treated as owning the FC stock held by
USP. Under § 1.367(b)–2(d)(3), DC1’s all earnings
and profits amount is determined by reference to the
9 percent of FC stock that it directly owns.

113a
(C) For purposes of determining whether USP is a
United States shareholder under paragraph (b)(2) of
this section, USP is considered as owning the 9
percent of FC stock held by DC1. Because USP also
owns 9 percent of FC stock directly, USP is considered
as owning more than 10 percent of FC stock. USP is
thus a United States shareholder of FC under
paragraph (b)(2) of this section and, as a result, is
subject to the rules of paragraph (b) of this section.
However, for purposes of determining USP’s all
earnings and profits amount, USP is not treated as
owning the FC shares held by DC1. Under § 1.367(b)–
2(d)(3), USP’s all earnings and profits amount is
determined by reference to the 9 percent of FC stock
that it directly owns.
(iii) Recognition of exchange gain or loss with
respect to capital. [Reserved]
(4) Reserved. For further guidance concerning
section 367(b) exchanges occurring before February
23, 2001, see § 1.367(b)–3T(b)(4).
***

114a
26 C.F.R. § 1.367(b)-3T (2000)
§ 1.367(b)–3T Repatriation of foreign corporate
assets
in
certain
nonrecognition
transactions (temporary)
(a) through (b)(3).
[Reserved].
For further
guidance, see § 1.367(b)–3(a) through (b)(3).
(4) Election of taxable exchange treatment—
(i) Rules—(A) In general. In lieu of the treatment
prescribed by § 1.367(b)–3(b)(3)(i), an exchanging
shareholder described in § 1.367(b)–3(b)(1) may
instead elect to recognize the gain (but not loss) that
it realizes in the exchange (taxable exchange
election). To make a taxable exchange election, the
following requirements must be satisfied—
(1) The exchanging shareholder (and its direct or
indirect owners that would be affected by the election,
in the case of an exchanging shareholder that is a
foreign corporation) reports the exchange in a manner
consistent therewith (see, e.g., sections 954(c)(1)(B)(i),
1001 and 1248);
(2) The notification requirements of paragraph
(b)(4)(i)(C) of this section are satisfied; and
(3) The adjustments described in paragraph
(b)(4)(i)(B) of this section are made when the following
circumstances are present—
(i) The transaction is described in section 332 or is
an asset acquisition described in section 368(a)(1),
with regard to which one U.S. person owns (directly
or indirectly) 100 percent of the foreign acquired
corporation; and
(ii) The all earnings and profits amount described
in § 1.367(b)–3(b)(3)(i) with respect to the exchange

115a
exceeds the gain recognized by the exchanging
shareholder.
(B) Attribute reduction—(1) Reduction of NOL
carryovers. The amount by which the all earnings and
profits amount exceeds the gain recognized by the
exchanging shareholder (the excess earnings and
profits amount) shall be applied to reduce the net
operating loss carryovers (if any) of the foreign
acquired corporation to which the domestic acquiring
corporation would otherwise succeed under section
381(a) and (c)(1). See also Rev. Rul. 72–421 (1972–2
C.B. 166) (see § 601.601(d)(2) of this chapter).
(2) Reduction of capital loss carryovers. After the
application of paragraph (b)(4)(i)(B)(1) of this section,
any remaining excess earnings and profits amount
shall be applied to reduce the capital loss carryovers
(if any) of the foreign acquired corporation to which
the domestic acquiring corporation would otherwise
succeed under section 381(a) and (c)(3).
(3) Reduction of basis. After the application of
paragraph (b)(4)(i)(B)(2) of this section, any
remaining excess earnings and profits amount shall
be applied to reduce (but not below zero) the basis of
the assets (other than dollar-denominated money) of
the foreign acquired corporation that are acquired by
the domestic acquiring corporation. Such remaining
excess earnings and profits amount shall be applied
to reduce the basis of such assets in the following
order: first, tangible depreciable or depletable assets,
according to their class lives (beginning with those
assets with the shortest class life); second, other noninventory tangible assets; third, intangible assets
that are amortizable; and finally, the remaining
assets of the foreign acquired corporation that are

116a
acquired by the domestic acquiring corporation.
Within each of these categories, if the total basis of all
assets in the category is greater than the excess
earnings and profits amount to be applied against
such basis, the taxpayer may choose to which specific
assets in the category the basis reduction first applies.
(C) Notification.
The exchanging shareholder
shall elect to apply the rules of this paragraph (b)(4)(i)
by attaching a statement of its election to its section
367(b) notice. See § 1.367(b)–1(c) For the rules
concerning filing a section 367(b) notice.
(D) Example— The following example illustrates
the rules of this paragraph (b)(4)(i):
Example. (i) Facts. DC, a domestic corporation,
owns all of the outstanding stock of FC, a foreign
corporation. The stock of FC has a value of $100, and
DC has a basis of $80 in such stock. The assets of FC
are one parcel of land with a value of $60 and a basis
of $30, and tangible depreciable assets with a value of
$40 and a basis of $80. FC has no net operating loss
carryovers or capital loss carryovers. The all earnings
and profits amount with respect to the FC stock
owned by DC is $30, of which $19 is described in
section 1248(a) and the remaining $11 is not (for
example, because it was earned prior to 1963). In a
liquidation described in section 332, FC distributes all
of its property to DC, and the FC stock held by DC is
canceled. Rather than including in income as a
deemed dividend the all earnings and profits amount
of $30 as provided in § 1.367(b)–3(b)(3)(i), DC instead
elects taxable exchange treatment under paragraph
(b)(4)(i)(A) of this section.

117a
(ii) Result. DC recognizes the $20 of gain it
realizes on its stock in FC. Of this $20 amount, $19
is included in income by DC as a dividend pursuant to
section 1248(a). (For the source of the remaining $1
of gain recognized by DC, see section 865. For the
treatment of the $1 for purposes of the foreign tax
credit
limitation,
see
generally
section
904(d)(2)(A)(i).) Because the transaction is described
in section 332 and because the all earnings and profits
amount with respect to the FC stock held by DC ($30)
exceeds by $10 the income recognized by DC ($20), the
attribute reduction rules of paragraph (b)(4)(i)(B) of
this section apply. Accordingly, the $10 excess
earnings and profits amount is applied to reduce the
basis of the tangible depreciable assets of FC,
beginning with those assets with the shortest class
lives. Under section 337(a) FC does not recognize
gain or loss in the assets that it distributes to DC, and
under section 334(b) (which is applied taking into
account the basis reduction prescribed by paragraph
(b)(4)(i)(A)(3) of this section) DC takes a basis of $30
in the land and $70 in the tangible depreciable assets
that it receives from FC.
(ii) Effective date. This paragraph (b)(4) applies for
section 367(b) exchanges that occur between
February 23, 2000, and February 23, 2001.
***

